u.s.   Department of Justice
Office of the Inspector General




 Report Regarding Investigation of
 Improper Hiring Practices in the
  Justice Management Division




                                  Office of the Inspector General
                                  Oversight and Review Division
                                                       July 2012




                    REDACTED - FOR PUBLIC RELEASE
I. 	   INTRODUCTION

      This report summarizes the results of an investigation by the
Department of Justice (DOJ) Office of the Inspector General (OIG) into
allegations of improper hiring practices involving multiple offices in the
Justice Management Division (JMD), including the Facilities and
Administrative Services Staff (FASS), the Human Resources Staff (HR), the
Finance Staff, and the Budget Staff. *

       A. 	    Initiation and Expansion of this Investigation

       This investigation was initiated as a result of information provided by
a former DOJ employee to Congressman Frank R. Wolf, which was
forwarded to the OIG on September 21, 2010. The allegations described
"collusion between Department of Justice's Office of Personnel and FASS to
illegally hire each other's family." Among other things, the complaint
alleged that HR Assistant Director Pamela Cabell-Edelen and FASS Director
Edward A. Hamilton, Sr. engaged in nepotism by hiring each other's
children.

      During the course of the OIG investigation, the OIG came to
investigate several additional allegations regarding hiring decisions within
JMD and reviewed the circumstances surrounding the following events:

       •	      The hiring of FASS Deputy Director Michael Clay's daughter
               into JMD by HR Assistant Director Jeanarta McEachron, and
               related efforts by Clay to find positions for McEachron's brother.
       •	      The hiring of the son and the niece of Nancy Horkan, the Senior
               Advisor to Deputy Assistant Attorney General for Human
               Resources and Administration (DAAG-HRA) Mari Barr
               Santangelo, on the Finance Staff and HR Staff, respectively.
       •	      The hiring of the nephew and the cousin of HR Director Rodney
               E. Markham by the DOJ National Security Division (NSD) and
               the Budget Staff, respectively.

     During this investigation, we interviewed 30 current and former DOJ
employees: 8 subjects (Markham, Hamilton, Clay, Cabell-Edelen,
McEachron, and Horkan, as well as JMD Finance Staff Director Melinda B.
Morgan, and HR Operations Chief LaTonya Gamble) and 22 witnesses,


       * The OIG has identified within the full version of this report information that if
released publicly could affect the privacy of certain individuals. To create this public
version of the report the OIG redacted (blacked out) these portions of the full report.


                                               1

including Santangelo. One subject, Cabell-Edelen, declined our request to
interview her a second time after her January 2011 retirement from the
Department. We also reviewed e-mail and examined staffing documents
relating to recruitment, vacancy announcements, and online applications,
as well as the rating, ranking, and referral of job candidates. l

       This is the third OIG investigation of improper hiring practices in
JMD. We criticized two prior FASS Directors, in 2004 and again in 2008,
for manipulating the competitive hiring process to favor particular
candidates. Notably, the 2008 investigation originated with allegations that
Hamilton's predecessor as Director of FASS had engaged in nepotism by
causing FASS and one of its outside contractors to hire or promote persons
believed to be his relatives. Our 2008 report recommended remedial ethics
training and the establishment of a zero-tolerance policy for future
violations of this type. DAAG-HRA Mari Barr Santangelo oversaw the
implementation of these disciplinary and remedial measures.

       B. 	   Summary of Findings

      We found that the following JMD employees violated applicable
statutes and regulations in seeking employment for their relatives within
JMD:

       •	     Cabell-Edelen: We found that Cabell-Edelen undertook a
              sustained campaign to secure employment for her daughter.
              Cabell-Edelen repeatedly improperly advocated for her
              daughter's appointment to various DOJ positions. As a result,
              FASS Director Edward Hamilton selected the daughter as his
              secretary in November 2009. Additionally, earlier in 2009 ,
              Cabell-Edelen caused an existing vacancy announcement to be
              changed for the purpose of improving her daughter's chances
              for appointment to a position she did not ultimately receive. We
              concluded that Cabell-Edelen's conduct violated 5 U.S.C. §
              3110(b) and 5 U.S.C. § 2302(b)(7), relating to the employment of
              relatives ; 5 U.S.C. § 2302(b)(6), relating to the granting of illegal
              preferences; and Sections 502 (conflict of interest) and 702
              (misuse of position) of the Standards of Ethical Conduct for
              Employees of the Executive Branch (the Standards of Ethical



       1 At the time of the conduct in question, Horkan, Clay, Cabell-Edelen, McEachron ,
and Gamble were at the GS-IS grade , which is the highest level of the general personnel
schedule. Santangelo, Morgan , Markham, and Hamilton were member s of the Senior
Executive Service (SES). Members of the SES serve in key positions below t h e top
presidential appointees but above the GS-IS level of the general personnel schedule.


                                            2
    Conduct).2 We also concluded that Cabell-Edelen made
    multiple false statements under oath in a deliberate attempt to
    deceive the OIG.
•   Hamilton: We found that shortly after Cabell-Edelen
    improperly advocated for her daughter's appointment by
    Hamilton, Hamilton began advocating to Cabell-Edelen and
    other Department officials for his son's appointment to a
    position in JMD. Hamilton did this at a time when his son and
    his son's family were living in Hamilton's home. We determined
    that Hamilton's conduct violated 5 U.S.C. § 3110(b) and
    5 U.S.C. § 2302(b)(7), relating to the employment of relatives, as
    well as Sections 502 and 702 of the Standards of Ethical
    Conduct. 3 We also concluded that Hamilton made misleading
    statements to the OIG in an effort to minimize the extent of his
    involvement in getting his son a job.
•   Gamble: We found that Gamble, Cabell-Edelen's subordinate
    and friend, improperly manipulated the hiring process for the
    benefit of Cabell-Edelen's daughter. We concluded that
    Gamble's conduct violated 5 U.S.C. § 2302(b)(6), relating to the
    granting of illegal preferences, and Section 702 of the Standards
    of Ethical Conduct. We concluded that Gamble's denial of
    involvement in this manipulation was not credible and that she
    made false statements to the OIG.4
•   Clay and McEachron: We found that Clay and McEachron
    simultaneously attempted to assist each other's relative in




                              3
              securing federal employment. 5 We concluded that Clay
              improperly induced McEachron to hire his daughter, a violation
              of Sections 502 and 702 of the Standards of Ethical Conduct.
              We similarly concluded that by assisting Clay's daughter in this
              way, McEachron improperly induced Clay to attempt to help her
              brother find a DOJ position. We concluded that McEachron's
              conduct violated 5 U.S.C. § 3110(b) and 5 U.S.C. § 2302(b)(7),
              relating to the employment of relatives, as well as Section 702 of
              the Standards of Ethical Conduct, 5 C.F.R. § 2635.702.
       •	     Horkan: We found that Horkan made efforts to secure jobs
              within the Department for her son and her niece in violation of
              5 U.S.C. § 3110(b) and 5 U.S.C. § 2302(b)(7), relating to the
              employment of relatives, and Sections 502 and 702 of the
              Standards of Ethical Conduct. We further found that Horkan
              sought advice from HR Director Rodney Markham in connection
              with the propriety of her efforts with respect to her son, which
              to some extent mitigated the severity of her misconduct.
       •	     Morgan: We found that Morgan committed misconduct with
             respect to her appointment of Horkan's son. After Horkan
             advocated for her son's appointment by Morgan, Morgan caused
             the title and series of existing Finance Staff positions to be
             changed for the purpose of improving the son's chances for
             appointment. We concluded that Morgan's conduct violated
             5 U.S .C. § 2302(b)(6), relating to the granting of illegal
             preferences. However, we further found that Morgan consulted
             with Ethics Office Director Janice Rodgers about the propriety
             of hiring Horkan's son, which to some extent mitigated the
             severity of her misconduct. We also note that, unlike several
             other JMD employees whose actions we reviewed in this
             investigation, Morgan did not seek to benefit her own relatives.
       •	    Markham: We found that Markham made efforts to secure
             employment for his cousin and nephew in violation of 5 U.S.C. §
             3110(b) and 5 U.S.C. § 2302(b)(7), relating to the employment of
             relatives, as well as Sections 502 and 702 of the Standards of
             Ethical Conduct. We also found him negligent in his duty to
             exercise effective oversight, especially given the two prior OIG
             investigations of JMD hiring practices. Further, he disregarded
             Merit System Principles, particularly with respect to his
             management of certain student employment programs.


        5 McEachron currently serves as a Deputy Director in the Office of the Chief
Human Capital Officer at the Department of Homeland Security (DHS). We have referred
our findings relating to McEachron to the DHS OIG.


                                          4
       We found that DAAG-HRA Mari Barr Santangelo did not violate any
specific laws or regulations related to improper hiring practices. However,
we found that she failed to adequately respond to the indicators she
received concerning hiring by her subordinates that may have violated
federal anti-nepotism prohibitions . We consider this to be a management
failure, especially given her awareness of prior instances of nepotism in
JMD and her stated understanding of the scope of federal nepotism
prohibitions.

       Lastly, our investigation revealed that the practice of hiring friends
and relatives of JMD employees into paid summer clerkships and other
internships was not uncommon. For example, during the second quarter of
2010, relatives of JMD employees occupied 6 of 11 paid HR internships.
Notably, in addition to providing General Schedule (GS) grade salaries
(typically, $27,000 to $40,000 per year), such internships provided for the
possibility of noncompetitive conversion to career appointments .

      c.     Organization of this Report

       Part II of this report provides background information, including
descriptions of the functions and organization of FASS and HR, the
procedures for hiring employees in these offices, prior OIG investigations of
JMD hiring practices, and the statutes and regulations that are relevant in
this case.

       We have divided our discussion of the subjects of this investigation
into three groups, matching each group with the corresponding relevant
facts. Thus , Part III of this report addresses the alleged misconduct of
Cabell-Edelen, Hamilton, and Gamble in connection with the appointment
of Hamilton's son and Cabell-Edelen's daughter to positions in JMD. Part
IV addresses allegations relating to the hiring of Clay's daughter into JMD
by McEachron, and the related efforts of Clay to find positions for
McEachron 's brother. Part V addresses the appointments of Nancy
Horkan's son and niece by Morgan and an HR Assistant Director,
respectively. Part VI addresses the hiring of relatives of Markham and other
JMD employees. Part VII addresses the level of supervision by DAAG
Santangelo with respect to all of the incidents of hiring employees' relatives
in JMD. Part VIII provides additional observations and recommendations
for remediation.

      D.     Timeline of Known Hires of Relatives of JMD Employees

May 2008 	        JMD Departmental Executive Secretariat Director hired
                  the daughter of a JMD FASS Visual Information Specialist
                  as a Departmental Executive Secretariat Clerk.



                                      5

August 2008     OIG Report regarding nepotism by then-FASS Director
                was released .

January 2009    JMD Finance Staff Director Melinda B. Morgan hired the
                son of Nancy Horkan, Senior Advisor to DAAG
                Santangelo, as a GS-S Financial Management Specialist,
                after Horkan recommended her son to Morgan.

April 2009      JMD Budget Director hired the cousin of JMD HR
                Director Rodney Markham as a Clerk, after Markham
                recommended his cousin.

May 2009        JMD offered a summer clerkship to the daughter of a
                SEPS Assistant Director, after he recommended her. The
                daughter declined the offer.

June 2009       JMD FASS hired a granddaughter of JMD HR Assistant
                Director Pamela Cabell-Edelen as an intern.

June 2009       JMD HR Assistant Director Jeanarta McEachron hired
                the daughter of HR Operations Chief LaTonya Gamble as
                a student intern.

June 2009       DOJ National Security Division hired the nephew of HR
                Director Rodney Markham as a summer intern after
                Markham recommended his nephew.

October 2009    JMD HR Assistant Director hired the niece of Nancy
                Horkan, Senior Advisor to DAAG Santangelo, as a
                Program Specialist in HR's Programs and External
                Relations Section, after Horkan recommended her niece
                to the HR Assistant Director.

November 2009   JMD FASS Director Edward Hamilton hired the daughter
                of JMD HR Assistant Director Pamela Cabell-Edelen to be
                his secretary, at the urging of Cabell-Edelen.

November 2009   JMD HR Assistant Director Jeanarta McEachron hired
                the daughter of JMD FASS Deputy Director Michael Clay
                in HR Policy & Advisory Services as a part-time GS-Sj 13
                HR Specialist, after Clay made inquiries on his daughter's
                behalf and instructed a subordinate to attempt to find a
                job for McEachron's brother.

January 2010    JMD HR Assistant Director Pamela Cabell-Edelen hired
                the son of JMD FASS Director Edward A. Hamilton as a
                                   6

                   GS-S Payroll Specialist, after Hamilton requested Cabell­
                   Edelen's help in finding a job for his son.

May 2010           JMD HR hired a second granddaughter of HR Assistant
                   Director Pamela Cabell-Edelen as an intern.

June 2010          JMD HR hired the son of a JMD Deputy Director after the
                   Deputy Director informed HR Director Rodney Markham
                   that her son had not been selected for an internship.

September 2010     JMD FASS hired the daughter of a FASS Woodcrafter as a
                   GS-S Program Analyst.

November 2010      GIG informed JMD about the initiation of this
                   investigation.


II.   BACKGROUND

      A.    The Justice Management Division

      The Justice Management Division (JMD) serves as the management
and operations arm of the Department of Justice (DOJ). The Assistant
Attorney General (AAG) for Administration Lee J. Lofthus, heads JMD and
oversees four Deputy Assistant Attorneys General: the Department's
Controller, the Chief Information Officer, the Deputy Assistant Attorney
General for Policy, Management and Planning, and the Deputy Assistant
Attorney General for Human Resources and Administration (DAAG-HRA),
Mari Barr Santangelo. Santangelo oversees seven offices in JMD, including
the Facilities and Administrative Services Staff (FASS) and the Human
Resources Staff (HR). In total, she oversees approximately 600 employees,
including contractors . She is assisted in these responsibilities by her Senior
Advisor, Nancy Horkan.

            1.    FASS

       FASS provides various services to DOJ components, such as
operations and management of DOJ property, motor pool operations, multi­
media services, mail management, warehouse operations, publications and
printing, contract administration, and other administrative activities. The
FASS Director reports directly to DAAG-HRA Santangelo.

       Edward Hamilton has served as the Director of FASS since March
2009. FASS is also supervised by two Deputy Directors, one of whom is
Michael Clay, and several Assistant Directors with responsibility for multiple
offices, including: (1) Real Property Management Services, (2) Justice
Building Services, (3) Logistics Management Services, (4) Multimedia and
                                      7

Printing Services, (5) Environmental and Sustainability Services, and (6)
Fiscal Management, Rent Management, Personnel Programs Management,
and Purchasing and Contracts Management. FASS has over 100 full time
employees, not including contractors.

            2.    Human Resources

      The Human Resources Staff (HR) handles most of JMD's staffing
needs, including recruiting, maintaining, and developing JMD's human
capital. HR also provides human resources services for several other DOJ
components , including the National Security Division, and possesses a
particular expertise regarding the analysis and implementation of personnel
rules and regulations. HR has approximately 65 full time employees, not
including contractors.

      Rodney E. Markham joined JMD in March 2006 as Deputy Director of
HR and became the Director in 2008. He left the Department in September
2011. As Director of HR, Markham reported directly to Mari Barr
Santangelo. Markham, his Deputy Director, and multiple Assistant
Directors oversaw the following HR offices: (1) Learning and Workforce
Development; (2) Human Capital Information Technology and
Accountability; (3) DOJ Labor and Employment Law; (4) HR Policy and
Advisory Services; (5) Programs and External Relations; and (6) Justice
Management Division, Offices, Boards, and Divisions Human Resources
Services (JMD/OBD HR Services).

       Pamela Cabell-Edelen was an Assistant Director and the Human
Resources Officer and managed JMD / OBD HR Services until her retirement
in January 2011. JMD / OBD HR Services is responsible for recruitment,
staffing, and related personnel action processing for DOJ Offices and
Boards, the National Drug Intelligence Center, JMD , and the National
Security Division. JMD / OBD HR Services also provides management
consultation, advisory services, and payroll processing. LaTonya Gamble
was the Chief of HR Operations in JMD / OBD HR Services and Cabell­
Edelen's subordinate, until transferring to HR Policy and Advisory Services
in May 2011.

     Jeanarta McEachron was an Assistant Director in HR Policy and
Advisory Services until transferring to the Department of Homeland Security
(DHS) in November 2009.

      B.    Hiring Procedures in JMD

     There are two classes of appointments in the federal government:
competitive service and excepted service. In general, career or career­



                                     8

conditional positions in JMD are' competitive service appointments filled by
a competitive hiring process. 6 Positions outside of the competitive service
are filled pursuant to an excepted appointing authority and are subject to
different civil service laws and regulations. Positions in the excepted service
include Schedule A appointments, such as attorneys and certain
intelligence personnel, Schedule B appointments, such as individuals in the
Federal Career Intern Program (FCIP) and certain student employment
programs, and Schedule C appointments, such as political appointees at the
sub-cabinet level.

       As described below, most of the positions at issue in this investigation
were paid intern appointments in the excepted service (Schedule B). Many
of these intern positions could be converted to permanent career positions
without any further competition. These programs are described in more
detail below. In JMD, the hiring process for both competitive service
positions and Schedule B appointments is administered by JMD / OBD HR
Services.

                1.     Competitive Service Appointments

       When a new position in the competitive service is created or a vacancy
occurs in FASS or HR, the hiring official develops a Position Description and
specific rating criteria that are used to identify the most highly qualified
candidates. The official will also identify an appropriate "Area of
Consideration," which specifies the individuals from whom the office will
accept applications for the position. The Area of Consideration may be
broad (such as open to all u.S. citizens - "all sources") or limited to a
narrower group of individuals, such as current, civilian, federal employees.
Individuals outside the Area of Consideration, who are not otherwise eligible
through a noncompetitive or special hiring authority, may not apply.

        The hiring official transmits the desired parameters to the JMD / OBD
HR Services hiring specialist (HR Specialist) responsible for servicing that
office . The HR Specialist prepares a draft vacancy announcement, which is
finalized in consultation with the hiring official and posted on
USAJOBS.gov. In the past, the announcement was uploaded to an outside
contractor's website as well.

     During the period relevant to this report, in addition to advertising on
USAJOBS.gov, the DOJ published vacancy announcements through Avue
Technologies Corporation (Avue), whose automated system provided a


       6   Most permanent employees enter the federal government pursuant to a "career­
conditional" appointment. After completing three years of substantially continuous service,
a career-conditional employee becomes a full , "career" employee.



                                             9

platform for receiving and processing applications. Completed applications
were sent from Avue to the HR Specialist, who screened the applicants to
exclude those who failed to meet the minimum qualifications for the
position. Following this , the HR Specialist transmitted a list of qualified
candidates , known as a "certificate of eligibles" or a "cert. list," to the hiring
official, who either selected interviewees from that list or from an approved
alternate source, or declined to make any selection. Hiring officials were
also able directly to download the candidates' resumes . If interested in any
candidates, the office conducted interviews and checked references. Once a
selection was made, the HR staff made a tentative offer, initiated a security
check, performed a drug test, and extended a final offer.

       The procedure for making a final hiring selection varies from case to
case and among different parts of JMD. Clay and Hamilton told us that
within FASS, a panel of at least three individuals interviews the final
candidates. After the panel reviews the applications and conducts
interviews , it makes a selection recommendation to the FASS Director. All
hiring decisions in FASS are subject to the Director's approval. Clay said
that only positions at the GS-14 level and above required approval by DAAG
Santangelo. The lower-graded FASS positions at issue in this report
therefore did not require approval from Santangelo. The hiring procedures
for positions in HR closely resemble those in FASS . According to Markham,
however, not all HR applicants are interviewed by panels. The lower-graded
HR positions at issue in this report also did not require approval from
Santangelo, but Markham told us that, in addition to approving all
appointments at or above the GS-14 level, Santangelo "has weighed in on
hires and movements of staff at all levels. "

               2.     Excepted Service Appointments

      As stated above , vacancies outside of the competitive service are filled
pursuant to one of several excepted appointing authorities. Unlike those in
the competitive service, the procedures for filling excepted service vacancies
do not include a public notice requirement. 7 Other than the different
advertising requirements, the excepted service hiring procedures closely
parallel those in the competitive service.

      With one exception, the appointments examined in this report were
made pursuant to Schedule B appointing authorities, including those for
the Student Temporary Employment Program (STEP), the Student Career
Experience Program (SCEP) , and the Federal Career Intern Program (FCIP).
Although the processes for filling excepted service vacancies, unlike those in


       7 Public notice is a statutory requirement under 5 U .S .C . §§ 3327 and 3330 only
when filling positions through the competitive examining process.


                                             10 

the competitive service, need not include notice to the public, open
competition, or competitive examining procedures, agencies filling Schedule
B appointments are required to follow Merit System Principles and avoid
Prohibited Personnel Practices. 8 As detailed below, SCEP and FCIP
appointments may be noncompetitively converted to career or career­
conditional appointments.

                       a. 	    The Student Temporary Employment Program,
                               the Student Career Experience Program, and
                               Summer Hires

       The Student Temporary Employment Program (STEP) and Student
Career Experience Program (SCEP) provide paid, federal positions to
students enrolled in high school, college, or graduate school. Both
programs provide a path to noncompetitive conversion to career or career­
conditional appointments . The central difference between the two programs
is that SCEP appointments, unlike those under STEP, may be directly
noncompetitively converted to competitive service positions , whereas STEP
positions must be noncompetitively converted to SCEP positions prior to any
noncompetitive conversions to career appointments . Both programs permit
year-round employment and flexible work schedules , and we found that
STEP and SCEP students who worked over school vacation periods were
generally welcome to return to their DOJ positions during subsequent
summer vacations and winter breaks.

      During the period we investigated, JMD employed "summer hires."
Practically speaking, a summer hire in JMD was the same as a STEP
appointment. An HR Specialist told us that JMD uses the same appointing
authority for summer hires as for STEP hires, and that the only difference
between the appointments is the term of employment.

                       b.      The Federal Career Intern Program

       Established in July 2000 and terminated in March 2011, the Federal
Career Intern Program (FCIP) sought "to recruit the highest caliber people,"
to place them in GS-5 through GS-9 entry-level positions, and to "develop
their professional abilities, and retain them in federal departments and
agencies ."9 After successful completion of the 2-year, paid internship, FCIP


       8 Sections 2301 a n d 2302 of Title 5 of t h e United States Code provide that federal
personnel management in Ex ecutive agencies be implemented in a manner consistent with
9 Merit System Principles and 12 Prohibited Personnel Practices, respectively, which
essentially seek fair competition for all applicants . These principles and prohibitions are
discussed in detail in Part H.C of this report .
       9   Executive Order 13162 , dated July 6 , 2000.



                                              11
appointments became eligible for noncompetitive conversion to a career or
career-conditional position in the competitive service.

       The Executive Order establishing the FCIP did not exempt agencies
from complying with the procedures identified in 5 C.F.R. § 302,
"Employment in the Excepted Service. " Moreover, the Executive Order
specified that OPM "shall develop appropriate merit-based procedures for
the recruitment, screening, placement, and continuing career development
of Career Interns ." The subsequently established DOJ guidance for the use
and implementation of the FCIP similarly provided that "Components must
follow Component merit promotion plans and merit system principles when
announcing and filling vacancies under this Program" and that "Heads of
Components are delegated the responsibility for ... ensuring that programs
are developed and implemented in accordance with the merit system
principles."

      c. 	   Applicable Statutes and Regulations

      Several statutes and regulations are potentially applicable to the
allegations raised in this case.

             1. 	   Merit System Principles and Prohibited Personnel
                    Practices

      The Merit System Principles listed in 5 U.S .C . § 2301 represent the
fundamental undergirding of the entire Federal Human Resources
Management system. The statute sets forth nine principles and directs the
president to issue "all rules, regulations, or directives . . . necessary to
ensure that personnel management is based on and embodies" such
principles. Among the laws implementing the Merit System Principles are
the 12 "Prohibited Personnel Practices" enumerated in 5 U.S .C . § 2302 and
referenced, in part, below. Sections 2301 and 2302 were therefore intended
to work in tandem.

                    a. 	   5 U.S.C. § 2301(b)(l)

       Section 2301(b)(1) of Title 5 of the United States Code requires that
employee recruitment, selection, and advancement be based on merit, after
fair and open competition. 5 U.S.C. § 2301(b)(1) states:

      Recruitment should be from qualified individuals from
      appropriate sources in an endeavor to achieve a work force from
      all segments of society, and selection and advancement should
      be determined solely on the basis of relative ability, knowledge,
      and skills , after fair and open competition which assures that
      all receive equal opportunity.


                                       12
As the Merit Systems Protection Board has stated:

       Hiring even the best qualified person for the job must be
       accomplished through competitive means consistent with law
       and merit system principles. Thus, an agency may not grant a
       preference even to the best qualified person, unless it is
       authorized "by law, rule, or regulation."lo

                       b.      5 U .s.c. § 2302(b)(6)

      Section 2302(b)(6) of Title 5 of the United States Code prohibits the
granting of unauthorized preferences or advantages to job applicants. It
provides that:

       Any employee who has authority to take, direct others to take,
       recommend, or approve any personnel action, shall not, with
       respect to such authority ... grant any preference or advantage
       not authorized by law, rule, or regulation to any employee or
       applicant for employment (including defining the scope or
       manner of competition or the requirements for any position) for
       the purpose of improving or injuring the prospects of any
       particular person for employment.

       An employee with hiring authority may give only those preferences
authorized by law, rule, or regulation. For example, preferences in
recruitment and selection are given by Congress to veterans, Indians in the
Bureau of Indian Affairs, persons with reemployment rights, and
handicapped individuals. 11 Section 2302(b)(6) is directed at purposeful
discrimination to help or hinder particular individuals in obtaining
employment without regard to their merit. 12 Among the actions that have
been held to constitute Prohibited Personnel Practices in violation of Section
2302(b)(6) are defining the scope and manner of competition to facilitate
selection of a particular candidate, causing the title and series of a position
to be changed for the purpose of improving a particular candidate's chances
for appointment, and creating an unnecessary position for the sole purpose
of benefiting a particular applicant.




       10   Special Counselv. Byrd, 59 M.S.P.R. 561 at 571 n.9 (1993) .
       11   See Special Counselv. Byrd, 59 M.S.P.R. 561 at 570 (1993).
       12 See Department of Treasury v. Federal Labor Relations Authority, 837 F .2d 1163,
1170 (D.C. Cir. 1988).




                                              13 

                    c.    5   u.s.c.   § 2302(b)(7)

       Nepotism is a Prohibited Personnel Practice. Section 2302(b)(7) of
Title 5 of the United States Code provides that:

      Any employee who has authority to take, direct others to take,
      recommend, or approve any personnel action, shall not, with
      respect to such authority ... appoint, employ, promote,
      advance, or advocate for appointment, employment, promotion,
      or advancement, in or to a civilian position any individual who
      is a relative (as defined in section 3 110(a) (3) of this titie) of such
      employee if such position is in the agency in which such .
      employee is serving as a public official (as defined in section
      3110(a)(2) of this title) or over which such employee exercises
      jurisdiction or control as such an official.

As described below, nepotism is also addressed in 5 U .S.C. § 3110.

             2.    Federal Nepotism Statute - 5 U.S.C. § 3110(b)

      The federal nepotism statute, 5 U.S.C. § 3110(b), provides that:

      A public official may not appoint, employ, promote, advance, or
      advocate for appointment, employment, promotion, or
      advancement, in or to a civilian position in the agency in which
      he is serving or over which he exercises jurisdiction or control
      any individual who is a relative of the public official. An
      individual may not be appointed, employed, promoted, or
      advanced in or to a civilian position in an agency if such
      appointment, employment, promotion, or advancement has
      been advocated by a public official, serving in or exercising
      jurisdiction or control over the agency, who is a relative of the
      individual.

       The statute defines a "relative" as a "father, mother, son, daughter,
brother, sister, uncle, aunt, first cousin, nephew, niece, husband, wife,
father-in-law, mother-in-law, son-in-law, daughter-in-law, brother-in-law,
sister-in-law, stepfather, stepmother, stepson, stepdaughter, stepbrother,
stepsister, half brother, or half sister." 5 U.S.C. § 3110(a)(3).

      The statute defines a "public official, " in part, as an employee "in
whom is vested the authority by law, rule, or regulation, or to whom the
authority has been delegated, to appoint, employ, promote, or advance
individuals, or to recommend individuals for appointment, employment,
promotion, or advancement in connection with employment in an agency."
5 u.s.c. § 3110(a)(2) .


                                          14
       A government official improperly "advocates" for the hiring of a relative
by speaking in favor of, recommending, commending, or endorsing that
relative to another official. See Alexander v. Department of Navy, 24 MSPR
621, 625 (1984).

            3.     Conflict of Interest - 5 C.F.R. § 2635.502

      Conflicts of interest for federal employees are addressed in the
Standards of Ethical Conduct, 5 C.F.R. § 2635.502, codified at 5 C.F.R. Part
2635. Section 502 of the Standards of Ethical Conduct, relating to
"Personal and business relationships," provides:

      Where an employee knows that a particular matter involving
      specific parties is likely to have a direct and predictable effect
      on the financial interest of a member of his household, or
      knows that a person with whom he has a covered relationship is
      or represents a party to such matter, and where the employee
      determines that the circumstances would cause a reasonable
      person with knowledge of the relevant facts to question his
      impartiality in the matter, the employee should not participate
      in the matter unless he has informed the agency designee of the
      appearance problem and received authorization from the agency
      designee in accordance with paragraph (d) of this section.
5 C.F.R. § 2635.502(a).

      The regulation further states:

      Unless the employee is authorized to participate in the matter
      under paragraph (d) of this section, an employee shall not
      participate in a particular matter involving specific parties when
      he or the agency designee has concluded, in accordance with
      paragraph (a) or (c) of this section, that the financial interest of
      a member of the employee's household, or the role of a person
      with whom he has a covered relationship, is likely to raise a
      question in the mind of a reasonable person about his
      impartiality. 5 C.F.R. § 2635.502(e)

      The regulation states that "covered relationships" include persons
with whom the employee has a financial relationship, persons who are
members of the employee's household, and persons who are relatives with
whom the employee has a "close personal relationship." 5 C.F.R. §
2635.502(b).




                                       15 

      The "agency designee" for all employees within their components is
the component head. 13 In JMD, employees seeking authorization from the
agency designee in accordance with Section 502 must first consult the
Department Ethics Office, headed by Janice Rodgers, whose staff prepares
and submits such requests directly to JMD 's agency designee, Assistant
Attorney General Lee Lofthus .

              4. 	   Use of Public Office for Private Gain - 5 C.F.R. §
                     2635.702

        Section 702 of the Standards of Ethical Conduct, 5 C.F.R. § 2635.702 ,
states, in part: "An employee shall not use his public office . .. for the
private gain of friends, relatives, or persons with whom the employee is
affiliated in a nongovernmental capacity." In addition to the general
prohibition set forth above, Section 702 sets forth four "specific
prohibitions" that "are not intended to be exclusive or to limit the
application of this section," including 702(a), which states:

       An employee shall not use or permit the use of his Government
       position or title or any authority associated with his public
       office in a manner that is intended to coerce or induce another
       person, including a subordinate, to provide any benefit,
       financial or otherwise, to himself or to friends, relatives, or
       persons with whom the employee is affiliated in a
       nongovernmental capacity.

       D. 	   Prior OIG Investigations of Hiring in JMD

      This is the third OIG investigation in recent years involving improper
hiring practices within JMD . Three different FASS Directors have been
subjects in these investigations. As described below, we criticized certain
JMD personnel in 2004 and again in 2008 for manipulating the competitive
hiring process to favor particular candidates .

              1. 	   2004 OIG Report

      In 2004 the OIG completed an investigation into allegations of
misconduct and mismanagement relating to the director of FASS, and we
provided a non-pUblic misconduct report to JMD on December 16, 2004
(2004 Report). Among other things, the OIG report found that the Director
and the Assistant Director of FASS engaged in Prohibited Personnel
Practices and other inappropriate hiring practices by "targeting" certain
individuals for FASS positions - usually employees of a DOJ contractor­

       13 DOJ Order 1200.1 , Chapter 11-1 , Procedures for Complying with Ethics
Requirements (September 12, 2003.)


                                           16 

and then manipulating the competitive selection process to ensure that
these individuals were hired.

      We also found that one FASS employee violated the Standards of
Ethical Conduct by assisting a personal acquaintance from college to obtain
employment in FASS. In that report, in addition to highlighting this
inappropriate conduct and making recommendations involving individual
misconduct, we recommended that the FASS Administrative Management
Specialist attend training relating to the regulations and restrictions which
government personnel must follow in the selection and hiring of employees.

            2.    2008 OIG Report

       Fresh allegations of improper JMD hiring practices came to light in
2008, this time focusing on the next FASS Director, who assumed the
position in January 2004. Similar to the current investigation, the principal
allegations in the 2008 investigation were that the FASS Director had
engaged in nepotism by causing FASS and one of its outside contractors to
hire or promote his relatives. The OIG's investigation determined that the
Director had hired his stepdaughter's husband as a Mail Management
Specialist in FASS, and later promoted him to GS-ll, at a time when the
stepdaughter's husband was living in the Director's home. We also found
that the FASS Director had hired a family friend, who was a real estate
client of his wife, as Fleet Manager in F ASS. In addition, he had arranged
for his sister-in-law, who was also living in his home, to be hired by Pitney
Bowes, Inc., under a FASS contract.

       In an August 15,2008, OIG misconduct report (2008 Report), which
was not issued publicly, we concluded that the FASS Director's conduct
violated multiple laws and regulations relating to merit selection procedures,
conflicts of interest, and Standards of Ethical Conduct. Notably, we also
concluded that two FASS employees had made false or misleading
statements to the OIG while under oath.

      At the close of the 2008 Report we stated:

      [T]his report is the second occasion in recent years in which the OIG
      has found questionable hiring practices in FASS. We are troubled
      that JMD has not ensured that problems relating to compliance with
      proper hiring procedures and applicable ethical standards did not
      recur in FASS. Existing ethics training programs do not seem to be
      adequate to instill within FASS a culture of compliance with the rules
      and principles of merit selection and the Standards of Ethical
      Conduct. We therefore recommend remedial ethics training
      specifically designed for FASS that addresses these rules and
      standards in the hiring and promotion context. We also believe that

                                     17 

      JMD should establish a zero-tolerance policy for future violations of
      this type in FASS.

            3.    Post-200S Report Guidance and Training

       Mari Barr Santangelo, who has served as DAAG-HRA since 2005,
described to us JMD's responses to the 2008 Report's recommendations.
According to Santangelo, JMD leadership hosted an October 2008 Senior
Staff meeting focusing ·on ethics and an "absolute adherence to Merit
System Principles and Prohibited Personnel Practices." Santangelo told us
that Assistant Attorney General for Administration Lee Lofthus "made a
verbal statement about zero tolerance of any violations" during this meeting.
She stated that additional training sessions on these subjects took place in
October and November 2008 , targeting JMD 's Assistant Directors and
Deputy Assistant Directors.

       Santangelo also shared with the 01 G some of the written guidance
provided to new JMD employees, including "fact sheets" and "wallet cards"
listing the 9 Merit System Principles and 12 Prohibited Personnel Practices,
and directed us to additional materials available at the Department of
Justice website. The ~IG's analysis of these materials appears in Part VIII.A
of this report.

       Most of the JMD employees whose actions we reviewed in the current
OIG investigation expressed a familiarity with the previous OIG reports.
Santangelo, Horkan, and Markham said they read the OIG's 2008 Report.
Santangelo, with some assistance from Horkan and Markham, implemented
its recommendations. Horkan and Morgan stated that they had attended
the post-2008 training sessions and expressed to us a familiarity with Merit
System Principles and Prohibited Personnel Practices . Cabell-Edelen and
McEachron also indicated a familiarity with the OIG's 2008 investigation
and report. Gamble demonstrated to us knowledge of merit principles and
the rules and regulations governing recruitment and staffing. Santangelo,
Horkan, Morgan, Markham, Cabell-Edelen, McEachron, and Gamble all had
the same positions and titles in August 2008 that they had during the
events of this report. None of them was implicated in the misconduct
described in the OIG's 2008 report.

       Hamilton and Clay had not yet joined JMD when the 2008 training
sessions were held. Clay told us that he was aware of the history of
nepotism-related abuses in FASS when he transferred to JMD from ATF in
July 2009. He told us that around the time that Hamilton hired him, the
two discussed nepotism and the misconduct of Hamilton's two
predecessors, stating, "That was - that is - one of [Hamilton's] high
priorities, to make sure that we had a fair and equitable way of hiring
people." Clay also told us that he read the 2008 Report. Although he was

                                     18 

not yet with JMD and therefore did not participate in the 2008 training, he
was with the Department during that period and has received ethics
training about nepotism, conflicts of interest, and other hiring abuses.

      Hamilton did not join JMD until 2009 and therefore did not attend the
2008 training sessions either, but told us he had extensive pre-DOJ
experience with "both military personnel management and civilian
personnel management rules ." He stated that he read both the 2004 and
2008 OIG Reports when he joined JMD in 2009. He told us he was fully
aware that his predecessor was found to have committed misconduct in
connection with the hiring of friends and relatives, stating, "I'm very familiar
with those reports and their issues ." According to Santangelo, shortly after
Hamilton 's start date, the two met to discuss the 2008 Report and "the
prohibited practices noted in [the] report, " so that Hamilton would
"understand [JMD's] absolute adherence to [Merit System Principles and
Prohibited Personnel Practices)."

       Hamilton also received more formal training about nepotism and
other hiring abuses. In March 2009, Hamilton received an individualized,
one-on-one ethics training session with Ethics Office Director Janice
Rodgers. Rodgers told the OIG that in that session, Hamilton said he had
read the 2008 Report and Rodgers told him he needed to be "really
sensitive" to the issues highlighted in that report. She told us the 2008
Report "was a specific part of the briefing because, of course, it was highly
relevant to him coming [to JMD)."

       Rodgers also told the OIG that she provided Hamilton at that time
with a "comprehensive outline of all the ethics rules" and also likely gave
him "the slides from the specific hiring training that [JMD) did" in response
to the 2008 Report. These materials stated, "An employee may not
participate in a particular matter involving specific parties affecting the
financial interests of a member of his household." The materials also
expressly forbade the use of one's public office for "his own private gain, and
that of friends [or) relatives ...."


III. 	   Facts and Analysis Pertaining to Cabell-Edelen, Hamilton, and
         Gamble

       In this Part of the report we set forth the facts relating to the alleged
misconduct of HR Assistant Director Pamela Cabell-Edelen, FASS Director
Edward Hamilton, and HR Operations Chief LaTonya Gamble. The
allegations relating to these JMD employees arose out of three incidents :
the effort to assist Cabell-Edelen's daughter to be hired as a FASS
Administrative Management Specialist (the "FASS Liaison" position), the



                                        19 

hiring of Cabell-Edelen's daughter by Hamilton, and the hiring of Hamilton's
son by Cabell-Edelen.

       A. 	    Factual Findings

               1. 	   The Hiring of HR Assistant Director Pamela Cabell­
                      Edelen's Daughter

      Edward Hamilton selected Pamela Cabell-Edelen's daughter to be his
secretary in November 2009. 14 Prior to this, she worked as a secretary in
the private sector, and before that - in a civilian capacity - as a secretary in
the U.S. Coast Guard, the U.S . Army Corps of Engineers, and the
Department of the Navy. This investigation was triggered in part by
allegations that this hiring resulted from the improper influence of her
mother, Pamela Cabell-Edelen, who was at the time an HR Assistant
Director.

       Cabell-Edelen told us that she played no role of any kind in her
daughter's attempts to be hired in FASS. She said that she had no interest
in (or even, often, awareness of) where or when her daughter submitted
employment applications. When asked how her daughter came to be hired
as Hamilton's secretary, Cabell-Edelen stated that her daughter applied for
the position through Avue, made the certificate of eligibles, and was
selected. "It just happened that Mr. Hamilton and his team hired her,"
Cabell-Edelen told us.

      Contrary to these claims, the accounts of other witnesses,
contemporaneous e-mails, and Avue documents show that Cabell-Edelen
had a significant role in her daughter's attempts to secure a position in
DOJ .15 Our investigation revealed a coordinated campaign involving Cabell­
Edelen and Chief of HR Operations LaTonya Gamble to tilt the hiring
process in Cabell-Edelen's daughter's favor.

      Although our investigation of Cabell-Edelen's daughter's FASS
appointment focused on 2009 (the year Hamilton selected her as his
secretary) e-mails dating back to 2006 show that contrary to Cabell-Edelen's


         14 We did not review the underlying merits of all of the hiring decisions involving
relatives brought to our attention, and did not do so with this particular one. However, we
recommend in Part VIII.B of this report that JMD consider conducting this inquiry and, if
deemed necessary by JMD leadership, take appropriate action if it finds that a hiring
official granted an improper preference to a JMD relative in a hiring decision.
       15 Cabell-Edelen retired in January 2011, after the OIG opened its investigation.
We asked her to return for a second interview in order, among other things, to permit her to
review and comment on the many e-mails that plainly contradicted her account of having
had no involvement in her daughter's appointment. She declined.


                                             20
claim that she had no involvement in her daughter's efforts to obtain
employment, Cabell-Edelen frequently communicated with her daughter
and others in the Department about this matter. E-mails show Cabell­
Edelen communicated with her daughter about a position in the Office of
Community Oriented Policing Services (COPS) and encouraged her daughter
to apply to positions in the National Security Division (NSD) and the U.S .
National Central Bureau of the International Criminal Police Organization
(INTERPOL), all of which are DOJ offices for which HR provided human
resources services. E-mails also show that Cabell-Edelen sent her
daughter's resume unsolicited to three individuals: (1) an Administrative
Officer in the Community Relations Service (another office for which JMD
provided human resources services); (2) JMD HR Director Rodney Markham;
and (3) an HR Specialist who was Cabell-Edelen's subordinate .

      The OIG's investigation revealed the following sequence of events
leading to the appointment of Cabell-Edelen's daughter in 2009:

      In January, FASS identified a need for a new FASS Liaison, a job
involving, among other things , coordinating FASS staffing and recruitment
needs with HR.

      An HR Specialist assisted FASS in this particular job search. The HR
Specialist told us she could "distinctly remember" having a conversation
with the incumbent FASS Liaison about "the Area of Consideration FASS
wanted and what audience of candidates were they looking for." The HR
Specialist stated that FASS wanted to restrict the Area of Consideration to
current federal employees "because they wanted someone currently in the
government that could hit the ground running." She told us that she posted
the vacancy announcement, FASS-09-11S-MPP, according to the
parameters FASS requested. She said she was then "called into [Cabell­
Edelen's] office and told to take Announcement 115 down and re-advertise it
using reinstatement eligibles" as part of the Area of Consideration. This
change would open the vacancy to reinstatement eligible former federal
employees as well as current employees. At the time, Cabell-Edelen's
daughter was a reinstatement eligible former federal employee. 16 The HR
Specialist, who told us she did not know anything about Cabell-Edelen's
daughter at this point, said that Cabell-Edelen's insistence that the
announcement be open to reinstatement eligible candidates seemed "odd" to
her.


        16 "Reinstatement eligibility" refers to the ability of those individuals who previously
held career or career-conditional federal appointments to apply for jobs in the competitive
federal service. Cabell-Edelen's daughter had acquired such "career tenure" or "career
status" by completing 3 years of service at a previous federal post and was therefore eligible
to be noncompetitively reinstated at a position at or below her previously held GS level.


                                              21 

       LaTonya Gamble was at that time the Chief of HR Operations,
Services Branch, and reported to Cabell-Edelen. In an e-mail dated
January 13, 2009, Gamble told the HR Specialist to "[p]lease include
Reinstatement Eligibles under the WHO MAY APPLY section" in the vacancy
announcement for the FASS Liaison position. The HR Specialist did as she
was instructed, and the announcement - originally intended to be open from
January 9 through January 22 - was closed down and replaced with FASS­
09-131-MPP, which was open to "former federal employees with
reinstatement eligibility." Twenty-four minutes after Gamble e-mailed the
HR Specialist instructing her to change the vacancy announcement, Cabell­
Edelen e-mailed her daughter, stating, "The vacancy announcement has
been changed to include reinstatement candidates. Avue is not working
well today so you may want to try later or tomorrow."

        Avue records we reviewed confirmed that Cabell-Edelen's daughter, a
reinstatement candidate, applied to vacancy announcement 131 shortly
thereafter. When asked about these facts, Cabell-Edelen's daughter stated
that she was not aware that the FASS Liaison position had been posted
twice, that she never communicated with her mother about how broadly or
narrowly the announcement had been (or would soon be) posted, and that
she never communicated with her mother or anyone else about an
announcement being changed to include reinstatement eligible candidates
like herself. When we showed the daughter a copy of Cabell-Edelen's
January 13 e-mail to her describing this change, she stated that she did not
recall receiving it.

       The HR Specialist described to us what happened after she reviewed
the applications for the position. Still unaware that Cabell-Edelen's
daughter, who had a different surname, was an applicant, she rated the
daughter's application "not qualified" for the FASS Liaison position based on
the daughter's lack of relevant experience, and excluded her from the
certificate of eligibles. The HR Specialist told us that she excluded the
applicant because she "had little to no experience in classification, staffing,
[or] advising management on HR matters." Cabell-Edelen's daughter herself
also stated to the OIG that she had virtually no HR experience at that time.
The HR Specialist said that after she rated the candidates and prepared the
certificate of eligibles, Gamble called her into her office and instructed her to
change the daughter's rating to "qualified" and to put out an amended
certificate of eligibles, this time with the daughter's name on it.

      The HR Specialist said that this was the only time in her career that
she had been overruled like this. The act made her suspicious, she said, so
she re-read the applicant's resume "and saw she had previously worked for
the Army Corp of Engineers." The HR Specialist told us that she figured the
applicant was a friend of Gamble and Cabell-Edelen with whom they used to
                                       22
work. The HR Specialist stated that she was at this point "mad" and
confronted Gamble, telling her she "didn't appreciate being treated like [she]
was stupid yesterday and being ordered to put [the applicant] on the list ...
when in all actuality either her or Pam knew this person from working at
the [Army] Corps." The HR Specialist told us that Gamble responded to her
by insisting that she and the applicant (Cabell-Edelen's daughter) had never
worked together and did not know each other.I7

       Gamble denied this account of the events. She stated that she was
not involved in any way in Cabell-Edelen's daughter's application process or
attempt to be hired as FASS. Moreover, she told us that she never had any
exchanges with Cabell-Edelen or her daughter regarding the daughter's
application process, her attempt to be hired as FASS Liaison, or how
broadly or narrowly to advertise for a FASS Liaison position. She stated
that she had no knowledge of the original request, the breadth of the first
announcement's Area of Consideration, or the subsequent effort to widen it
to include reinstatement eligible candidates.

       When we asked Gamble to explain the expansion of this
announcement's Area of Consideration, Gamble stated to the OIG, "I can't,
because I wasn't involved, so I don't know why." She did, however, suggest
that it could have been modified to include reinstatement eligible candidates
in order to correct "a glitch in Avue's system" that caused an error in how
the Area of Consideration for "status eligibles" was posted. Gamble
identified the "program manager" in JMD's Office of Human Capital
Information Technology and Accountability who she said assisted HR in
resolving this problem. The OIG interviewed the JMD employee that
Gamble identified, as well as Avue representatives and the HR Specialist
responsible for the FASS Liaison position announcement. None of these
witnesses had any recollection or record of a "glitch" or problem with Avue
requiring an expansion of the announcement's Area of Consideration.

       Gamble told us that she has never instructed anyone to change a
candidate's qualification rating or to place someone's name on a certificate
of eligibles. When asked if it was possible that she had involved herself in
Cabell-Edelen's daughter's application process in this manner, she stated,
"Not that I had any conversations with anyone to say, 'Change her
[qualifications] because of this.' I will definitely tell you that is a 'no. '"
Gamble told us that, because she has personal access to Avue, she "would
be the one who went into the system." She stated, "I'm changing the


        17 Gamble told us that she did know Cabell-Edelen's daughter at the Army Corps of
Engineers. She also told us that she had had no opportunity to observe the daughter's
skills or abilities when both were employed there and had had no post-Army contact with
the daughter until the daughter began working in FASS in 2010.


                                           23
[qualifications], and I would have signed it, but I would never have said,
'You go change the [qualifications] and put 'per me." That doesn't happen."

       However, our review of contemporaneous Avue records corroborated
the HR Specialist's account. We found that the HR Specialist made two
entries in Avue at the time of the events in question: one on February 10,
2009, stating that Cabell-Edelen's daughter "[d]oes not meet the one year
specialized experience at the next lower level as required by [the Office of
Personnel Management]"; and a second entry, nine days later, stating,
"Basic [qualifications] overridden for [the daughter] (Reason: Requested by
LaTonya Gamble to change this rating to qualified.)" Based on the HR
Specialist's statements to us, as well as contemporaneous e-mail and Avue
records, we found that Gamble instructed the HR Specialist first , to broaden
the vacancy announcement's Area of Consideration to include reinstatement
eligible candidates, and later to change Cabell-Edelen's daughter's rating to
"qualified" and to put her name on an amended certificate of eligibles. We
concluded that Gamble's statements to the contrary were false.

      A 3-person panel in FASS subsequently interviewed Cabell-Edelen's
daughter for the FASS Liaison position, but an internal HR candidate was
ultimately selected. I 8 On April 12,2009, the selectee transferred from HR to
her new post as FASS Liaison, where she was supervised by FASS Director
Edward Hamilton.

       E-mails reveal that by August of 2009, Hamilton had grown
dissatisfied with the selectee's performance in the FASS Liaison position.
Upon hearing of Hamilton's desire to replace her, Cabell-Edelen e-mailed
Hamilton, stating, "Looks like we need to talk upon my return next week."
On September 13, 2009, the selectee transferred back to HR. On October
15,2009, Cabell-Edelen e-mailed her daughter's resume to Hamilton,
stating, "This is the young lady we discussed to fill the position [recently
vacated by the prior selectee] that you had previously interviewed. Hire her
or get [the prior selectee] back (Big Big Smile) . (Just kidding)."

      On October 29,2009 , Hamilton responded to this e-mail, stating, "Per
our discussion I am preparing a 52 for a by name for the Executive
Secretary position GS-9. Who should it go to?" The Executive Secretary
position was a different position than the FASS Liaison position that Cabell-

       18 Hamilton told the OIG that Cabell-Edelen's daughter was not selected for the
FASS Liaison position because she was "not familiar with our system ... [whereas the
candidate FASS selected was] internal to DOJ." Cabell-Edelen's daughter also told the OIG
that she "didn't get the job because she was told she didn't know the system . . . in terms of
being on the inside , hiring people. " These facts further corroborate the HR Specialist's
statement that FASS "wanted someone currently in the government that could hit the
ground running."


                                             24
Edelen had initially urged Hamilton to hire her daughter for. In response to
Hamilton's question, Cabell-Edelen told him to send her daughter's name
request to a specified HR Specialist, and Hamilton complied. That HR
Specialist explained to us that a "by-name" request signaled to HR, "This is
the person I'm interested in hiring."

      The vacancy announcement for the FASS Executive Secretary
position, FASS-10-041-MPP, was posted on November 10,2009 and closed
at 11:59 p.m. on November 16. On the morning prior to the
announcement's closing, Cabell-Edelen e-mailed Gamble and the HR
Specialist, stating in part, "I received a call from Mr. H. today ... He has
selected [the daughter] for the secretary position[ .]"19 The above e-mails
reveal (and refer to) multiple conversations Cabell-Edelen and Hamilton
shared regarding her daughter's appointment, first considering her to
replace a prior selectee as FASS Liaison but ultimately deciding to award
her the "Executive Secretary position."

       When asked how he came to consider Cabell-Edelen's daughter for
the secretary position, Hamilton told us that Cabell-Edelen recommended
her to him, without revealing the family relationship, "comment[ing] on the
young lady's work ethic, her merits, her job knowledge, et cetera." He stated
that "[she] and some other candidates were on that cert" (referring to the
certificate of eligibles) . When asked if he requested the daughter via a "by­
name" request, he said that he did not. We showed him his "by-name"
request e-mail, and asked why he singled the daughter out for special
treatment. He replied, "The guidance 1 got from Pam was: do a 'by-name' if
you want to get [the daughter] back in, into the queue to be reviewed." He
told us that he did not learn that this applicant was Cabell-Edelen's
daughter until months after she began working for him.

      As explained in the next Part of this report, two months after
Hamilton hired Cabell-Edelen's daughter for a position he supervised,
Cabell-Edelen hired Hamilton's son for a position she supervised.

              2.      The Hiring of FASS Director Edward Hamilton's Son

      Pamela Cabell-Edelen hired the son of FASS Director Edward A .
Hamilton in January 2010 as a GS-S Payroll Specialist under the Federal
Career Intern Program (FCIP). Prior to his appointment in HR, Hamilton's
son worked as a security guard and, prior to that, as an airport passenger
screener. He currently works on JMD's Asset Forfeiture Management Staff.


        19 As a reinstatement-eligible candidate, Cabell-Edelen's daughter was not required
to (and did not) apply to this posting. The vacancy announcement's status log indicates,
"Selection made through alternate source (name request)."


                                            25
Hamilton's and Cabell-Edelen's careers briefly overlapped at the Army Corps
of Engineers, but their relationship was at all times professional and not
personal. Cabell-Edelen told the OIG, "I never serviced him in any shape,
form, or fashion [at the Army Corps of Engineers]. The only thing I do
know: he came in, he was processed in, and that was the end of [it], until
he came back to JMD." Cabell-Edelen told the OIG that she and Hamilton
had not communicated over the years following their time in the Army Corps
of Engineers and that she saw Hamilton only as a "customer." Hamilton
likewise told us he had no social relationship with Cabell-Edelen.

      As described below, Hamilton and Cabell-Edelen gave contradictory
accounts of how Hamilton's son came to be hired in JMD. Both of their
accounts significantly understated the nature and extent of Hamilton's
participation in the hiring process.

       During her OIG interview, Cabell-Edelen denied that Hamilton had
any involvement in his son's hiring. She stated that sometime around
December 2009 she "put out a vacancy announcement for a trainee position
because nobody was applying for the junior job in my payroll office. " She
told us that Hamilton's son applied for this position via Avue, the on-line job
application system, and that his name appeared on the certificate of
eligibles. Cabell-Edelen stated that she never had a conversation with
Hamilton regarding either his son's general interest in a DOJ job or the
specific possibility of his son being hired in HR. Cabell-Edelen stated that
she had no idea that Hamilton even had a son until she saw the son 's name
on the certificate of eligibles. According to Cabell-Edelen, even after
discovering the kinship, she did not discuss the son with the father until
after her supervisor, Rod Markham, had approved the son's appointment.

       Hamilton contradicted Cabell-Edelen's version of events during his
OIG interview. Hamilton stated that he brought his son to Cabell-Edelen's
attention. Hamilton stated that he asked Cabell-Edelen about FCIP
opportunities for his son sometime in late 2009. He told us that she
advised him that his son needed "to put a package together" and submit an
application. Hamilton stated that he then sent Cabell-Edelen his son's
resume "as a start." Hamilton told us that "from that point, the
communication from [Hamilton's son] to her began" and that, other than
sending "a couple e-mails" seeking updates, Hamilton remained uninvolved.

       Hamilton described to us a hiring process worked out almost
exclusively between Cabell-Edelen and his son. First, he told us, his son
"put [the application] in [and] made contact with Pam Cabell." He stated
that she reviewed his resume "and that's when she mentioned to him and
he mentioned to me there was [an Office of the Chief Information Officer
(OCIO)] junior help desk position" available . Hamilton told us that he


                                      26
learned that this position did not ultimately pan out from "the e-mail traffic
[that] came back to [Hamilton's son]."

       Hamilton said that after the OCIO prospect fell through, Cabell­
Edelen called his son to suggest to him an FCIP position in HR. Hamilton
stated that Cabell-Edelen informed him, too, that she had an FCIP position
she wanted to offer to his son and that Hamilton stated to her, "Ok. If you
and he work that out, fine ." Hamilton told us that HR Director Rod
Markham subsequently informed him of his son's appointment and told
him, "I saw the cert., I saw the evaluation - we are going to bring [Hamilton's
son] on board.... We dotted all the i's, crossed all the t 's. It was done
appropriately: interview process, et cetera. Ranking, scoring, all of that
happened. I'm going to let Mari [Santangelo] know. You might want to let
her know that, too ." Hamilton stated that he subsequently spoke to
Santangelo, telling her, "Mari, Rod just informed me my son is being hired
in HR. " According to Hamilton, Santangelo asked if proper procedures had
been followed, and he informed her of Markham 's conclusion that "we went
by the book. It's legal. It's legit." According to Santangelo, Hamilton was
"very clear" in telling her that he had "nothing to do with" his son getting a
job in JMD.

       Hamilton insisted to us that his son "applied," that he "made the
cert.," and that he obtained the HR position "on his own merits ." When
asked if he and Cabell-Edelen ever had a conversation about the propriety of
his asking her to help his son get a job, he stated, "She informed me, 'Hey
look, you need to step away from this. Don't even ask me how it's going.
You really don't need to be near this. '" Asked why she said this, he stated
that she was a "professional" and that she was sensitive to the "legacy, if
you will, that my predecessors had been involved in," that he "did not need
to have any shadow or perception around this. . . . And I was sensitive to
that as well." He concluded that "[t]his situation was not in violation;
[Hamilton's son] wasn't in my supervisory chain. I had no interaction with
him and HR and their role . .. or influence over there. "

      Hamilton stated that it was, in fact, "never a desire" of his that his son
be hired in the DOJ. Moreover, he stated that the appointment of his son to
a position in JMD "would [have been his] last preference" but "that's how
the cards were dealt."

     The accounts of other witnesses , contemporaneous e-mails, and
documents provided to the OIG by Avue contradict the account that Cabell­
Edelen provided to the OIG.2o They also reveal that Hamilton

       20 We sought to re-interview Cabell-Edelen regarding the inconsistencies between
her account and other evidence we gathered. As noted above , however, Cabell-Edelen had
                                                                                   (Cont'd .)

                                            27 

mischaracterized to the OIG his efforts to obtain employment for his son in
JMD; he had a greater role in his son's selection than he acknowledged.
Our investigation showed that the following sequence of events occurred,
beginning in late 2009.

      Contemporaneous e-mails show, and Hamilton confirmed, that on or
before December 4,2009, Hamilton and Cabell-Edelen had a conversation
about job opportunities in JMD for Hamilton's son. Hamilton followed up
this conversation with an e-mail to Cabell-Edelen on December 4, which
stated: "As we discussed please see attached my son's resume. Really
appreciate any help you can provide he is currently a GS-5, Step 3."
(Emphasis added.) In response, Cabell-Edelen wrote, "I will give it my all."
Hamilton wrote her back, "I love having the grandkids around but time for
the parents to go. I need to find the brother something (IT, admin, supply)."

       Over the following weekend, Hamilton received from his son another
version of his resume, which he sent to Cabell-Edelen on December 7,2009,
accompanied by the same message seeking "any help [she] can provide."
Immediately following this e-mail to Cabell-Edelen, Hamilton e-mailed his
son's resume to one of her subordinates, stating: "As we discussed please
see attached my son's resume. Really appreciate any help you can provide
he is currently a GS-S, step 3." (Emphasis added.)

       Contemporaneous e-mails show that following Hamilton's request for
help, Cabell-Edelen began making efforts to find a position for Hamilton's
son, and that she gave Hamilton frequent updates about her progress.
These e-mails suggest that contrary to what Hamilton told us, it was Cabell­
Edelen and Hamilton himself - rather than she and Hamilton's son - who
continued to collaborate closely throughout the son's job search.
Specifically, Cabell-Edelen began forwarding Hamilton's son's resume to
current and former colleagues, including Jeanarta McEachron at the DHS,
as well as to the U.S. Army Corps of Engineers, and the OCIO,
recommending him to each for "placement." Cabell-Edelen sent to Hamilton
copies of her initial e-mail inquiries to McEachron and the OCIO, and
Hamilton in turn forwarded these e-mails to his wife and son. On December
8,2009, Cabell-Edelen forwarded to Hamilton an e-mail showing that the
OCIO was interested in his son's resume, stating, "I may have a possible job
for [your son]. I will keep you posted." Hamilton replied to her, expressing
his gratitude and offering, unsolicited, his son's "most recent [Standard
Form] 50." Cabell-Edelen responded, in part, "If I had an FTE I would hire



retired from DOJ by the start of this investigation. Although Cabell-Edelen agreed to our
initial request, she declined our request for a follow-up interview.


                                            28
 him on my staff."21 Hamilton thanked her and forwarded her e-mail to his
 wife and son.

        Hamilton soon expanded his effort to include finding JMD
 employment for a second son. On December 14,2009, Hamilton sent an e­
 mail to Cabell-Edelen with his second son's resume attached, asking, "Can
 you do anything with this one?"22 He also sent his second son's resume to
 the Directors of the Departmental Executive Secretariat 'and the
 Consolidated Executive Office, stating, "Hey guys anything in a career
 ladder that might fit[?] Trying to keep my son from moving back home."
 Later that morning, Hamilton sent his first son's resume to JMD's Security
 & Emergency Planning Staff (SEPS) Director, along with the following
 message: "My son (attached) is in federal service currently as a unarmed
 [Special Police Officer] ... he is a GS-S, has a bachelor in IT and working on
 his MBA. Anything in your area that might fit him with career ladder
 opportunity? Thanks, Ed." Later that day, Hamilton sent his second son's
 resume to an HR Specialist. We found no evidence that these individuals
 identified any specific opportunities for Hamilton's second son, and he is not
 a DOJ employee.

        Meanwhile, Cabell-Edelen sent the OCIO reminder e-mails, assuring
 them of Hamilton's son's interest and availability for an interview,
 suggesting ideas regarding how they might effect the appointment (such as
 using the FCIP appointing authority), and offering her assistance with "the
 specific[s]." On December 15,2009, she sent to Hamilton the e-mail chain
 illustrating the efforts she was making on Hamilton's son's behalf with the
 OCIO. Hamilton forwarded this e-mail to his wife and son, stating, "PIs see
 below," and then responded to Cabell-Edelen, "Thanks Pam, I will keep my
 fingers crossed."

        On December 22,2009, Hamilton e-mailed Cabell-Edelen seeking an
, "update from CIO." On or before January 5,2010, Hamilton and LaTonya
  Gamble apparently had a conversation about his son's effort to obtain the
  OCIO position. On January 5, Hamilton forwarded without comment the
  above-mentioned OCIO e-mail chain to Gamble, who forwarded it to Cabell­
  Edelen, stating that Hamilton sought an update on Cabell-Edelen's
  progress. Cabell-Edelen, who at this point had been out of the office for 17
  days, responded to Gamble that she had heard nothing regarding the OeIO
  prospect and that she would follow up personally with Hamilton when she
  returned to the office. Gamble relayed this message to Hamilton.


        21   An FTE is a "full-time equivalent," meaning an available position .
        22 For purposes of this report , we refer to the son who was ultimately hired as 

 "Hamilton 's son" and to the other son as "Hamilton's second son ." 




                                                29
        A week later, on January 11,2010, Cabell-Edelen forwarded a new e­
mail chain to Hamilton, this one showing that the OCIO prospect did not
pan out. Hamilton thanked Cabell-Edelen for her help and forwarded her
news to his wife and son, stating, "lwill keep looking. Sorry .. ." (Emphasis
added.) In a subsequent e-mail, Cabell-Edelen assured Hamilton she was
"still working on both and [would] keep [him] posted. " Hamilton thanked
her again and forwarded this e-mail to his wife and son as well.

       Within a few weeks Cabell-Edelen selected Hamilton 's son for a
position in HR as a GS-5 Payroll Specialist under FCIP. As noted above, use
of this hiring authority enabled Cabell-Edelen to make this selection without
notice to the public, open competition, or any competitive examination
procedures. On January 26,2010, Cabell-Edelen sent Hamilton an e-mail
stating, "I Am Going To . .. Beat You Up! Stay out of the issue we discussed
this morn!" Five minutes later, Hamilton e-mailed his son, stating, "Justice
Personnel is trying to call you on your cell. " Later that day, one of Cabell­
Edelen's HR specialists e-mailed Hamilton the message: "Shhhhhhhhh - It
is a done deal: ). " Hamilton thanked her and forwarded her e-mail to his
wife and son.

      The following day, January 27,2010, Cabell-Edelen e-mailed her
supervisor, HR Director Rodney Markham, stating, "I have selected
[Hamilton's son]" as GS-S Payroll Specialist with promotion to GS-9.
Markham responded, "Come again... ," to which Cabell-Edelen replied,
"Yeap!" Markham wrote back, "Sigh... . Mari will flip out."

       When asked about the appointment of Hamilton's son, Markham told
us, "Nobody ever asked me, 'Rod, is it okay if we hire Ed's son?' I would
have said, 'No, not in my organization. It's FASS! You know?'" Markham
stated, "I told Pam, 'You guys can't do this. You know? We need to know.
This is just unacceptable.'" When asked why this appointment immediately
struck Markham as problematic, Markham stated, "Because I feel we should
tell Mari [Santangelo] these things. When [my nephew] was working in NSD,
I told her. When [my cousin] was working in Budget, I told her .... We
don't want to catch our senior leaders off guard.... I want to know about
these things."

      Markham told us that he could have prevented the appointment of
Hamilton's son, but was reluctant to "penalize" the son. "I should have put
the brakes on that one and got him outside of JMD," Markham told us.
When asked what steps he did take after learning of the selection of
Hamilton's son, Markham described questioning Cabell-Edelen and LaTonya
Gamble regarding a proposed training plan for him, in order to ensure that
"he [would be able to] convert" to a career or career-conditional position in
the competitive service at the conclusion of his internship. He stated that
                                     30
his concern was that the appointment not result in an unstructured, "bring
him on board and stick him in a cube because it's Ed's son" experience.

      Our interviews of Markham showed that he did not seriously
scrutinize how Cabell-Edelen came to select Hamilton's son. Specifically, he
did not sufficiently investigate whether any JMD personnel had engaged in
Prohibited Personnel Practices, particularly advocating for a relative's
appointment or granting an applicant an authorized preference or
advantage.

      We questioned Hamilton about his financial relationship with his son.
He stated that his son, his son's wife, and their children had lived "for a
couple of years" with Hamilton in his home. Hamilton 's son's family grew
from two children to four children during the time he was living with his
parents. This period included the time that Hamilton was asking for help in
getting his son a job in JMD. He stated that his son had been the victim of
a bad economy ("an economic casualty"). When asked whether Hamilton's
son provided him rent during this period, Hamilton stated, "Over a period of
two years I may have gotten maybe $200 ." Hamilton told us that,
eventually, his son "got his feet on the ground and was able to get a loan
and get a mortgage," and move out. He stated that his son had recently
purchased a house without any further financial assistance from Hamilton.

       We also asked Hamilton's son about his financial relationship with his
father during this time. He confirmed that he paid no rent, cable, utilities,
or related expenses while living in his parents' home but stated that he did
"help[] out with groceries from time to time. " He told us that he sporadically
provided up to $300 in cash to his parents. He stated:
      It was hit or miss . When [my parents] were like, "Look, you got
      to contribute something," yeah, I anted up . But I wasn't able to
      contribute 300 every month. . . . There were some months that
      I couldn't, and there were some months that I made up for it
      other ways , whether that be hanging out with them or washing
      the car or something.

       Hamilton's son explained that these occasional cash payments did not
fully cover his family's expenses and that his parents provided financial
support. He told the OIG, "They would have had to have helped. I don't
know anybody that can survive a family of [my family's size at the time] on
300 bucks a month. No way. No. No way." We asked him, "While you were
living at [your father's] house, he was paying some of the expenses of
supporting your family?" He stated, "Naturally, yeah. Mom, too."

      Hamilton's son began working in HR on March 15,2010, at a salary
equal to the salary of his prior position, $37,481. Confirming his father's

                                      31 

account, he told the OIG that he subsequently acquired a loan, purchased a
house, and moved his family out of his father's residence in late 2010. On
January 30, 2011, he was transferred to JMD's Asset Forfeiture
Management Staff and promoted to GS-7/ 11 Administrative Specialist, a
position providing an initial salary of $42,209 with a promotion potential to
$81,204. 23

      Hamilton and Cabell-Edelen hired each other's children during the
same 10-week period. As noted, Pamela Cabell-Edelen sent her daughter's
resume to Hamilton on October 15,2009, and Hamilton selected the
daughter on November 16. On or before December 4,2009, Hamilton asked
Cabell-Edelen about opportunities for his son, and ten days later about
opportunities for a second son. In January 2010, Cabell-Edelen hired
Hamilton's son. However, both Hamilton and Cabell-Edelen denied a
connection between the hiring of their respective children. Hamilton told us
that he did not learn that the person he selected was Cabell-Edelen's
daughter until several months after these events. Cabell-Edelen denied that
she knew that Hamilton even had a son until after his name appeared on
the certificate of eligibles - although both Hamilton's testimony and
contemporaneous e-mails clearly showed this statement to be false.

       B.     Analysis of the Conduct of Pamela Cabell-Edelen
      We concluded that HR Assistant Director (GS-15) Pamela Cabell­
Edelen violated several statutes and regulations by attempting to obtain
employment in JMD for her daughter, and that she made false or
misleading statements under oath to the OIG.

              1.     Nepotism - 5 U.S.C. §§ 3110(b) and 2302 (b)(7)

       We found that Cabell-Edelen violated the federal nepotism statute, 5
U.S.C. § 3110(b), in connection with the appointment of her daughter. The
nepotism statute prohibits a "public official" from employing or advocating
for the employment of his "relative" to a civilian position in the official's
agency. Such conduct is also a Prohibited Personnel Practice under 5
U.S.C. § 2302 (b)(7).

       Cabell-Edelen, an HR Assistant Director with authority to make or
affect employment decisions, qualified as a "public official'" during the period
in question. Moreover, the beneficiary of Cabell-Edelen's acts was her own
daughter, a relation within the statutory definition of "relative." See 5

        23 Pursuant to Executive Order 13562 (December 30,2010), President Obama

revoked E .O. 13162, terminating the FCIP effective March 1,2011. As a result, Hamilton's
son, like most FCIP employees, was converted to a permanent competitive service position
prior to the expiration of his initial, 2-year appointment.


                                           32
U.S.C. § 3110(a)(3). Our investigation further revealed that Cabell-Edelen
"advocated" for her daughter's appointment to a civilian position in her
agency.

       As previously described in detail, Cabell-Edelen had e-mail as well as
in-person conversations with Hamilton during which she spoke in favor of,
recommended, or otherwise endorsed her daughter's appointment to a
position in FASS. For example, in one e-mail, dated October 15,2009,
Cabell-Edelen sent her daughter's resume to Hamilton, stating, "This is the
young lady we discussed to fill the position [recently vacated by the prior
selectee] that you had previously interviewed. Hire her or get [a prior
employee] back (Big Big Smile). (Just kidding)." (Emphasis added.) Having
a conversation with the FASS Director about her daughter's suitability for a
FASS position and subsequently sending him her daughter's resume along
with the words "Hire her" clearly represents improper advocacy. In addition,
Hamilton told us that Cabell-Edelen recommended her daughter to him and
that she "commented on the young lady's work ethic, her merits, her job
knowledge, et cetera. "

      It does not matter that Cabell-Edelen's daughter was hired to a
position outside of Cabell-Edelen's chain of command. The federal nepotism
statute prohibits "advocacy" in connection with employment for any position
within one's agency. It is not limited to advocacy for positions within the
official's chain of command.

      We therefore concluded that Cabell-Edelen violated the nepotism
statute and committed a Prohibited Personnel Practice when she
recommended her daughter to Hamilton.

            2. 	   Unauthorized Preferences or Advantages - 5 U .S.C.§
                   2302(b)(6)

      As noted above, 5 U.S.C. § 2302(b)(6) prohibits an official from
granting:

      any preference or advantage not authorized by law, rule , or
      regulation to any employee or applicant for employment
      (including defining the scope or manner of competition or the
      requirements for any position) for the purpose of improving or
      injuring the prospects of any particular person for employment.

The initial posting for the FASS Liaison position was open, pursuant to
FASS's specific request, to "current federal employees." A reinstatement
candidate, Cabell-Edelen's daughter was not eligible to apply to the initial
posting. Cabell-Edelen, however, instructed an HR Specialist to cancel the
initial posting and replace it with a new vacancy announcement - one open

                                     33 

specifically to reinstatement eligible candidates. Then, immediately after the
second announcement was posted, Cabell-Edelen sent an e-mail to her
daughter stating that the announcement's Area of Consideration had been
sufficiently broadened to permit her daughter to apply.

      Based on these facts, we concluded that Cabell-Edelen violated 5
u.s.c. § 2302(b)(6) by defining the scope and manner of competition to
facilitate her daughter's appointment.

             3. 	   Use of Public Office for Private Gain - 5 C.F.R. §
                    2635.702

        The facts surrounding Cabell-Edelen's January 2009 manipulation of
the FASS Liaison hiring process show that Cabell-Edelen violated Section
702 of the Standards of Ethical Conduct, "Use of public office for private
gain." 5 C.F.R. § 2635.702. Section 702 states that "[a]n employee shall
not use his public office ... for the private gain of friends, relatives, or
persons with whom the employee is affiliated in a nongovernmental capacity
... . " Section 702 also sets forth, by way of illustration, a non-exclusive list
of four "specific prohibitions" covered by Section 702, the first of which
states:

      An employee shall not use or permit the use of his Government
      position or title ... in a manner intended to coerce or induce
      another person, including a subordinate, to provide any benefit,
      financial or otherwise, to himself or to friends, relatives, or .
      persons with whom the employee is affiliated in a
      nongovernmental capacity.

      The evidence shows that Cabell-Edelen used her public office for her
daughter's private gain in January 2009. As discussed above, Cabell­
Edelen instructed one of her subordinates, an HR Specialist, to modify the
FASS Liaison announcement parameters specifically to enable her
reinstatement-eligible daughter to apply. This was an abuse of Cabell­
Edelen's position.

            4. 	    Participation in a Matter Affecting the Financial
                    Interest of a Person in a Covered Relationship - 5
                    C.F.R. § 2635.502

       We also concluded that Cabell-Edelen disregarded the guidelines set
forth in Section 502 of the Standards of Ethical Conduct in connection with
both her January 2009 manipulation of the FASS Liaison hiring process as
well as her late 2009 recommendations to Hamilton that he hire her
daughter in FASS. Section 502 applies to the participation in a "particular
matter" (such as a hiring decision for a federal position) by an employee who

                                       34 

knows that such a matter "is likely to have a direct and predictable effect on
the financial interest of someone in a "covered relationship." Section 502
further states that, "[w]here the employee determines that the
circumstances would cause a reasonable person with knowledge of the
relevant facts to question his impartiality in the matter," the employee
should obtain authorization from an agency designee before participating in
the matter. Covered relationships include persons with whom the employee
has a financial relationship, persons who are members of the employee's
household, and persons who are relatives with whom the employee has a
close personal relationship.

       Cabell-Edelen improperly involved herself in her daughter's
applications for employment on at least two occasions in 2009 - each a
"particular matter" likely to have a direct and predictable effect on her
daughter's financial interest. Specifically, Cabell-Edelen manipulated the
hiring process for the FASS Liaison position in January by changing the
announcement so that it was possible for her daughter to apply and on
other occasions improperly advocated for her daughter's appointment to
multiple DOJ positions . Moreover, Cabell-Edelen had a "covered
relationship" with her daughter: their familial relationship is beyond
dispute, and her daughter confirmed that the two are close. Such
circumstances would cause any reasonable person with knowledge of the
relevant facts to question Cabell-Edelen's impartiality toward her daughter.

      Section 502 therefore clearly obligated Cabell-Edelen to secure agency
designee authorization prior to participating in either of these matters. The
OIG confirmed that Cabell-Edelen neither sought nor received such
authorization. 24

            5.     False or Misleading Statements to the OIG

       We concluded that Pamela Cabell-Edelen made mUltiple false
statements under oath regarding the appointments of her daughter and
Hamilton's son. We also concluded that Cabell-Edelen, who had already
retired from the Department when we interviewed her in May 2011, made
these false statements in a deliberate attempt to obstruct our investigation.

     When we asked Cabell-Edelen how her daughter came to be hired in
JMD, she said that her daughter applied for the job in Avue and that
Hamilton received her name on the certificate of eligibles. She stated, "I do




                                      35 

not get involved in my daughter's employment or press anybody to hire her.
. .. It just happened that Mr. Hamilton and his team hired her." She told
us that her daughter got the job "all on her own," stating, "I had nothing to
do with any of it."

       However, as described above, the contemporaneous evidence clearly
shows that Cabell-Edelen involved herself extensively in her daughter's
effort to be hired in JMD, including by manipulating the FASS Liaison hiring
process and advocating on her daughter's behalf to a variety of DOJ
officials. In one e-mail, Cabell-Edelen clearly urged Hamilton to "[h]ire her,"
(referring to her daughter), and she subsequently discussed her daughter's
candidacy with Hamilton and agreed on "a by name [request] for the
Executive Secretary position." Although the OIG interviewed Cabell-Edelen
18 months after the events, it is extremely unlikely that Cabell-Edelen forgot
about her role in her daughter's effort to be hired in JMD. Indeed, when
interviewed, she did not say anything about not recalling what she had
done. She was simply insistent that she had "nothing to do with" her
daughter being hired. We concluded that she intentionally attempted to
conceal her assistance from the OIG.

       Cabell-Edelen likewise attempted to conceal her participation in the
effort to find a JMD job for Hamilton's son. When we first asked Cabell­
Edelen how Hamilton's son came to be hired in JMD, she stated that,
sometime in December 2009, she "put out a vacancy announcement for a
trainee position, because nobody was applying for the junior job in my
payroll office." She stated that Hamilton's son applied for this position
through Avue, and that his name appeared on the certificate of eligibles.
She told us that before this, she had no conversations with Hamilton about
his son applying. She told the OIG, "I would not have probably talked to
[Hamilton] until I got the clearance that I got from my boss [Markham] that I
was going to hire him." Moreover, she stated, she was not aware that
Hamilton even had a son until she noticed the familiar name on the
certificate of eligibles.

       Once again, contemporaneous evidence, including e-mails and Avue
archives, contradicted Cabell-Edelen's account. Cabell-Edelen's statement
to us that she put out a vacancy announcement for a trainee position
because nobody was applying for the junior job in her payroll office was
contradicted by her own e-mail, sent to Hamilton in December 2009,
stating, "If I had an FTE I would hire him on my staff." Moreover, Avue
records we reviewed and executives we interviewed confirmed that Cabell­
Edelen's office advertised no junior or trainee payroll job at any time after
March 2009 and that Hamilton's son's name never appeared on any referral
list that Avue ever generated for any position. Moreover, the e-mails and
witness accounts described above amply demonstrate Cabell-Edelen's
extensive involvement in Hamilton's son's job search, beginning with

                                      36 

conversations she and Hamilton had in early December 2009 and ending in
late January 2010 when she selected Hamilton 's son for a position in HR.

      Because Cabell-Edelen declined our request to interview her a second
time after her retirement, we were unable to confront her with the evidence
contradicting her statements regarding the appointment of her daughter
and Hamilton's son. Nonetheless, the evidence strongly supports the
conclusion that Cabell-Edelen made false statements in a deliberate attempt
to obstruct the OIG's investigation. 2 5

            6.    Conclusions Regarding Cabell-Edelen

      We concluded that Pamela Cabell-Edelen violated the nepotism
statute, committed Prohibited Personnel Practices, and violated the
Standards of Ethical Conduct in connection with her campaign to obtain
employment in JMD for her daughter. Cabell-Edelen also made false or
misleading statements under oath to the OIG in an effort to conceal from
the OIG her involvement in the hiring of both her own daughter and Edward
Hamilton 's son'.

       Cabell-Edelen has retired from DOJ and is no longer subject to
discipline. Nevertheless , we recommend the Department consider the
findings in this report should Cabell-Edelen apply in the future for another
position with the Department, and that the Department share these findings
with the Office of Personnel Management for consideration in the event that
Cabell-Edelen applies for a position in a different federal agency.

      C.    Analysis of the Conduct of Edward Hamilton, Sr.

       We concluded that FASS Director (SES) Edward A. Hamilton's
involvement in his son's effort to successfully obtain a position in JMD
violated multiple statutes and regulations.

            1.    Nepotism - 5 U.S.C. §§ 3110(b) and 2302(b)(7)

      We concluded that Hamilton violated the federal nepotism statute, 5
U.S.C. § 3110(b), in connection with the appointment of Hamilton's son.
The nepotism statute prohibits a public official with hiring authority from
employing or advocating for the employment of his "relative" to a civilian
position in the official's agency. Such conduct is also a Prohibited
Personnel Practice under 5 U.S.C. § 2302(b)(7) . During the period in




                                     37 

question, as FASS Director, Hamilton clearly qualified as a public official
with hiring authority, and Hamilton's son met the statutory definition of a
"relative."

      We concluded that Hamilton's campaign to find employment for his
son in DOJ constituted "advocacy" prohibited under the nepotism statute.
The JMD officials to whom he e-mailed his son's resume included HR
Assistant Director Pamela Cabell-Edelen, the Director of SEPS, and an HR
Specialist. Hamilton recommended his son to these individuals and
described how important it was to find a job for him. In separate e-mails to
Cabell-Edelen and the HR Specialist he wrote, "As we discussed please see
attached my son's resume . Really appreciate any help you can provide he is
currently a GS-S, Step 3." (Emphasis added.) When Cabell-Edelen
promised to "give it [her] all," Hamilton reiterated to her his desire to see his
son placed, stating, "I love having the grandkids around but time for the
parents to go. I need to find the brother something (IT, admin, supply)."

       He specifically requested a "career ladder opportunity" for his son; he
described his son's work experience and education; and he registered his
approval of the efforts expended on his and his son's behalf with multiple
expressions of gratitude. Hamilton had additional, in-person conversations
about his son's JMD job search with Cabell-Edelen and the HR Specialist
and made a point of reminding them how much he would "appreciate [their]
help." He initiated contact with Cabell-Edelen, asked her about
opportunities for his son, sent her at least two versions of his son's resume,
e-mailed her his son's Standard Form 50, sought updates from her on
numerous occasions, and thanked her for her assistance. His personal
involvement was so insistent, in fact, that it continued through the formal
extension of an offer to Hamilton's son. As described above, in the moments
before HR telephoned Hamilton's son with an official offer of employment,
Cabell-Edelen sent Hamilton an e-mail stating, "I Am Going To ... Beat You
Up! Stay out of the issue we discussed this morn!" (Ellipsis in original.)
Five minutes later, Hamilton e-mailed his son, stating, "Justice Personnel is
trying to call you on your cell."

      In sum, we concluded that Hamilton's campaign to obtain
employment for his son in JMD constituted "advocacy" in violation of the
nepotism statute.

       Hamilton stated that he committed no violation due, in part, to the
fact that HR lay outside his own supervisory chain. As previously noted,
however, the prohibitions on nepotism are not limited to advocacy to
persons within the public official's own chain of command. Hamilton
violated the nepotism statute and committed a Prohibited Personnel Practice
when he recommended his son to a variety of JMD officials, most notably to
Cabell-Edelen.

                                       38 

               2.     Use of Public Office for Private Gain - 5 C.F.R. §
                      2635.702

      We concluded that Hamilton violated Section 702 of the Standards of
Ethical Conduct, 5 C.F.R. § 2635.702, which specifically bars an employee
from using his public office for his friends' or relatives' private gain. The
evidence shows that Hamilton misused his public office when he
recommended his son (and for that matter his second son) to a variety of
JMD officials. 26

      As described above, Hamilton had multiple discussions with Cabell­
Edelen regarding his son's need for a job, assuring her (and an HR
Specialist) how much he would "appreciate any help," submitting to her his
son's resumes and other paperwork, and repeatedly thanking her as the
hiring process unfolded. He similarly urged the Director of SEPS to assist
his son in finding a job, describing his son's education and work experience
and specifically requesting a "career ladder opportunity." The e-mails show
that he continued to press for updates regarding his son's progress,
contacting not only Cabell-Edelen, but LaTonya Gamble and another HR
Specialist as well. An e-mail dated January 26,2010, shows that Cabell­
Edelen ultimately told him to "stay out of the issue." He similarly urged
Cabell-Edelen and two other JMD Directors to assist in finding work for his
second son.

       Hamilton's persistent efforts with other JMD officials on behalf of his
sons provided them with a "private gain" unavailable generally to applicants
for DOJ positions. He was well-positioned as the FASS Director to request
favors from three JMD Directors, the HR Officer, and an HR Specialist. In
particular, his relationship with Cabell-Edelen was professional. Cabell­
Edelen told us that although she knew of Hamilton when they both worked
at the Army Corps of Engineers, they had had no communication in the
years since. She described him as a "customer." In short, the only reason
Cabell-Edelen would have had to respond so vigorously to Hamilton's
request for help was that Hamilton held an influential position in JMD. 27 In
contacting Cabell-Edelen and others about his son, Hamilton was "using his
public office," not any friendship with them, as the basis for his request.



        26 December 2009 e-mails show that, in addition to the efforts made on his son's
behalf, Hamilton sent his second son's resume to at least four JMD officials, seeking for
him "anything in a career ladder that might fit."
        27 We believe that the analysis of misuse of position under Section 702 is a fact­
specific inquiry that depends on the context. The finding that Hamilton misused his
position was evident in view of Hamilton's position as FASS Director and the prior hiring
abuses by his predecessors .


                                             39 

This provided Hamilton's son with an improper "private gain" and was an
abuse of Hamilton's position.

       We also found that Hamilton's conduct, in addition to violating
Section 702 's general prohibition, fell squarely under one of the four
"specific prohibitions" listed in Section 702. Section 702(a) prohibits the
use of one's public office "in a manner intended to coerce or induce another
person .. . to provide any benefit, financial or otherwise" to himself or to a
relative. As described in previous sections of this report, Hamilton
intentionally "induce[d]" Cabell-Edelen to provide a "benefit" to his son by
sending his resume, requesting her assistance, explaining why it was
important to Hamilton that his son get a new job, and providing supporting
documentation and multiple expressions of gratitude.

             3. 	   Participation in a Matter Affecting the Financial
                    Interest of a Person in a Covered Relationship - 5
                    C.F.R. § 2635.502

      We similarly concluded, based on his recommending his son to his
JMD colleagues, that Hamilton failed to follow the guidelines set forth in
Section 502 of the Standards of Ethical Conduct. As noted above, Section
502 relates to the participation in a "particular matter" (such as a hiring
decision for a federal position) by an employee who knows that such matter
is likely to have a "direct and predictable effect" on the financial interest of
someone in a "covered relationship," and "[w]here the employee determines
that the circumstances would cause a reasonable person with knowledge of
the relevant facts to question his impartiality in the matter."

      Hamilton clearly had a "covered relationship" with his son; not only
were they father and son, they also shared a household. Moreover, the
matter (the decision whether to hire Hamilton's son) obviously had a direct
and predictable effect on Hamilton's son's financial interest. Indeed, that
impact was foremost in Hamilton's mind as he sought a path for his son to
move his family out of Hamilton's house.

      The evidence described above clearly shows that Hamilton
"participated" in this matter. In fact, Hamilton participated "personally and
substantially" in the matter, as defined in the Code of Federal Regulations,
which state, in part:

      To participate personally means to participate directly. . . . To
      participate substantially means that the employee's involvement
      is of significance to the matter. Participation may be
      substantial even though it is not determinative of the outcome
      of a particular matter.... A finding of substantiality should be
      based not only on the effort devoted to a matter, but also on the

                                       40
       importance of the effort.... [T]he single act of approving or
       participating in a critical step may be substantial. Personal and
       substantial participation may occur when , for example, an
       employee participates through decision, approval, disapproval,
       recommendation, investigation or the rendering of advice in
       the particular matter.
5 C.F.R. § 2635.402(B)(4) . (Emphasis added .)

       As described above, Hamilton played a pivotal - if not a public or
prolonged - role in his son's attempt to secure a DOJ appointment. As
Director of FASS, Hamilton possessed power and influence within JMD. E­
mail and witness accounts show Hamilton campaigned on his son's behalf
by submitting his son's resume to multiple JMD colleagues , including the
SEPS Director, the HR Officer, and an HR Specialist, and urging his JMD
colleagues to consider his son for placement in a variety of roles (e.g.,
information technology, administration, supply, security) . He provided
positive comments about his son's background and qualifications, and
stated that he preferred that his son receive a "career ladder opportunity. "
Particularly with regard to Cabell-Edelen's role in the hiring process,
Hamilton's participation was unquestionably "personal and substantial."
He initiated contact with Cabell-Edelen, asked her about opportunities for
his son, sent her at least two versions of his son's resume, e-mailed her his
son's Standard Form 50, repeatedly sought updates from her, and thanked
her for her assistance. His personal involvement was so "substantial," in
fact, that it eventually drew a rebuke from Cabell-Edelen, who admonished
him to reduce his level of involvement.

        We do not believe that Hamilton escapes the requirements of Section
502 because he was not the formal decision maker in the hiring decision.
Senior government employees very commonly share opinions and
recommendations regarding hiring and promotion decisions. We believe
that when they do so they are acting within their "official duties" under the
Standards of Ethical Conduct, even if the particular matter in question
relates to a decision that is not the formal "responsibility" of the senior
official. Specifically, an employee who receives a recommendation from a
senior official about agency business, such as a hiring decision, may
justifiably conclude that the senior official is acting in his official capacity,
and it would be unreasonable for a senior official to expect that an employee
would construe his recommendation otherwise. 28


        28 The OIG's Section 502 analyses in this investigation are fact-specific and were
further informed by the issues raised in our 2004 and 2008 Reports . Hamilton and other
senior officials discussed herein were aware of prior misconduct within JMD and had
received training on legal and ethical issues associated with involvement in the hiring of
relatives.
                                                                                      (Cont'd.)

                                              41
       In sum, Hamilton's involvement was "of significance to the matter"; it
was "substantial even though it [was] not determinative of the
outcome." Based on these facts, we concluded that Hamilton "participated
in a critical step" of his son's application process or otherwise made a
"recommendation" or "rendered advice" on his candidacy.

       These circumstances would cause any reasonable person to question
Hamilton's impartiality toward his son. In fact, Hamilton himself recognized
the appearance problem. Asked to explain why Cabell-Edelen cautioned
him to, in Hamilton's words, "step away from" the matter of his son 's
appointment, Hamilton stated, "She was concerned about the legacy, if you
will, that my predecessors had been involved in and that you don't need to
have any shadow or perception around this .... And I was sensitive to that
as well."

      Under Section 502, Hamilton therefore should have obtained
authorization from the agency designee before participating in the matter.
The GIG confirmed that Hamilton neither sought nor received authorization.
His failure to do so was egregious in light of the knowledge Hamilton had of
the problems encountered by his predecessor in connection with hiring
family friends and relatives. 29

               4.     Misleading Statements to the OIG

      We considered whether Hamilton's statements to the GIG were
misleading. The gist of Hamilton's account was that he merely asked
Cabell-Edelen about the FCIP and then, other than sending her his son's
resume and occasionally asking for updates, he stayed out of the process,

         In addition , under the circumstances of the misconduct discussed in this report, the
OIG need not decide whether an official would run afoul of Section 502 's proscriptions if
there were a non-official basis for a senior official to offer hiring advice or recommendation
relating to a relative because there is no evidence in this case of any such outside
relationships . However, as stated in Section 501 , we believe senior officials should be
mindful of the "appearance of loss of impartiality," and that it would be prudent to consider
that even in the case of a long-standing personal friendship between a senior official and a
hiring official, there may be a strong presumption that a senior official is acting in an
official capacity for purposes of Section 502 when recommending a relative for employment.




                                             42 

which he portrayed as consisting of communications occurring directly and
almost exclusively between Cabell-Edelen and his son.

        We found no evidence, however, of any such collaboration between
Cabell-Edelen and Hamilton's son. Instead, contemporaneous e-mails
suggest that Hamilton and Cabell-Edelen effected the son's entire job search
and ultimate hiring entirely on their own. We found many e-mails between
Hamilton and Cabell-Edelen regarding a job for the son, but none between
the son and Cabell-Edelen. For example, it was through Cabell-Edelen ­
not, as Hamilton told the OIG, from his son or from "the e-mail traffic [that]
came back to [his son]" - that Hamilton first learned of the OCIO job
prospect and later learned that it fell through, and it was through Cabell­
Edelen and her staff - not Markham or Hamilton's son - that Hamilton
ultimately learned of his son's appointment in HR. If Cabell-Edelen were
working directly with the son, as Hamilton asserted, she would have had
little reason repeatedly to update the father on the progress of the job
search, and Hamilton would have had no reason to forward Cabell-Edelen's
updates and e-mail chains to his son. If not demonstrably false, Hamilton's
statements were certainly misleading. Thus , we concluded that Hamilton
significantly understated his own involvement in obtaining employment for
his son. Moreover, given that Hamilton's involvement was so insistent that
Cabell-Edelen had to warn Hamilton to "[s]tay out of the issue we discussed
this morn!," we found it difficult to accept Hamilton's claim that it "was
never a desire of mine" that his son be hired in JMD. In short, we found
that Hamilton's statements lacked candor.

        Moreover, we note that Hamilton may not have been honest with his
own boss, Santangelo. According to Santangelo, Hamilton was "very clear"
in telling her that he had "nothing to do with" his son's getting a job in JMD.
As described above, Hamilton had a great deal to do with his son's
appointment.

      We therefore concluded that Hamilton made misleading statements to
the OIG.3o

            5.     Conclusions Regarding Hamilton

      We concluded that FASS Director Edward Hamilton violated the
nepotism statute, committed a Prohibited Personnel Practice, and violated
the Standards of Ethical Conduct in connection with his campaign to obtain
employment in JMD for his son. Hamilton also made misleading statements




                                      43 

in an effort to minimize his involvement in securing his son's appointment
to a position with JMD HR.

       We are not aware of mitigating circumstances for Hamilton's conduct.
Hamilton was well aware of the facts and circumstances surrounding his
predecessor's violation of laws and regulations relating to merit selection
procedures, conflicts of interest, and Standards of Ethical Conduct. We
reviewed the written materials Rodgers provided to Hamilton during their
March 2009 meeting (described above) , as well as those used in the annual
ethics training that Hamilton attended the following year, and found that
this           included am Ie discussion of conflict of interest laws.
                                             and provisions governing the
mIsuse      one                             otably, the Rodgers training -
delivered to Hamilton only months before he began his effort to obtain a job
for his live-in son - plainly stated, "An employee may not participate in a
particular matter involving specific parties affecting the financial interests of
a member of his household." The materials also expressly forbade the use
of one's public office for "his own private gain, and that of friends [or]
relatives .... " The annual ethics training materials we reviewed contained
multiple reminders to seek ethics advice often and always prior to taking
action .

       Hamilton sought no advice from an agency ethics official regarding the
propriety of his efforts to obtain JMD employment for both of his sons .
Such an inquiry, he knew or should have known, would have resulted in
advice that he refrain from advocating for his sons' employment by other
officials in the Department.

      We are referring our findings concerning Hamilton to JMD for its
review and appropriate disciplinary action.

      D.    Analysis of the Conduct of LaTonya Gamble

      We concluded that HR Operations Chief (GS-15) LaTonya Gamble
engaged in a Prohibited Personnel Practice and violated the Standards of
Ethical Conduct by manipulating the competitive hiring process to grant
improper preferences to Cabell-Edelen's daughter.

             1.    Unauthorized Preferences or Advantages - 5 U.S.C. §
                   2302(b)(6)

      We found that Gamble violated 5 U.S.C. § 2302(b)(6) in connection
with Cabell-Edelen's daughter's application for employment. That provision
prohibits an official from granting:

      any preference or advantage not authorized by law, rule, or
      regulation to any employee or applicant for employment

                                       44
       (including defining the scope or manner of competition or the
       requirements for any position) for the purpose of improving or
       injuring the prospects of any particular person for employment.

       As described above , Gamble sent an e-mail to an HR Specialist
instructing her to change the FASS Liaison position vacancy announcement
to include "reinstatement eligible" candidates, thus enabling Cabell-Edelen's
daughter to apply for the position. 31 Then, when the HR Specialist rated the
daughter's Avue application for the FASS Liaison position "not qualified,"
based on her lack of relevant experience, Gamble called the HR Specialist
into her office and instructed her to change the rating to "qualified" and to
create an amended certificate of eligibles that included the daughter's name.
The HR Specialist told us that the rating decision was still up to her
because she was the Rating Specialist, so she resisted Gamble. The HR
Specialist told us that Gamble rebuffed her objections, however, and
"ordered " her to qualify Cabell-Edelen's daughter. The HR Specialist told
the OIG that this was the only time in her career that she had been
overruled in this way, and she therefore made a point of specifically
memorializing Gamble 's intervention by making a contemporaneous
notation in the Avue database, the existence of which the OIG subsequently
confirmed.

      We believe that Gamble was acting on behalf of her boss and friend,
Cabell-Edelen, to benefit Cabell-Edelen's daughter. Gamble's actions,
apparently coordinated with Cabell-Edelen, dramatically advanced Cabell­
Edelen's goal of installing her daughter as FASS Liaison. 32




       . 31 We did not credit Gamble 's speculation about the reasons for changing the Area
of Consideration to include reinstatement eligible candidates . As detailed above , Gamble 's
description of a "glitch in Avue 's system" was not corroborated by any of the relevant
witnesses. Moreover, even if there had been a flaw in Avue 's definition of "status eligibles ,"
this problem would have had no effect on a vacancy announcement , such as the one at
issue here, open only to "current federal employees. " We concluded that Gamble ordered
the change to the announcement's Area of Consideration to enable Cabell-Edelen's
daughter to apply for the position.
         32 It is difficult to quantify the extent to which Gamble enhanced Cabell-Edelen's
daughter's chances of securing the FASS Liaison position . What is clear, however, is that
prior to Gamble's second int ervention on the daughter's behalf, her candidacy had already
come to an end; the HR Specialist had disqualified her, as she indicated in Avue 's database ,
for failing to "meet the one year specialized experience at the nex t lower level as required by
OPM." Gamble's intervention, however, ensured the consideration of the daughter's
rejected application and vaulted her over multiple other candidates . Notably, Cabell­
Edelen 's daughter told us that during a conversation with Cabell-Edelen regarding her
application 's status , her mother informed her that at some point during the application
process , she "went from being top 12 to top 2 ."


                                              45 

       Given that Gamble knew Cabell-Edelen's daughter from her prior
employment at the Army Corps of Engineers, we considered the possibility
that she intervened on Cabell-Edelen's daughter's behalf based on a sincere
belief in Cabell-Edelen's daughter's merit. However, Gamble told us she had
no opportunity to observe the daughter'S skills or abilities when both were
employed at the Army Corps of Engineers. Gamble and Cabell-Edelen's
daughter each stated that there was no post-Army contact, at least until
after the daughter assumed her FASS Secretary position. Gamble's prior
experience with the daughter therefore provided no basis not included in the
application materials for Gamble to conclude that she had skills and talents
suitable for the FASS Liaison position.

       Moreover, when we interviewed Gamble, she did not even attempt to
justify her alleged qualification of Cabell-Edelen's daughter based on her
skills and abilities. Instead, she denied any involvement whatsoever in the
daughter's application process . She stated that she had no exchanges with
any person regarding the daughter's application or her attempt to be hired
as FASS Liaison. When asked if it was possible that she could have
instructed an HR Specialist to change a candidate's qualification rating, she
said no. Her denials of any involvement, however, were contradicted by
witness testimony, contemporaneous e-mails, and the official record, which
documented her involvement.

      Based on these facts, we concluded that Gamble violated 5 U.S .C. §
2302(b)(6) by granting Cabell-Edelen's daughter an improper "preference or
advantage ... for the purpose of improving . . . [her] prospects ... for
employment."

            2. 	   Use of Public Office for Private Gain - 5 C.F.R. §
                   2635.702

      Gamble also violated Section 702 of the Standards of Ethical Conduct,
5 C.F.R. § 2635 .702 , which provides that an employee "shall not use his
public office ... for the private gain of friends, relatives, or persons with
whom the employee is affiliated in a nongovernmental capacity .. .."
Section 702 also sets forth the following, specific prohibition applying this
general standard:

      An employee shall not use or permit the use of his Government
      position or title ... in a manner intended to coerce or induce
      another person, including a subordinate, to provide any benefit,
      financial or otherwise, to himself or to friends, relatives, or
      persons with whom the employee is affiliated in a
      nongovernmental capacity. 5 C.F.R. § 2635.702(a).



                                     46 

       Evidence showed that Gamble and Cabell-Edelen were long-time
friends during Cabell-Edelen's effort to secure the FASS Liaison position for
her daughter. Cabell-Edelen told us that she and Gamble had known each
other for approximately 15 years, and Gamble described their relationship
as "close." HR Director Markham similarly described the friendship between
Gamble and Cabell-Edelen as "very tight."

       The evidence further establishes that Gamble used her government
position for the private gain of Cabell-Edelen on two occasions. The first
occurred on January 13, 2009, when Gamble instructed an HR Specialist to
widen the vacancy announcement for the FASS Liaison position to "include
Reinstatement Eligibles under the WHO MAY APPLY section." This occurred
immediately after - and, the evidence suggests, in coordination with ­
Cabell-Edelen's identical instruction to the HR Specialist. The change made
it possible for Cabell-Edelen's reinstatement eligible daughter to apply for
the FASS Liaison position, a job her mother wanted her to have. 33

       The second occasion on which Gamble used her government position
for Cabell-Edelen's private gain took place the following month, after Cabell­
Edelen's daughter had applied to the recently broadened announcement.
As explained above, on February 10,2009, the HR Specialist rated the
daughter's Avue application "not qualified" for the FASS Liaison position,
based on her lack of relevant experience. At this point, according to the HR
Specialist, Gamble called the HR Specialist into her office and instructed her
to change the rating to "qualified" and to create an amended certificate of
eligibles that included the daughter's name. The HR Specialist did as
ordered, but memorialized Gamble's intervention, which the HR Specialist
characterized as unprecedented in her career, in Avue's database.

      We concluded that Gamble's conduct obtained for Cabell-Edelen an
improper "benefit, financial or otherwise." Twice in early 2009, Gamble
helped to advance Cabell-Edelen's objective of installing her daughter in the
FASS Liaison position. As noted above, Gamble's manipulation of the
competitive hiring process was not inspired by any belief that Cabell­
Edelen's daughter was a good candidate for the position. 34 We concluded

        33 Twenty-four minutes after Gamble e-mailed the HR Specialist, Cabell-Edelen e­
mailed her daughter, stating, "The vacancy announcement has been changed to include
reinstatement candidates. Avue is not working well today so you may want to try later or
tomorrow."
         34 Even if Gamble believed that the daughter's qualifications were comparable to
those of the other candidates, it would not be a defense to a Section 702 violation. In that
case , given Gamble's close relationship with Cabell-Edelen, Gamble should have disclosed
the relationship and sought authorization to participate further in the hiring process.
Section 502 of the Standards of Ethical Conduct directs employees to seek the approval of
the agency designee where an act benefiting a friend, relative, or person with whom he is
affiliated in a nongovernmental capacity might give rise to an appearance of using his office
                                                                                     (Cont'd.)

                                             47
that Gamble's intervention on the daughter's behalf was explainable only as
a personal favor to her friend and supervisor. 3 5

        We therefore concluded that Gamble used her public office for Cabell­
Edelen's private gain when she "coerce[d] or induce[d]" the HR Specialist
first, to expand the FASS Liaison position announcement's Area of
Consideration and later, to revive the daughter's rejected application. This
was an abuse of Gamble's position and violated Section 702 of the
Standards of Ethical Conduct.

               3.      False or Misleading Statements to the OIG

      We concluded that LaTonya Gamble made false or misleading
statements under oath when asked by the OIG about her involvement in
Cabell-Edelen's daughter's attempt to be hired as FASS Liaison. She stated
that she did not ever have any exchanges with Cabell-Edelen regarding how
broadly or narrowly to advertise for the FAS'S Liaison position. She stated
that she had no knowledge of the breadth of the first announcement's Area
of Consideration (identifying "Who May Apply") or the subsequent effort to
widen it to include reinstatement eligible candidates. She stated that she
has never instructed anyone to change a candidate's qualification rating and
place the candidate's name on a certificate of eligibles. She furthermore
stated that it was not even possible that she could have involved herself in
the application process in this manner.

      The statements of the HR Specialist, coupled with our subsequent
review of contemporaneous e-mail and Avue records, contradicted Gamble 's
statements. First, the evidence shows that Gamble sent the HR Specialist
an e-mail on January 13, 2009, instructing her to change the FASS Liaison
position vacancy announcement to "include Reinstatement Eligibles under

for private gain or giving preferential treatment . See 5 C .F.R. § 2635 .502 . Gamble neither
sought nor received any such approval.
        35 We considered the possibility that Gamble intervened on Cabell-Edelen's
daughter's behalf because that was what her boss , Cabell-Edelen, wanted and that Gamble
therefore felt pressured to provide assistance. Had Gamble offered this explanation to the
OIG - indicating that Cabell-Edelen specifically asked her (or that Gamble's subordinate
role otherwise impelled her) to assist Cabell-Edelen's daughter - the existence of their
boss / subordinate relationship would have mitigated the severity of Gamble 's conduct.
Gamble, however, did not offer such a defense; instead , she denied any involvement in the
daughter's application process. Moreover, even had she told the OIG that she felt
pressured to assist her supervisor, we would be reluctant to credit fully such a claim.
There is at least some evidence that Gamble's assistance to Cabell-Edelen was less an
example of a subordinate following orders than a matter of two friends trading favors: As
discussed below in Part VI.A.3 , less than three months after Gamble assisted Cabell­
Edelen's daughter's effort to be hired as FASS Liaison, Cabell-Edelen helped Gamble 's
daughter to obtain a paid, HR clerkship.


                                              48
the WHO MAY APPLY section."36 Twenty-four minutes after Gamble's e­
mail, Cabell-Edelen informed her daughter, "The vacancy announcement
has been changed to include reinstatement candidates. Avue is not working
well today so you may want to try later or tomorrow."

       After the HR Specialist rated Cabell-Edelen's daughter's application
"not qualified" for the FASS Liaison position, Gamble instructed her to
change the rating to "qualified" and to place Cabell-Edelen's daughter's
name on an amended certificate of eligibles. Avue records corroborated this
account, revealing two entries that the HR Specialist had made during the
events in question: one stating that Cabell-Edelen's daughter "[d]oes not
meet the one year specialized experience at the next lower level as required
by OPM"; and the other stating, "Basic [qualifications] overridden for [the
daughter] (Reason: Requested by LaTonya Gamble to change this rating to
qualified.)" Gamble was unable to provide any explanation for the HR
Specialist's statements or the Avue entries.

      We therefore concluded that LaTonya Gamble made false or
misleading statements under oath to the OIG. 37

              4.      Conclusions Regarding Gamble

      We concluded that LaTonya Gamble violated 5 U.S .C. § 2302(b)(6) and
that she failed to adhere to the Standards of Ethical Conduct. We believe
that Gamble also made false or misleading statements under oath to the
OIG.

     We are referring our findings concerning Gamble to JMD for its review
and appropriate disciplinary action.


IV.    Facts and Analysis Pertaining to Clay and McEachron

      In this Part of the report we address allegations relating to the hiring
of FASS Deputy Director Michael Clay's daughter into JMD by Jeanarta
McEachron, and the related efforts of Clay to find positions for McEachron's
brother.



       36 As noted , Gamble 's speculation about possible reasons for changing the Area of
Consideration to include reinstatement eligible candidates was not supported by any
evidence. We concluded that Gamble ordered the change to benefit Cabell-Edelen's
daughter, and then told the OIG she had no involvement in the matter.




                                            49
      A.       Factual Findings

               1.     Hiring of FASS Deputy Director Michael Clay's
                      Daughter.

       The daughter of FASS Deputy Director Michael Clay was hired in
November 2009 by Jeanarta McEachron, who at the time was an HR
Assistant Director, into HR Policy & Advisory Services as a part-time GS-
5/13 HR Specialist under the Federal Career Intern Program (FCIP).38 Prior
to her appointment in HR, Clay's daughter attended college and received a
Computer Information Systems degree in May 2009. This aspect of the
investigation originated, in part, with anonymous allegations that Cabell­
Edelen "made a job and hired" Clay's daughter. After determining that it
was McEachron, and not Cabell-Edelen, who hired Clay's daughter, we
interviewed McEachron at the Department of Homeland Security (DHS),
where she has worked since leaving the DOJ in November 2009.

        McEachron told the OIG that she knew Clay from the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF), where they were once
colleagues, but that she "didn't know [the daughter] from Adam." Both
McEachron and Clay described their relationship to the OIG as strictly
professional and not a friendship. They had never worked in the same
office, had never socialized and, before Clay contacted McEachron on his
daughter's behalf, they had had very little contact during their ATF and
JMD tenures.

      McEachron stated that Michael Clay contacted her about
opportunities for his daughter in 2009, shortly after the daughter graduated
from college. According to McEachron, Clay informed her that his daughter
had just graduated and needed a job. McEachron told us that Clay wanted
to know "if I had anything, you know, if I could help her out." McEachron
stated that Clay asked "if there was anything in HR that was available."

       McEachron told us that she hired Clay's daughter after a "panel"
interviewed her, explaining that, "with me receiving her resume from her
dad - I did not want to just make that arbitrary decision to select this
person without the experts on my staff who she would be working with
conducting the interview." She said she could not recall the members of the
panel, or whether she personally interviewed Clay's daughter prior to hiring
her. She stated, however, that, "for an FCIP position, if the person has a
college degree, then that's enough to qualify them."




      38   Clay's daughter became a full-time FCIP appointment in December 2010.



                                           50
       Michael Clay's description of how his daughter came to be hired was
similar to McEachron's account. He told us that he knew McEachron from
the ATF and contacted her about his daughter's recent graduation and need
for a job. Clay told us that he asked McEachron about "opportunities" for
his daughter. According to Clay, McEachron told him that she had no full­
time positions to offer, but that a part-time FCIP position was available, if
his daughter was interested. Clay told McEachron that his daughter would
likely be interested in that job. Clay told us that after two interviews,
McEachron hired his daughter.

       Contemporaneous e-mails, as well as the accounts of other witnesses,
however, suggest a more complicated set of circumstances led to the hiring
of Clay's daughter. Specifically, the evidence shows a connection between
McEachron's appointment of Clay's daughter in HR and Michael Clay's
efforts to find employment for McEachron's brother within the Department.

      Our investigation revealed that the following sequence of events
occurred, beginning in August 2009.

       E-mails show Clay in contact with his daughter regarding her effort to
obtain federal employment and specifically, his daughter performing job
searches on USAJOBS.gov and e-mailing the results of the searches to her
father. E-mails also show that, on or before August 14, 2009, Clay asked a
colleague to provide him with McEachron's telephone number. McEachron
stated that this e-mail likely coincided with Clay contacting her regarding
his daughter. "That was probably the only time that he reached out to me
at the time that I was at DOJ," McEachron added. On September 18,2009,
Clay's daughter e-mailed her resume to her father. McEachron told us she
thought she got the daughter's resume from the father, but that the father
may have instructed his daughter to e-mail it directly to McEachron. Clay
told us his daughter sent the resume to McEachron.

      McEachron then began asking Clay for help in hiring her relatives.
On September 18, 2009, McEachron e-mailed Clay, "As discussed, attached
is my daughter['s] resume. Thanks and have a wonderful weekend!"
(Emphasis added.)

       Less than a month later, on October 8,2009, LaTonya Gamble e­
mailed Clay the resume of McEachron's brother stating, "Resume as
requested. I left you a voicemail, when you get a moment, please give me a
call [phone number]. Thanks." Twenty minutes later, Claye-mailed
McEachron's brother's resume to one of his Deputy Assistant Directors
stating, "Would you float this resume for me to some of your business
partners and see if there is any interest?" Clay's Deputy Assistant Director
e-mailed the resume to "the managers that run FBI's printing operation,"
recommending McEachron's brother for a position, and then forwarded to

                                     51 

Clay the FBI's promising response. Clay likewise forwarded the e-mail chain
to McEachron, stating in a "High Importance" e-mail, "Looks like a potential
hit. Please alert your brother to expect a call." McEachron replied, "Will do.
Thanks much. I'm waiting on the go-ahead from Rod [Markham] regarding
[your daughter]." Subsequent e-mails show that Clay's Deputy Assistant
Director continued to lobby the FBI on McEachron's brother's behalf and
provide Clay with relevant updates: in an October 20, 2009, e-mail to Clay,
his Deputy Assistant Director recounted a conversation he had had with the
FBI about McEachron's brother's candidacy and promised to "continue to
follow up with them and keep you abreast of what happens"; in an October
23, 2009, e-mail to Clay, his Deputy Assistant Director described another
promising conversation he had just had with the FBI; and in a November
12,2009, e-mail to the FBI, Clay's Deputy Assistant Director wrote, "Have
you had a chance to meet [McEachron's brother], whose resume I sent you?
If so - how did it go? If not, do you plan to, and is it on the schedule?" Clay
forwarded these e-mail chains, as well, to McEachron. We found no
evidence that Clay's efforts on behalf of McEachron's brother resulted in his
being hired.

      In November, Clay's daughter was hired by McEachron as a GS-5j 13
HR Specialist. On November 20, 2009, McEachron informed Clay that she
was "glad [his daughter] has the job."

       E-mails show McEachron continued to press Clay to assist her
brother, stating on December 30, "[Your daughter] seems to be doing fine ...
. My brother still has not heard anything yet.... [P]lease don't forget about
him. He desperately needs a job." Clay replied to this message, stating, "I
will follow-up on the job and I have another potential. . . . I appreciate all
you did for me." Clay told us that this statement of appreciation referred to
McEachron's appointment of his daughter. Similarly, McEachron ascribed
Clay's gratitude to McEachron's having hired his daughter, stating, "That
would just be in hiring his daughter, because that's the only thing I've ever
done [for him]."

       When asked about Clay's assistance on her brother's behalf and
shown the above-described e-mails, McEachron told the OIG that she spoke
to Clay about her brother. She stated, "I had asked Mike [Clay] ... because
I knew they have wage-grade jobs in some of the work that he does." She
stated that she asked Clay to let her know "if he came across anything that
might be something that would lead [her] brother to a job." McEachron
stated that Clay identified to her the FBI prospect, but also "mentioned to
[her] a couple of contractors, so it wasn't about [Clay] getting him a job
within JMD." Regarding whether the parallel efforts were related, she said,
"One didn't have anything to do with the other. I didn't tell him 'If you get
my brother a job, I'm going to get your daughter a job.' It wasn't that kind


                                      52 

of thing." Clay similarly told the OIG, "If you're looking for a quid pro quo,
there isn't one."

      When asked about her daughter, McEachron said that she had asked
Clay about finding a job for her. She stated, "She is very qualified. I talked
to him about it. I talked to several people about it, because I know, with the
FCIP program, you can just bring a person in." We found no evidence that
Clay ever identified or attempted to identify any specific opportunities for
McEachron's daughter, however, and no evidence that the daughter was
ever hired into DOJ.

      Michael Clay repeatedly stated that he had no recollection of having
helped McEachron's brother to find a job. Eventually, Clay stated that he
was "some relative of J eanarta's" and that he had asked one of his assistant
directors to assist in the effort to find McEachron's brother a job.

       Both Clay and McEachron volunteered opinions about the hiring of
relatives, generally. Clay stated, "Resume shopping has been around for
years .... People bring their kids' [resumes] and help them get jobs all over
the federal government and in private industry." Similarly, McEachron told
the OIG that "quite a few people have hired folks' relatives around DOJ. It's
not any secret that it happens. There is no rule against it. It's not a
violation if they are not working in the same chain of command." When
shown that the nepotism statute's prohibition on advocacy is not confined
to actions taken within an official's chain of command, McEachron stated,
"[T]here is a lot of nepotism in the government, so I guess it's one of those
things that's not necessarily - I won't say that it's overlooked - but it's
certainly not upheld."

      B. 	   Analysis of the Conduct of Michael Clay

       We concluded that FASS Deputy Director (GS-15) Michael Clay's
involvement in his daughter's successful effort to obtain a position in JMD
violated multiple statutes and regulations.

             1. 	   Use of Public Office for Private Gain - 5 C.F.R. §
                    2635.702
      We concluded that Clay violated Section 702 of the Standards of
Ethical Conduct, 5 C.F.R. § 2635.702, which states that "[a]n employee
shall not use his public office ... for the private gain of friends, relatives, or
persons with whom the employee is affiliated in a nongovernmental
capacity." Section 702 also sets forth specific prohibitions applying this
general standard, including a rule against using one's position or title to




                                        53 

"coerce or induce" another person to provide a benefit to a relative. 39 Clay
first provided this benefit when he initially referred his daughter to
McEachron and solicited her assistance in finding his daughter a job. He
compounded the violation by signaling his willingness to provide a similar
favor for McEachron 's brother, thereby providing additional inducement for
her to follow through on his daughter's appointment.

       Clay used his public office for his daughter's private gain when he
intentionally brought his daughter to McEachron's attention, provided her
with a resume, told her his daughter needed a job (preferably one in
McEachron's office), asked for her help , and suggested that a part-time FCIP
position would suit his daughter's needs. 4 0 Given that Clay's relationship
with McEachron was strictly professional, the only reason McEachron would
have had.to take Clay's call or consider his request for help was that Clay
held an influential position in FASS. Put another way, had a similar request
come from a complete stranger rather than a high official, it is unlikely that
McEachron would have made the same effort. In contacting McEachron
about his daughter, Clay was using his public office as the basis for his
request. Clay's conduct provided his daughter with a "private gain," an
unfair advantage in the hiring process , and thus was an abuse of his
position.

        In addition to violating Section 702's general prohibition, Clay's
conduct violated Section 702(a), one of the four "specific prohibitions" listed
in the regulation. Section 702(a) specifically prohibits the use of a public
office "in a manner intended to coerce or induce another person, including a
subordinate , to provide any benefit, financial or otherwise, to himself or to
friends, relatives, or persons with whom the employee is affiliated in a
nongovernmental capacity." 5 C.F.R. § 2635.702(a). As described above,
Clay used his public office to provide his daughter a "benefit" when he
brought his daughter's need for a job to McEachron's attention. Then, as
the following facts suggest, Clay further induced McEachron's assistance in
getting his daughter a job when he returned McEachron's favor by
identifying job opportunities for McEachron's brother.


       39 Merriam-Webster's Collegiate Dictionary defines "induce" as "to move by
persuasion or influence ."
        40 We also considered whether Clay's communications with McEachron constituted
"advocating" for his daughter's employment in violation of the federal nepotism statute .
While it appears that Clay's intention was to convey to McEachron his desire that she find a
position for his daughter, it is not sufficiently clear from the evidence that Clay
recommended or endorsed his daughter or urged McEachron to take action on her behalf.
Although we believe a violation of 5 U.S.C . §§ 3110(b) and 2302(b)(7) could be supportable ,
we elected not to make such a finding on these facts , particularly in view of the stronger
support for our other misconduct findings against Clay.


                                             54
       Shortly after receiving Clay's request for help in finding his daughter a
job, McEachron asked for Clay's help in finding jobs for her daughter and
brother. Clay responded to McEachron's request by directing a subordinate
to help find a job for her brother. When Clay provided an update about his
efforts on behalf of McEachron's brother, McEachron responded with both
thanks and assurance that she was awaiting a "go ahead" to hire Clay's
daughter. McEachron then hired Clay's daughter into her own unit. Within
a few weeks she e-mailed Clay that his daughter was ."doing fine" and in the
same e-mail reminded him that her brother still "desperately needs a job."
Clay responded by promising he would continue to try to help her brother
and in the same e-mail thanked McEachron again for hiring his daughter.
In short, Clay and McEachron themselves linked their simultaneous efforts
to assist each other's relatives by discussing those efforts in the same e­
mails on several occasions. In order to show a Section 702 violation it is not
necessary to establish a mutual meeting of the minds or an explicit, quid pro
quo agreement, and we have not found conclusive evidence of such an
agreement in this case. Rather, we believe that the foregoing sequence of
events shows that Clay and McEachron simultaneously exchanged favors by
attempting to assist each other's relatives in obtaining DOJ employment.

      We therefore concluded that Clay violated Section 702 of the
Standards of Ethical Conduct when he provided or caused to be provided to
his daughter an improper gain or benefit.

            2. 	   Participation in a Matter Affecting the Financial
                   Interest of a Person in a Covered Relationship - 5
                   C.F.R. § 2635.502

      We also concluded, based on his soliciting employment for his
daughter from McEachron and securing her help by offering reciprocal
assistance, that Clay failed to adhere to his ethical responsibilities, as
articulated in Section 502 of the Standards of Ethical Conduct. Section 502
prohibits an employee's participation in a "particular matter" where he
knows that such matter is likely to affect the financial interest of "a person
with whom he has a covered relationship" and where he "determines that
the circumstances would cause a reasonable person with knowledge of the
relevant facts to question his impartiality in the matter."

      Clay clearly had a "covered relationship" with his daughter, who, in
addition to being his daughter, lived with him during the time of the
conduct in question. Moreover, this particular matter - the decision
whether to recruit and select Clay's daughter - obviously was likely to have
a direct and predictable effect on her financial interest.

      The evidence described above also shows that Clay "participated" in
this matter and likely did so "personally and substantially." The Code of

                                      55 

Federal Regulations state, in part, that "[t]o participate personally means to
participate directly." 5 C.F.R. § 2635 .402(B)(4). Clay intervened on his
daughter's behalf "directly," therefore "personally."

       The Code of Federal Regulations also state, "To participate
substantially means that the employee's involvement is of significance to the
matter"; it was "substantial even though it [was] not determinative of the
outcome." 5 C.F.R. § 2635.402(b)(4). It cannot be disputed that Clay's
intervention with McEachron was "of significance" to the selection of his
daughter for employment in HR; Clay not only involved himself in the
recruitment and selection of his daughter for a federal position, it was he
who initiated the process and, by promising to assist McEachron's brother,
helped to sustain its momentum. "A finding of substantiality should be
based not only on the effort devoted to a matter, but also on the importance
of the effort." 5 C.F .R. § 2635.402(B)(4). As described above, Clay sought
McEachron out specifically to solicit her assistance in finding an HR
position for his daughter. He provided McEachron with his daughter's
resume, conveyed to her his daughter's need for a job and her willingness to
accept a part-time, FCIP appointment. Most significantly, he undertook a
considerable, albeit unsuccessful, effort to reciprocate by finding
employment for McEachron's brother - a fact that likely influenced
McEachron's personal investment in Clay's daughter's application.

       Clay therefore played a "personal and substantial," if not pivotal, role
in his daughter's attempt to secure a DOJ appointment.41 These
circumstances would cause any reasonable person to question Clay's
impartiality toward his daughter. Under Section 502, Clay therefore should
have obtained authorization from the agency designee before participating in
the matter. 42 The OIG confirmed that Clay neither sought nor received
authorization, a fact we find particularly troubling given his thorough
awareness of prior hiring abuses in FASS.




       4 1 As discussed above in connection with Hamilton, we do not believe that Clay
escapes the requirements of Section 502 because he was not the formal decision maker in
the appointment of his daughter. Senior employees frequently share opinions and
recommendations with fellow agency employees on hiring decisions and we believe that
when they do so they are acting within their official duties. The only reason Clay had to
expect McEachron to respond to his inquiries was that he held a senior position in the
same agency. Having relied on his official position to get consideration, he should not be
permitted to claim that he was not acting in an official capacity for purposes of Section 502 .
       4 2 We are confident that the agency designee would have found it impossible to
approve virtually any of the misconduct discussed in this report - including the favor
trading exhibited by Clay and McEachron - had such conduct been fully disclosed to him.


                                              56 

               3.     Conclusions Regarding Clay

     We concluded that FASS Deputy Director Michael Clay violated the
Standards of Ethical Conduct in connection with his involvement in his
daughter's JMD appointment.

      We are not aware of mitigating circumstances for Clay's conduct. As
described above, Clay was well aware of the history of nepotism-related
abuses in FASS when he transferred to JMD from ATF in July 2009. He
told us that when he was hired, he and Hamilton specifically discussed
nepotism and the misconduct of Hamilton's two predecessors . He has
received ethics training about nepotism, conflicts of interest, and other
hiring abuses.

      He sought no advice from an agency ethics official regarding the
propriety of his efforts to obtain JMD employment for his daughter or his
reciprocation of McEachron's actions by attempting to find employment for
her brother. Such an inquiry, he knew or should have known, would have
resulted in advice that he refrain from inducing others in JMD to secure
employment for his daughter, and that he take no action to advance the
DOJ employment prospects of McEachron's relatives.

     We are referring our findings concerning Clay to JMD for its review
and appropriate disciplinary action. 43

       C.      Analysis of the Conduct of Jeanarta McEachron

     We concluded that HR Assistant Director (GS-15) Jeanarta
McEachron's conduct violated multiple statutes and regulations.
McEachron's conduct was in substantial part the mirror image of Clay's
conduct.




        43 After reviewing those portions of this report pertaining to his own conduct, Clay
provided a written response to the OIG. Clay's comments primarily addressed what he
perceived to be the scope of the federal anti-nepotism prohibition. He stated that he "was
told on numerous occasions that the only stipulation was you could not hire a relative to
work directly for you ." He also wrote that the current OIG investigation bore "no
resemblance [to] what occurred in FASS in the past," where employees "either hired or
directed the hiring of individuals that were their relatives. " As described throughout this
report, the federal nepotism statute by its plain language prohibits both hiring and
advocating for the hiring of a relative to any position in the same agency, not just to
positions within one 's chain of command. When asked to provide approximate dates, as
well as the names of Department officials who on "numerous occasions" described this
"only stipulation" to him, Clay was unable to do so.


                                             57 

               1.     Nepotism - 5 U .s.c. §§ 3110(b) and 2302 (b)(7)

      We concluded that McEachron violated the federal nepotism statute, 5
U.S.C. § 3110(b), by advocating for the appointment of her brother. 44 The
nepotism statute prohibits a public official with hiring authority from
employing or advocating for the employment of his "relative" to a civilian
position in the official's agency. An Assistant Director in HR's Policy and
Advisory Services, McEachron was at the time a public official with hiring
authority. McEachron's brother met the statutory definition of a "relative."

       The evidence shows that McEachron engaged in prohibited
"advocacy" when she spoke in favor of, recommended, endorsed, or
otherwise supported her brother's appointment to a civilian position in the
DOJ. When questioned about her brother, McEachron stated that she had
asked Clay to help him to find a government position. She said she asked
Clay for help because FASS has "wage-grade jobs in some of the work that
[her brother] does." E-mails show McEachron repeatedly urged Clay to take
action on her brother's behalf. E-mails to Clay state, on December 30,
2009, "If you have any other leads, please don't forget about him. He
desperately needs a job"; on January 11, 2010, "[Th]anks for anything you
can do for [my brother], even if it's driving or laborer"; and on January 28,
2010, "Just touching base with you to see if anything has developed on the
job front."

      We therefore concluded that McEachron violated the nepotism statute
when she advocated for her brother's appointment to a civilian position in
the DOJ. The same conduct also constituted a Prohibited Personnel
Practice in violation of 5 U.S.C. § 2302(b)(7).

               2. 	   Use of Public Office for Private Gain - 5 C.F.R. §
                      2635.702

      We concluded that McEachron violated Section 702 of the Standards
of Ethical Conduct, 5 C.F.R. § 2635.702, which prohibits an employee from
using his public office for his friends' or relatives' private gain. Section
702(a) also specifically prohibits the use of a public office "in a manner
intended to coerce or induce another person, including a subordinate, to
provide any benefit, financial or otherwise" to friends or relatives.

       We concluded that McEachron used her public office to provide a
favor to Clay - in the form of hiring his daughter - and simultaneously

        44 Given the strength of the evidence that McEachron advocated for her brother's
appointment, we focused our nepotism analysis on her advocacy on his behalf, rather than
her actions taken on her daughter's behalf, for which there was relatively little, conclusive
evidence.



                                             58
sought a return of the favor in the form of assistance from Clay in finding
employment opportunities for her brother and daughter. The natural
inference to be drawn from the sequence of events in Part IV.A above is that
Clay and McEachron exchanged favors whereby each attempted to assist
the other's relative in securing federal employment. 45 The statement of one
HR Specialist we interviewed also indicated that, at least for McEachron, the
appointment of Clay's daughter was linked to her own relatives' job
searches. According to this HR Specialist, McEachron told her, "Someone I
know from ATF is going to get my daughter a job, and his daughter is
coming here."

       We therefore concluded that McEachron violated Section 702 of the
Standards of Ethical Conduct when she used her public office in a manner
intended to "induce" Clay to provide a "benefit, financial or otherwise," to
her relatives. McEachron's appointment of Clay'S daughter left Clay in
McEachron's debt, a debt to which she repeatedly alluded as she urged Clay
not to "forget" about her brother. This favor-trading was an abuse of
McEachron's position. 4 6

               3.     Conclusions Regarding McEachron
      We concluded that Jeanarta McEachron violated the nepotism
statute, committed a Prohibited Personnel Practice, and violated the
Standards of Ethical Conduct in connection with her effort to obtain
employment for her relatives. She sought no advice from an ethics official
regarding her efforts to obtain DOJ employment for her relatives.

      Although McEachron's misconduct described in this report occurred
while she was a Department of Justice employee, she now works at DHS.
Accordingly, we have referred our findings relating to McEachron to the
DHS OIG. We recommend DOJ consider the findings in this report should
McEachron apply in the future for another position with DOJ.



        45 As stated above, we recognize that in order to show Section 702 violation it is not
necessary to establish a mutual meeting of the minds or an explicit , quid pro quo
agreement, and we have not found one here. What is relevant here is McEachron 's
subjective state of mind , and the evidence shows that it was McEachron's understanding
and expectation that her appointment of Clay's daughter would encourage Clay to assist in
finding jobs for her brother and daughter.
        46 We also considered whether McEachron 's efforts on behalf of her relatives
triggered any responsibilities under Section 502 of the Standards of Ethical Conduct. We
concluded that potential employment of McEachron's relatives never ripened into a
"particular matter" within the meaning of Section 502 because there is no evidence that
McEachron's relatives were ever considered for a specific DOJ position in connection with
her efforts .


                                             59
v.    Facts and Analysis Pertaining to Horkan and Morgan

      In this Part of the report we set forth the facts relating to the alleged
misconduct of Nancy Horkan, Senior Advisor to Deputy Assistant Attorney
General for Human Resources and Administration (DAAG-HRA) Mari Barr
Santangelo, and JMD Finance Staff Director Melinda Morgan. The
allegations relating to these JMD employees arose out of two incidents: the
hiring of Horkan's son by Morgan, and the hiring of Horkan's niece by an
HR Assistant Director.

      A.    Factual Findings

      Nancy Horkan came to work in the DOJ in March 2005 after spending
most of her career at the Department of Transportation. Since joining DOJ,
she has served as Senior Advisor to Mari Barr Santangelo, whom she has
known since 2000 . The anonymous allegations the OIG received in June
2011 included claims that Horkan's son and niece were improperly hired in
JMD .

       Horkan told us that she had read the OIG's 2008 Report, and e-mails
show that Santangelo requested her assistance in developing JMD's
response. She stated that she was familiar with the nepotism statute. She
also described the "HR and Ethics Office" training that took place in the
aftermath of the OIG 's 2008 Report, noting that it addressed "hiring
practices ... merit system principles , and prohibited personnel practices ."
She stated that she attended these training sessions and that "the training
did go into advocating for a relative ... or any preferential treatment. "
Regarding the training on "advocating for a relative ," she stated, "I can't
recall the exact words. I guess in my mind it was encouraging someone to
hire a relative or saying, 'Please hire this person. He really needs a job. '"
She stated that the training established that this kind of conduct "was
something you shouldn't do."

       With respect to the nepotism prohibition, Horkan told the OIG that
she would tell a JMD colleague looking for a job in JMD for his son or
daughter to "look at the vacancy announcements." When asked why
speaking in favor of, recommending, endorsing, or otherwise supporting the
appointment of relatives to DOJ positions was not proper, Horkan stated
that such conduct risked "giving unfair advantage to a relative." Horkan
also told us she understood that FCIP appointments are not exempt from
Merit System Principles or the prohibitions articulated in the nepotism
statute and the Prohibited Personnel Practices.

            1.     The Hiring of Horkan's Son

      Beginning in the summer of 2008, Nancy Horkan sought the
assistance of several officials in the Department of Justice in finding
                                      60
employment for her son, including HR Director Rodney Markham, JMD
Finance Staff Director Melinda B. Morgan, OJP's Chief Financial Officer
(CFO), a JMD Budget Analyst, and a contractor working in HR.

       Contemporaneous e-mails demonstrate the nature and extent of
Horkan's efforts. On August 13, 2008, Horkan e-mailed her son's resume to
Markham, thanking him for his help and stating, "I'll keep praying."47 Also
on August 13,2008, Horkan e-mailed her son's resume to Morgan, stating,
"As a follow-up to our conversation the other day, I am forwarding you my
son Michael's resume. Any advice or leads you have would be very much
appreciated. He is a good worker and would be an asset to any organization,
but of course I am a little biased. Thanks so much for your help."
(Emphasis added.) Notably, Horkan's relationship with most if not all of
these individuals was professional, not personal. For example, Morgan told
us that she "didn't know [Horkan] from Adam" when Horkan first contacted
her about her son.

       On August 15,2008, Markham e-mailed the son's resume to the
Director of the Civil Division's Office of Administration, stating, in part, "See
if you have anything for [him]. THANKS!!" Later that day, Horkan told the
Director of the Civil Division's Office of Administration in an e-mail that her
son's previous job "fell through" and that "it would be great if [she had]
anything." Markham also forwarded the son's resume to Morgan and JMD's
Budget Staff Director. On August 18, Horkan e-mailed the resume to an HR
Assistant Director, writing nothing in the message body. On August 21,
Horkan e-mailed her son's resume to OJP's CFO, stating, in part, "Thanks
so much for taking a look at my son's resume. If he doesn't find anything
soon, he may apply for graduate school. It's not the best time to be job
hunting.... I do think OJP would be an interesting place to work so I will
keep my fingers crossed." Later that day, Horkan e-mailed both an HR
contractor and a JMD Budget Analyst on her son's behalf, sharing his
resume and seeking their assistance in identifying job opportunities among
federal contractors.

       Regarding whether she recommended her son to these officials,
Horkan stated, "I'm sure I must have. I wouldn't have handed the resume if
I didn't think he'd be a good employee. So I'm sure I said he's a good kid,
he's very reliable, dependable.... He's looking for a job, he'd like to work
for the federal government, and he majored in finance." Horkan's

       47 After reviewing a draft of this report, Horkan stated that she sent her son's
resume to Markham at Markham's request and that she did not solicit his help in the job
search. She also stated that, after discussing her son with OJP's CFO and the JMD Budget
Analyst, these two officials asked Horkan to send them her son's resume.




                                          61 

recollection was consistent with her e-mail to Morgan, quoted above,
describing her son as a "good worker," who would be an "asset to any
organization." However, Horkan also said "I didn't see it as advocating for
him by sending a resume." She stated, "I was not advocating that he be
hired; I was advocating that he be considered." She also told the OIG that
she told Morgan "I don't want any preferential treatment."

       Horkan told the OIG that shortly after she began sending her son's
resume to others in JMD, she asked the advice of HR Director Rodney
Markham. 48 She stated, "I don't think I did it before [the resume was sent].
I think when it was happening I was thinking, 'Am I doing something
wrong?'" According to Horkan, Markham told her that it was permissible
under the FCIP to give her relatives' resumes to DOJ hiring managers.49

      JMD Finance Staff Director Melinda B. Morgan was the JMD official
who ultimately assisted Horkan in finding employment for her son. Morgan
said that Horkan gave her a copy of her son's resume and told her that he
was graduating with a finance major. Morgan then began exploring how he
could be hired onto JMD's Finance Staff. On September 11,2008, Morgan
sent a "High Importance" e-mail to an HR Specialist, with copies to the
Finance Staff Deputy Director, and a Supervisory Management Analyst,
attaching Horkan's son's resume and asking: "Can you please review this
person's qualifications and see if he would qualify for a GS-S or GS-7 in the
GS-S2S or GS-SOI series? Also, could we try to use the Federal Career
Intern appointing authority?"

       Morgan told the OIG that most of the available vacancies on the
Finance Staff at that time were at the GS-ll and GS-12 level, but that they
had not been getting qualified applicants for these positions. As a recent
graduate, Horkan's son was not qualified to be appointed to the GS-ll or
GS-12 positions. Morgan told us that use of the FCIP authority to fill a
vacancy would enable the Finance Staff to hire someone at the GS-S or GS-
7 level.



        48 We shared a draft of this report with Horkan, who provided the following
clarification: Her decision to ask Markham about the propriety of sharing resumes was
prompted by her reading the ~IG's 2008 report (released on August 15 , two days after she
sent her son's resume to Morgan) and thinking about the issues raised in it.
       4 9 We interviewed Markham before Horkan, and by the time Horkan told us about
her conversation with Markham, Markham had left the Department. For purposes of our
analysis, we accepted Horkan's account of this conversation. Horkan stated that she asked
Markham this question with regard to her son but did not revisit the issue with him with
respect to her niece 's appointment, assuming that, since her niece's appointment fell under
the same FCIP authority as her son's , the same general rule applied.


                                            62
      Morgan sent Horkan a copy of her e-mail to the HR Specialist, stating,
"Just wanted to let you know. We have several vacancies that we can
restructure ... so let me see what [the HR Specialist] says and I will be
back in touch with you!" Horkan replied, "111 keep my fingers crossed.
Thanks so much." (Ellipsis in original.)

       Morgan told the OIG that her statement about "restructuring" referred
to changing an existing vacancy announcement from the GS-11 or GS-12
level to the GS-S or GS-7 level so that it could be filled under the FCIP. She
said, "My intent, I believe, in [proposing the restructuring] was: we don't
have current positions at this particular grade level right now."

       Morgan stated that her interest in restructuring available positions to
lower grades was not done "necessarily in order to hire [Horkan's son]." She
told the OIG that the "intent" behind the "restructuring" was not to
accommodate Horkan's son or to facilitate his appointment, although she
conceded it could be taken that way.

         On September 12, the HR Specialist replied to Morgan, stating that
based on his resume Horkan's son could only be qualified as a GS-S. The
HR Specialist requested a copy of the son's transcript to see if he could
qualify as a GS-7. Morgan forwarded this request to Nancy Horkan, adding
"we are looking at our vacancies here to see what is possible, will let you
know." Horkan told Morgan her son would provide the transcript, and
Morgan replied, "Great, pIs let me know when [the HR Specialist] has it and
I [will] follow-up."

       E-mails during September and October between the HR Specialist and
the Supervisory Management Analyst working for Morgan in Finance reveal
an ongoing effort to create a Position Description for a Finance Staff job for
which Horkan 's son would qualify. Later, in an October 20, 2008, e-mail,
the Supervisory Management Analyst suggested to Morgan a strategy to
head off possible perceptions of favoritism: "If you think we have another
slot, we can ensure that the rest of the staff sees this as fair by also opening
up another position and soliciting the staff for any young, qualified people
they may think could fit the FCIP requirements for our staff. That would
ensure this doesn't come across as favoritism."

      Morgan told the OIG that she sensed that "it could be perceived that I
was leaning over backwards to help [Horkan's son]." She said that she
consulted JMD's Ethics Office Director Janice Rodgers on November 10,
2008, in order to confirm that "it wouldn't be perceived that [she] was giving
[Horkan's son] special consideration or special treatment." She stated that
she informed Rodgers that she had obtained Horkan's son's resume from
his mother, a JMD official who shared his last name but would not
supervise him. According to Morgan, Rodgers did not see any problem with

                                      63 

the Finance Staff pursuing the son's employment, given that if hired , he
would not "be working directly for his mother" and that Nancy Horkan was
"not forcing [Morgan] to hire him. "50 Morgan stated that this conversation
took place over the phone and that she did not memorialize it in writing. We
interviewed Rodgers, who confirmed Morgan's account of the conversation.
Neither Morgan nor Rodgers told us that their conversation included a
discussion of the fact that a position was being restructured in a way that
enabled Horkan's son to qualify for it. Rodgers told us that employees do
not come to her asking if it would be permissible to "restructure" vacancies
and positions in order to try to hire a particular person. She said that if
Morgan had told her about restructuring a position to enable Horkan's son
to qualify, it would have "set off alarm bells" and it would have affected the
advice she gave. She stated that such restructuring would likely violate
merit principles, and she would refer the person asking to HR or OGe .

     JMD ultimately created a vacancy that could be filled under the FCIP,
and Horkan's son was hired under the FCIP authority as a GS-5 Financial
Management Specialist on January 16,2009. This was a noncompetitive
appointment under FCIP.

       Horkan told the OIG that DAAG Santangelo likely learned of her son's
appointment after the selection was made. Horkan said she told Santangelo
that her son "was getting this job in Finance," but said she could not recall
whether she specifically informed Santangelo that Horkan had shared her
son's resume with Morgan. According to Horkan, she told Santangelo she
had made no recommendations on her son's behalf, since "[i]n my mind at
that time, 'advocating' was saying, 'Please hire him. He 's a great boy. '" She
stated that she never discussed with Santangelo the propriety of her alleged
involvement in her relatives' attempts to obtain employment in the
Department. Santangelo told us that she learned of Horkan's son's
appointment in Finance after he was hired and that Nancy Horkan told her
"she stayed out of it, she did nothing, did no recommendations."

              2.     The Hiring of Nancy Horkan's Niece

      An HR Assistant Director hired Nancy Horkan's niece as a Program
Specialist in HR's Programs and External Relations Section on October 25,
2009 . Horkan stated that she and the HR Assistant Director who hired her
daughter are friends. E-mails and witness statements show that on July
24,2009, Horkan sent her niece's resume to the HR Assistant Director. 51

       50 Horkan indeed had no formal authority or supervision over Morgan ; as the
Director of JMD 's Finance Staff, Morgan served under a different Deputy AAG than
Santangelo .
       5 1 Although Horkan was a senior advisor to the HR Assistant Director's boss
(Santangelo), she did not herself directly supervise the HR Assistant Director.


                                           64
According to Horkan, she informed him of their family relationship, she
described to him her niece 's skills , education, and background, and told
him her niece "was a good worker ... [and] would be a good employee."
Horkan told us that she told the HR Assistant Director that her niece
graduated from college, had a 3.0 GPA, and was working in an HR-related
field . Horkan told us that she cautioned the HR Assistant Director that she
"didn't want any unfair treatment."

       On August 31, 2009, the HR Assistant Director e-mailed Horkan,
asking, "Can we talk about [your niece] tomorrow?" Three days later,
Horkan e-mailed him again, stating, in part, "Heard u called [my niece] .
Wanted u to know that she tried calling back... . Hope she can connect
with u." In reply, the HR Assistant Director informed her of his plans to
interview the niece. He told the OIG that Horkan's niece was one of four
candidates he interviewed. After the September 9, 2009, interview, he e­
mailed Horkan, stating, in part, "I hope [your niece] works out .. . ," to
which Horkan replied, "You do what your gut tells u re the hire. I'll still love
u either way. " (Ellipsis in original.) The HR Assistant Director subsequently
selected Horkan's niece. 52

      Horkan stated that she does not know when or from whom
Santangelo and Markham learned of her niece's appointment.

       B.      Analysis of the Conduct of Nancy Horkan

      We concluded that Nancy Horkan's involvement in her son 's effort to
obtain a position in JMD violated multiple statutes and regulations.


        52 The HR Assistant Director told us that he selected Horkan 's niece based on her
background , education, attitude , and skills. He stated, "I can 't consider who 's giving me
the resume as a factor in the selection. That is illegal. " We d id not review the underlying
merits of all the hiring decisions brought to our attention . Given , however, that two of the
four candidates the HR Assistant Director inte rviewed were relatives of his HR colleagues
(Horkan 's niece and McEachron 's daughter) , we asked the HR Assistant Director to provide
to the OIG the four candidates ' resumes as well as any notes he recorded with respect to
their interviews specifically or candidacies generally. He stated that he did not retain any
resumes or notes and that he had been informed by HR that he "did not have to retain such
information on applicants after a selection is made. " We are therefore unable to determine
whether the HR Assistant Director granted these candidates an improper preference based
on their status as relatives. We believe that implementing the disclosure and pre-approval
requirements described in Part VIII.B .2 and the file-retention policy recommendation
described in Part VIII.B.3 of this report will bring much-needed transparency to the JMD
hiring process and help address this issue in the future . In any event, we recommend in
Part VIlLB of this report that JMD consider questioning the HR Assistant Director to
determine whether he granted these candidates an improper preference based on their
status as relatives.




                                             65
            1.    Nepotism - 5 U.S.C. §§ 3110(b) and 2302 (b)(7)

       We concluded that Nancy Horkan, the Senior Advisor to the DAAG­
HRA (GS-15), violated the federal nepotism statute, 5 U.S.C. § 3110(b), in
connection with the appointments of her son and her niece. The nepotism
statute prohibits a public official with hiring authority from employing or
advocating for the employment of her "relative" to a civilian position in the
official's agency. Horkan told the OIG that, during the time in question, she
was familiar with the nepotism statute and understood that it was
applicable to FCIP appointments.

      During the period in question, Horkan qualified as a "public official,"
as defined by the nepotism statute. As Senior Advisor to the DAAG-HRA,
Horkan clearly had the authority "to recommend individuals for
appointment, employment, promotion, or advancement in connection with
employment in" the Department. See 5 U.S.C. § 3110(a)(2). Similarly,
Horkan's son and niece each met the statutory definition of a "relative."

       We concluded that Horkan's communications with other officials in
JMD about her son and niece constituted "advocacy" for their employment.
Horkan specifically recommended her relatives for employment, promoting
their qualifications and abilities. She wrote in one e-mail that her son was
"a good worker" and stated that he "would be an asset to any organization."
She admitted that she told officials that her son was "a good kid, he's very
reliable, dependable. . .. He's looking for a job, he'd like to work for the
federal government, and he majored in finance." She told another official
her son needed a job and that "it would be great if [she had] anything" for
him. She wrote to another, "It's not the best time to be job hunting. . .. I
do think OJP would be an interesting place to work so I will keep my fingers
crossed." She similarly described her niece's skills, education, and
background to her friend, the HR Assistant Director, and told him her niece
"was a good worker ... and would be a good employee." By her numerous
conversations with JMD officials about employment opportunities for her
relatives, Horkan conveyed the message that she was urging that her
relatives be hired.

      Moreover, as Senior Advisor to Assistant Director Santangelo, Horkan
held a position of considerable influence. She could expect that any
inquiries about opportunities for her relatives would be taken seriously by
other officials in JMD. We therefore concluded that Horkan's
communications on behalf of her relatives constituted "advocacy" within the
meaning of the nepotism statute.

       Horkan told us that she told at least some of the officials she
contacted that she did not want any "preferential treatment" for her
relatives, and that she consulted with HR Director Rodney Markham, who

                                      66
told her there was no problem with giving her relatives ' resumes to officials
in JMD . If true, these claims may be mitigating factors relevant to Horkan's
discipline, but they are not defenses to a violation of the nepotism statute.
The statute prohibits advocacy for employment. It does not hinge on
whether the statements made on behalf of the relative were accurate or
whether the relative actually received an unfair advantage as a result. 53
And there is no "safe harbor" available by obtaining the approval of the
Director of HR or any other manager in the component.

       In her own defense, Horkan told the OIG, "I was not advocating that
[my son] be hired; I was advocating that he be considered." Even if this
distinction were relevant to an inquiry under the nepotism statute, the facts
in this case fall on the wrong side of it. Horkan admitted she did more than
submit the resumes for consideration. She described her relatives'
education, qualifications, and character to the officials she approached, and
signaled that she wanted her son and niece to get jobs in JMD. Horkan
could have ensured her relatives would be given fair consideration by
inquiring about potential vacancies without specifying who she had in mind
as candidates, and then suggesting to her son and niece that they apply for
them on an equal basis with other members of the public.

      We therefore concluded that Horkan violated the nepotism statute
when she recommended her son and niece to a variety of DOJ officials and
conveyed urgency about their need for employment. The same conduct
constituted a "Prohibited Personnel Practice" in violation of 5 U.S.C. §
2302(b)(7).

               2. 	    Use of Public Office for Private Gain - 5 C.F.R. §
                       2635.702

      We concluded that Horkan violated Section 702 of the Standards of
Ethical Conduct, 5 C.F.R. § 2635.702, which prohibits an employee from
using her public office for a relative's private gain. Horkan misused her
public office when she recommended her son to a variety of colleagues .

       As detailed above, Horkan told the OIG that she repeatedly circulated
her son's resume, recommending him to multiple colleagues and
communicating his need for ajob. When the Senior Advisor to the DAAG­
HRA recommends her son to multiple JMD officials, speaks in his favor, and
enlists the HR Director to assist in the job search as well, she has
unquestionably provided him a "private gain" unavailable generally to DOJ

        53 Given the evidence that Finance Staff Director Melinda Morgan caused a vacancy
to be restructured or created to fit Horkan 's son 's qualifications, we believe he did receive
preferential treatment as a result of his mother's efforts , even though he may have been
fully qualified for the position. An analysis of Morgan's conduct appears below.



                                              67 

job applicants. Significantly, Horkan's relationship with most if not all of
these individuals was professional. For example, Morgan told us that she
"didn't know [Horkan] from Adam" when Horkan first contacted her about
her son. Therefore, the only reason Morgan would have had to take
Horkan's call or consider her request for help was that Horkan held an
influential position in JMD. In contacting Morgan about her son, Horkan
was using her public office as the basis for her request. An unknown
member of the public would not have gotten the same consideration.

       Horkan's effort resulted in the "restructuring" of a GS-ll or GS-12
position to a much lower grade to enable her son to qualify under the FCIP.
Morgan described this restructuring to Horkan in response to Horkan's
request for help, and Horkan did nothing to discourage this manipulation of
the hiring process . 54

         We also concluded that Horkan's conduct, in addition to violating
Section 702's general prohibition, fit squarely into one of the four "specific
prohibitions" listed in the regulation. Sect!on 702(a) prohibits the use of
one's public office "in a manner intended to coerce or induce another person
. . . to provide any benefit, financial or otherwise" to himself or to a relative.
As described above, Horkan intended to "induce" Morgan to provide a
"benefit" to her son by sending her his resume, promoting his qualifications,
requesting Morgan's assistance, and providing expressions of hope and
gratitude to her. Morgan responded by arranging for a position in Finance
to be restructured to enable Horkan's son to apply for it.

               3. 	   Participation in a Matter Affecting the Financial
                      Interest of a Person in a Covered Relationship - 5
                      C.F.R. § 2635.502

       We also concluded, based on her involvement in her son's and niece 's
efforts to secure jobs within the Department, that Horkan failed to adhere to
the guidelines set forth in Section 502 of the Standards of Ethical Conduct,
5 C.F.R. § 2635 .502. Section 502 prohibits an employee's participation in a
matter, such as a hiring decision for a federal position, where the employee
knows that such matter is likely to affect the financial interest of someone
in a "covered relationship," and "[w]here the employee determines that the
circumstances would cause a reasonable person with knowledge of the
relevant facts to question his impartiality in the matter."



        54 We recognize that the restructuring of vacancies to widen the pool of available
applicants is not an unusual event and may occur for legitimate reasons . Based on the
contemporaneous e-mails , we concluded that the triggering event for the restructuring in
this case , however, was Horkan's inquiries on behalf of her son.


                                            68
       Horkan clearly had a "covered relationship" with both her son and her
niece. Equally obvious is that the particular matters at issue here - whether
to hire her son and her niece for federal positions - would have direct and
predictable effects on their financial interests. The evidence described
above, most notably Horkan's own statements, amply illustrates Horkan's
participation in each of these matters. She circulated both relatives'
resumes, sending her son's to multiple JMD officials and sending her niece's
to the HR Assistant Director who ultimately hired her. As described above,
however, Horkan's participation in their efforts to secure jobs in JMD
extended beyond resume-sharing; she not only recommended her relatives
to JMD officials but spoke in their favor and endorsed or otherwise
supported their candidacies.

      According to the Standards of Ethical Conduct,

      To participate substantially means that the employee's
      involvement is of significance to the matter. Participation may
      be substantial even though it is not determinative of the
      outcome of a particular matter. . . . A finding of substantiality
      should be based not only on the effort devoted to a matter, but
      also on the importance of the effort. While a series of peripheral
      involvements may be insubstantial, the single act of approving
      or participating in a critical step may be substantial. Personal
      and substantial participation may occur when, for example, an
      employee participates through decision, approval, disapproval,
      recommendation, investigation or the rendering of advice in a
      particular matter.
5 C.F.R. § 2635.402(b)(4).

       Horkan recommended that her relatives be hired into the same
component where she served as Senior Advisor to the DAAG. Taking all of
the circumstances into consideration, it is clear that Horkan's
recommendation was critically important to the decisions to hire her son
and niece. There is no evidence that either of these individuals would have
been hired absent her intervention. In the case of Horkan's son, the
evidence is compelling that he would not have been hired without his
mother's participation, because as Morgan told the OIG, there were no
vacancies in Finance for which he could qualify until she arranged for one
to be restructured in response to Horkan's request for help.

       These circumstances would cause any reasonable person to question
Horkan's impartiality toward her son. In fact, Horkan herself told the OIG,
"I think when [the resume-sharing] was happening I was thinking, 'Am I




                                     69 

doing something wrong?"'55 Under Section 502, Horkan should have
obtained authorization from the agency designee before participating in the
matter. The OIG confirmed that Horkan neither sought nor received
authorization from such official. Her failure to do so was particularly
troubling, given her involvement in the aftermath of the ~IG's 2008
Report.56

       Horkan told the OIG that she sought Markham 's advice regarding her
participation in her son's job search and that he told her that it was
permissible under the FCIP to give one's relatives' resumes to DOJ hiring
managers. However, she stated that she did not ask Markham's advice
prior to beginning to circulate her son's resume, and that she could not
recall whether she shared with him any details beyond the mere act of
sending the resume to such officials. Section 502(d) requires that such
authorization be secured from the agency designee, that it be granted prior
to the employee's participation in the matter, and that it be "based on a
determination, made in light of all relevant circumstances, that the interest
of the Government in the employee's participation outweighs the concern
that a reasonable person may question the integrity of the agency's
programs and operations." (Emphasis added.) In addition, Markham was
not an ethics official. Therefore, the authorization Horkan said she received
from Markham did not meet the requirements of Section 502(d). However,
we considered her consultation with the HR Director a circumstance
mitigating the severity of her misconduct.

              4.      Conclusions Regarding Horkan

       We concluded that Nancy Horkan violated the nepotism statute,
committed a Prohibited Personnel Practice, and violated the Standards of
Ethical Conduct in connection with her effort to obtain employment in JMD
for her relatives. As the Senior Advisor to the DAAG-HRA, she is a high­
profile, senior official in JMD. Horkan was aware of the history of nepotism­


       55 As described above, Morgan, too, perceived the appearance of partiality; she told
the OIG , "I did sense that it could be perceived that I was leaning over backwards to help
[Horkan's son]."
        56 As discussed above in connection with Hamilton and Clay, that Horkan escapes
the requirements of Section 502 because she was not the formal decision maker in the
appointment of her relatives . Senior employees frequently share opinions and
recommendations with fellow agency employees on hiring decisions and we believe that
when they do so they are acting within their official duties for purposes of Section 502.
Moreover, as Senior Advisor to DAAG Santangelo, Horkan was in a position of great
influence with all employees in JMD. While Horkan told us she was friends with the
employee who hired her niece, we think that the totality of circumstances supports a
conclusion that when she contacted an employee in her own agency about agency business
(a hiring decision) she was performing official duties within the meaning of Section 502 .


                                            70 

related abuses in FASS. She received ethics training about nepotism and
other hiring abuses. She sought no advice from agency ethics officials
regarding the propriety of her efforts to obtain JMD employment for her son
and niece.

       Horkan forwarded her son's and niece's resumes, and made favorable
statements about each of them to potential hiring officials. In view of her
position, she should have expected that even mild support would likely have
an impact on those receiving her input. However, her efforts were not mild,
as she communicated to several people the importance to her of her son, in
particular, obtaining a job, and the urgency of his need for a job.
Significantly, she knew of the efforts being made by Morgan to craft a
vacancy to accommodate her son, but failed to stop it. Particularly in view
of her awareness of the efforts to address issues of this nature identified in
the OIG's 2008 Report, she should not have engaged in this conduct.

       We note, however, that Horkan apparently consulted with HR Director
Rodney Markham about the propriety of her actions, and that Markham did
not identify any ethical issues. Although this consultation was irrelevant to
her violation of the nepotism statute, and was insufficient to satisfy the
requirements of the Standards of Ethical Conduct, it is, to some extent, a
mitigating factor, and may be considered in assessing appropriate
discipline. We also note that, unlike several other JMD employees whose
actions we reviewed in this investigation, Horkan provided candid
statements to the OIG.

       Even giving credit to Horkan's efforts to communicate to others in
JMD that she didn't want "preferential treatment" for her relatives, and
entirely apart from the analysis of her conduct as violating the applicable
prohibitions on nepotism, misuse of position, and conflict of interest, we
believe that she exercised very poor judgment. 57


        57 After reviewing those portions of this report pertaining to her own conduct,
Horkan provided a written response to the OIG. She stated that the inquiries that she
made on her son's behalf were designed only to solicit certain officials' advice, so that she
"could advise [her] son on how to narrow his search on USAJOBS." According to Horkan,
other e-mails she sent on her son's behalf were "intended to determine if there were any
entry-level positions to be announced in the finance area so [her] son could apply." The
evidence described above shows that the overall objective (and result) of Horkan's efforts on
her son's behalf was to provide him a competitive, insider's advantage in the hiring process
and not merely to advise him on using search tools available to the general public.

        Horkan also stated in her written comments that her telling the HR Assistant
Director to follow his "gut" was "the opposite of urging him to hire [her] niece." As we state
above, Horkan's disclaimer to the HR Assistant Director possibly mitigates the severity of
her misconduct but in no way neutralizes her prior statements to him advocating for her
niece's appointment.


                                              71
     We are referring our findings concerning Horkan to JMD for its review
and appropriate disciplinary action.

      C.       Analysis of the Conduct of Melinda Morgan

               1.      Unauthorized Preferences or Advantages - 5 U .S.C. §
                       2302(b)(6)

      We concluded that Melinda Morgan violated 5 U.S.C. § 2302(b)(6),
which prohibits the granting of unauthorized preferences or advantages to
job applicants. It provides that:

      Any employee who has authority to take, direct others to take,
      recommend, or approve any personnel action, shall not, with
      respect to such authority ... grant any preference or advantage
      not authorized by law, rule, or regulation to any employee or
      applicant for employment (including defining the scope or
      manner of competition or the requirements for any position) for
      the purpose of improving or injuring the prospects of any
      particular person for employment.

A violation of this provision requires an intentional or purposeful taking of a
personnel action "in such a way as to give a preference to a particular
individual for the purposes of improving her prospects for employment. "58
An employee with hiring authority may give only those preferences
authorized by law, rule, or regulation. For example, preferences in
recruitment and selection are given by Congress to veterans, Indians in the
Bureau of Indian Affairs, persons with reemployment rights, handicapped
individuals, etc. As amply illustrated elsewhere in this report, Congress has
not only declined to authorize preferences based on kinship, it has
specifically prohibited any conduct influenced by such considerations.

       As described above, Nancy Horkan recommended her son to Morgan ,
among others , in August 2008, providing his resume for a position on the
Finance Staff. At that time, the only vacancies in Finance were for GS-ll or
GS-12 positions, for which her son could not qualify as a recent graduate
without relevant work experience. Morgan began an effort to create a
position that Horkan 's son would be qualified to fill, by "restructuring" a
vacancy so that it could be filled on a noncompetitive basis at the GS-S or
GS-7 level under the FCIP. She enlisted the assistance of an HR Specialist,
who worked with staff in Finance to develop a Position Description that
would fit Horkan's son's qualifications. Contemporaneous e-mails show
that the effort to restructure a vacancy was triggered by Horkan's request to


      58   Special Counselv. Byrd, 59 M.S.P.R. 561 , 570 (1993) .


                                             72
Morgan and was at all times directed specifically toward enabling the son to
qualify.

        Morgan told the OIG that her interest in "restructur[ing available
positions] to lower grades" was not done "necessarily in order to hire
[Horkan's son]," that she was not telling Nancy Horkan "we're going to hire
him." We agree with Morgan that, at the time she initiated the process of
creating a new vacancy description targeting a lower grade, Horkan's son's
appointment was not yet a completed action; additional qualifying processes
still lay before him. However, a preference to a particular individual may
violate Section 2302(b)(6) even if the person is not selected for the position. 59
Although Morgan told the OIG that the "intent" behind the "restructuring"
was not to accommodate Horkan's son or to facilitate his appointment, the
most reasonable view of the available evidence shows otherwise . Indeed,
Morgan's comment that "my intent [in proposing the restructuring] was: we
don't have current positions at this particular grade level right now,"
suggests that the purpose for the restructuring was specifically to benefit
the application by Horkan 's son. E-mails and witness statements show that
Morgan worked with her staff to cause the title and series of existing
Finance Staff positions to be changed for the purpose of improving Horkan's
son's eligibility for and likelihood of appointment.

       Moreover, the fact that Horkan's son may have been adequately
qualified to fill the restructured vacancy is not relevant to whether a
violation occurred. As the Merit Systems Protection Board stated: "Hiring
even the best qualified person for the job must be accomplished through
competitive means consistent with law and merit system principles. Thus,
an agency may not grant a preference even to the best qualified person,
unless it is authorized 'by law, rule, or regulation. "'60

       Morgan told us that she consulted with JMD Ethics Officer Janice
Rodgers about the propriety of hiring Horkan's son, and that Rodgers told
her there was no problem because he would not be working directly for his
mother and that Nancy Horkan had not forced Morgan to hire him.
Rodgers's advice is not a defense to a violation of 5 U.S .C. § 2302(b)(6).
First, the quality of Rodgers's advice was affected by the information
provided by Morgan. There is no evidence from either Morgan's or Rodgers's
recollections of the consultation that Morgan told Rodgers about the
restructuring effort she had initiated to create a Position Description that

       59 See Special Counsel v . Deford, 28 M.S.P.R. 98, 103 (1985) ; Special Counsel v .
Brown, 61 M.S.P.R. 559 (1994) (observing that even if the applicant had not been selected ,
a showing that the hiring official acted for the purpose of advantaging a particular
applicant is sufficient to establish a violation of Section 2302(b)(6)).
       60   Special Counselv. Byrd, 59 M.S.P.R . 561 at 571 n .9 (1993) .


                                               73 

would fit the son's qualifications and enable him to apply to be hired
noncompetitively under the FCIP authority.61 Second, this regulation does
not contain a "safe harbor" whereby otherwise illegal employment
preferences can be validated by an ethics official.

       By causing existing Finance Staff vacancies to be "restructured" to
grades more suitable to the experience level of Horkan's son, Morgan
granted him "a preference or advantage not authorized by law, rule, or
regulation" for the purpose of improving his prospects for employment, in
violation of 5 U.S.C . § 2302(b)(6).62

                2.     Conclusions Regarding Morgan

       We concluded that Melinda Morgan granted an unauthorized
preference or advantage to Horkan's son in violation of 5 U.S .C. § 2302(b)(6).
Although Morgan did consult with Rodgers about the propriety of hiring
Horkan's son, we found no evidence that Morgan described to Rodgers her
efforts to improve his prospects for employment by position restructuring, or
that Morgan's consultation with Rodgers included any consideration of
unauthorized preferences under 5 U.S.C. § 2302(b)(6). Nevertheless, we
consider Morgan's consultation with Rodgers a mitigating factor in
assessing the gravity of Morgan's misconduct. We also note that, unlike
several other JMD employees whose actions we reviewed in this
investigation, Morgan provided candid statements to the GIG and did not
seek to benefit her own relatives.

     We are referring our findings concerning Morgan to JMD for its review
and appropriate disciplinary action. 63


        61 We found no evidence to indicate that Morgan intentionally withheld the fact of
the restructuring when she consulted Rodgers .
        62 The OIG recognizes that there is nothing intrinsically problematic with
restructuring vacancies. Moreover, during the time of the events in question the FCIP was
clearly a valid appointing authority. The words "not authorized by law, rule, or regulation,"
however, refer to the preference that is prohibited , not to the type of action used in granting
the preference. Special Counsel v. Byrd, 59 M.S .P.R. 561 , 570 (1993). Therefore, neither
Morgan's use of the FCIP appointing authority nor the "restructuring, " per se, was
disallowed by law, rule , or regulation. Instead, it was the preference itself that was
prohibited . In other words , what rendered the vacancy restructuring problematic was that
it was triggered by an effort to facilitate the appointment of a colleague's relative and was
implemented in a manner specifically directed at accommodating the relative 's
qualifications .
         63 After reviewing those portions of this report pertaining to her own conduct,
Morgan provided a written response to the OIG. Morgan requested that "additional
contextual considerations be factored into [the] report . .. [chiefly,] the needs of the
organization .. . that did playa part in deciding to restructure the position at a lower grade
level. " As described above, the needs of the organization do not justify restructuring a
                                                                                         (Cont'd.)

                                               74
VI.    Facts and Analysis Pertaining to Rodney E. Markham

     In this Part of the report we set forth the facts relating to the alleged
misconduct of HR Director Rodney Markham. 64 The allegations relating to
Markham arose out of the hiring of his cousin and nephew into JMD and
DOJ National Security Division (NSD), respectively.

       A.      Factual Findings

      Rodney Markham joined the DOJ in March 2006 as an HR Deputy
Director, became the Director in 2008, and left federal service in September
2011. While HR Director, Markham reported directly to Santangelo. In
June 2011, the OIG received anonymous allegations that Markham's
nephew and cousin had been improperly appointed to DOJ positions. 65 We
investigated Markham's alleged role in these appointments in addition to his
knowledge of or involvement in a number of other allegedly improper hires. 66

               1.     The Hiring of Rodney E. Markham's Cousin

       In April 2009, JMD's Budget Director hired Markham's cousin into a
full time position as a Clerk under the Student Temporary Employment
Program (STEP). When asked how she came to be appointed, Markham told
us that he tried to "help her get a position in the Budget Office through [the
Budget Director]." He said that he told her that his cousin "was looking for
ajob and that she was very bright in budget." Markham stated that he
"advocate[d]" for his cousin's employment.


position for the purpose of improving an employee's son's eligibility for and likelihood of
appointment.
        Morgan also reiterated her testimony that "just restructuring the position at a lower
grade level did not mean that [Horkan's son] was automatically selected for the position."
Again, the fact that additional qualifying processes still lay before Horkan's son after the
restructuring enabled him to apply is not relevant to whether a violation occurred.
       64 Markham left the Department in September 2011. DAAG-HRA Mari Barr
Santangelo told the OIG that Markham's departure had nothing to do with improper hiring
practices or the OIG's investigation. Markham was succeeded, in an acting capacity, by
Finance Staff Director Melinda B. Morgan. Terence L. Cook became HR Director on
February 13, 2012.
       65 E-mails show that Markham shared a close relationship with his nephew and
cousin, and that Markham housed his nephew for a period of time .
        66 We did not review the underlying merits of all of the hiring decisions involving
relatives brought to our attention, and did not do so with respect to Markham's relatives.
However, we recommend in Part VIII.B of this report that JMD consider conducting this
inquiry and, if deemed necessary by JMD leadership, take appropriate action if it finds that
any hiring official granted an improper preference to Markham's relatives in a hiring
decision.


                                              75
      Markham also told the OIG that after her appointment, his cousin
appeared to be abusing her leave . He said that he recommended that she
be removed, and that she subsequently resigned . E-mails confirm
Markham's involvement in discussions regarding his cousin's management
and discipline.

      We asked Markham whether his involvement in his cousin's
appointment gave her an unfair advantage . Markham stated, "That gave
her an unfair advantage. But also - when it came time to remove her - I was
the one that said 'You better get her out of there,' and I made sure that she
was written up .... I felt like I was fair and objective in that situation."

               2.     The Hiring of Rodney Markham's Nephew

       Markham told the OIG that he helped his nephew to secure a paid
internship in NSD, one of the Divisions JMDjOBD HR serviced. Records
reveal that Markham's nephew worked there during the summers of 2009
and 2010.

      Witnesses told us , and e-mails show, that Markham's nephew was
originally slated for an HR post. However, Markham told us that at some
point he advised Cabell-Edelen that his nephew should not be appointed to
a position within Markham's chain of command. Markham told us he
believed he called an NSD official on his nephew's behalf. E-mails show
that Markham was in touch with several NSD officials regarding his
nephew's NSD appointment. 67 On May 6 , 2009, Markham e-mailed one
NSD official about his nephew, stating, "He 's in the queue for JMD . ..
maybe I can have [him transferred] to you guys??" (Ellipsis in original.) He
was subsequently assigned to NSD.68

       We asked Markham whether he recommended that NSD hire his
nephew. He answered , "I did. I said he 's a good kid , and he needs a
position." Markham stated that he also told the NSD officials how his
nephew's familiarity with a particular "architectural rendering program"
would benefit NSD.




       67 The NSD officials Markham contacted were a GS-IS Supervisory Management &
Program Analyst, an Executive Officer (ES) , and a GS-IS Supervisory Procurement Analyst.
Although e-mails show that Cabell-Edelen knew of the applicant's relationship to
Markham , the e-mails did not reveal whether the NSD officials knew prior to the applicant's
appointment that he was Markham's nephew.
        68 E-mails reflect that the nephew's paid HR internship was subsequently given to a

friend of Nancy Horkan , whose resume Horkan forwarded to Markham on May 11 , 2009 .


                                            76 

              3.     Markham's Knowledge about Other Appointments in
                     JMD

      In the course of our investigation, we learned that the practice of
hiring friends and relatives of JMD employees into a small number of paid
summer clerkships and other STEP appointments was common. Although
these were not part of any allegations received by the OIG, we asked
Markham about them because he was either involved in, or in a position to
know about, these appointments. Further, they illustrate the widespread
nature of the preferential hiring of friends and family within JMD.

      According to information provided by JMD to the OIG, JMD received
1621 applications for summer clerkships and other STEP positions in 2009,
and 1229 applications for those positions in 2010. There may have been
even more applications than reported by JMD because Cabell-Edelen stated
in an April 2,2010, e-mail to the HR Deputy Director and the FASS Deputy
Director that she had over 2000 applications to fill no more than 5 paid
summer positions. An HR Specialist told us that announcements were
advertised for summer clerkships and other STEP positions. She stated,
however, that "very few" candidates were selected from the announcements.

      Markham stated that the selection process was "not very structured."
He told us, "[Y]ou don't have the ability to screen those kids out based on a
competencies. . .. Honestly guys, it's word-of-mouth and being in good
standing" in your academic program. He told the OIG that he receives
resumes "all the time" and that "[i]t's usually a friend or a colleague or
someone has a son or daughter in college that's looking to get some
experience. "69

       Next, we showed Markham the lists identifying the 2009 and 2010
paid summer interns. These lists bear the names of multiple students
whose relatives work in JMD. One list - containing 11 names of STEP and
FCIP appointments for April through June 2010 - included at least 6
confirmed relatives of DOJ employees. We asked Markham his opinion of
how properly to interpret nepotism prohibitions within the context of STEP,
SCEP, and FCIP appointments. He said he thought that if the DOJ
employee's relatives are not in the employee's "direct reporting chain" and
the employee is not the selecting official, the relatives can properly be hired
"if they're qualified and they meet the requirements."



       69 According to JMD, clerkship compensation is generally governed by educational
level. Most of the appointments at issue here were GS-3s and GS-4s (approximately
$27,000 to $40,000 per year). These are excepted service positions that can be
noncompetitively converted to SeEPs, which can be noncompetitively converted into career
appointments.


                                           77
       We asked Markham about the following JMD employees whose
relatives, based on the available evidence, appeared to have received
preferential treatment in the competition for summer clerkships and other
STEP positions:

       •	      February 2009 e-mails show that a SEPS Assistant Director
               provided his daughter's resume to Markham and recommended
               her for appointment to a summer clerkship. Markham thanked
               the SEPS Assistant Director, told him to have his daughter
               apply, told him he would bring her in for an interview, told him
               that he "appreciate[d] the e-mail," and forwarded his e-mail to
               Cabell-Edelen, stating, "This is the name request for us if we
               still have room." In a May 4, 2009, e-mail to some of her staff,
               Cabell-Edelen stated, "Per my phone conversation with [Horkan]
               today, they have selected [the SEPS Assistant Director's
               daughter] for the summer." Horkan told the OIG that the SEPS
               Assistant Director's daughter declined the offer of
               employment. 7o
       •	     Markham stated that a JMD Deputy Director referred her son to
              him for a STEP appointment. The Deputy Director sent the
              following e-mail to Markham and the JMD Budget Director on
              March 12,2010: "My son [] is going to apply to the summer
              program ... [Last summer, he] did an unpaid [EPA] internship .
              . . but maybe he could be happy with pay at DOJ! I know the
              jobs are scarce, though." Markham replied, "You want him in
              HR?" We found no evidence of the Deputy Director responding
              to Markham's question at that time. The Deputy Director's son
              subsequently applied for a paid summer internship and was not
              selected. In an April 5,2010, e-mail, the Deputy Director
              forwarded her son's rejection notice to Markham, stating, "Hard
              to believe a kid with straight A's in high school couldn't compete
              for a summer job here! But I guess there must have been a ton
              of highly qualified applicants . .. ". (Ellipsis in original.)
              Markham replied, "Oh no .. . wait, did you want him in HR?"
              (Ellipsis in original.) The son was subsequently appointed to a
              paid STEP position in HR.
       •	     LaTonya Gamble's daughter was hired in 2009 under a STEP
              appointment. Markham stated that he did not know for sure

         70 We did not review the underlying merits of all of the hiring decisions involving
relatives brought to our attention, and did not do so with this particular one . However, we
recommend in Part VIlLB of this report that JMD consider conducting this inquiry and, if
deemed necessary by JMD leadership , take appropriate action if it finds that a hiring
official granted an improper preference to a JMD relative in a hiring decision .


                                             78
               how this occurred. He stated that it was "[p]robably Pam" and
               that Gamble and Cabell-Edelen were "very tight." One HR
               Specialist we interviewed told us that Cabell-Edelen originally
               "sent [Gamble's daughter's] resume to Mari [Santangelo], and
               Mari selected someone else." The HR Specialist stated that at
               that point Cabell-Edelen asked McEachron to hire Gamble's
               daughter. E-mails confirm Cabell-Edelen's involvement in the
               decision to appoint Gamble's daughter. A May 4,2009, e-mail
               shows Cabell-Edelen coordinating the placement of multiple
               candidates her staff preferred, stating in part, "I will take
               Jeanarta [McEachron's] person and Jeanarta will take
               [Gamble's daughter]." One HR Specialist we interviewed told us
               that "Jeanarta['s] person" was the granddaughter of
               McEachron's neighbor and that she, like Gamble's daughter,
               periodically returned to her paid STEP position during 2010
               and 201l.
        •	     Two of Cabell-Edelen's granddaughters received summer STEP
               appointments in JMD.71 Markham told us that he barred
               Cabell-Edelen's granddaughters from returning to positions
               anywhere in HR for summer 2011. With respect to this
               decision, an HR Specialist asked if she could place the
               granddaughters in other offices , but was told by an HR Deputy
               Director to "just leave it alone."72
       Markham repeatedly stated to the OIG that he had no qualms about
the selection of candidates who - all else being equal - are selected simply
because they happen to have DOJ relatives who recommended them to DOJ
hiring officials. He told the OIG that it all depends upon "where they're
working, who they're reporting to, and what they're doing and have they met
the basic qualifications ." He stated that although he was not troubled by
relative-recommended appointments of qualified candidates to positions
outside their relatives' chains of command, the OIG made "a good point"
when we questioned the apparent inequity of such a policy because it gave
an unfair advantage to relatives and friends of DOJ employees in what is
supposed to be a merit-based hiring process. Expanding upon this
statement, Markham said:


        7 1 We did not review the underlying merits of all of the hiring decisions involving
relatives brought to our attention, and did not do so with respect to Cabell-Edelen's
granddaughters. However, we recommend in Part VIlLB of this report that JMD consider
conducting this inquiry and, if deemed necessary by JMD leadership , take appropriate
action if it finds that a hiring official granted an improper preference to a JMD relative in a
hiring decision.
       72 By the time of the hiring decisions for summer 2011 positions had been made ,
the OIG had opened this investigation and interviewed several witnesses in JMD .


                                              79
       Actually, OPM recognizes the point you are making. . .. STEP
       and SCEP are going away. FCIP [is] gone away. So now we
       have this program called Career Pathways, where you will have
       public announcements . 73 So, agencies are going to have to put
       a little more structure around these programs .... So I think
       your point is a good one.

        B.     Analysis of the Conduct of Rodney E. Markham

       We concluded that HR Director (SES) Rodney E. Markham's conduct
violated multiple statutes and regulations .

               1.      Nepotism - 5 U .s.c. §§ 3110(b) and 2302 (b)(7)

       We concluded that Markham violated the federal nepotism statute, 5
U.S.C. § 3110(b), in connection with the appointments of his cousin and
nephew. The nepotism statute prohibits a public official with hiring
authority from advocating for the employment of his relative to a civilian
position in the official's agency. As HR Director, Markham clearly had
hiring authority, and his cousin and nephew each met the statutory
definition of a "relative."

       Markham described his cousin's appointment with frankness, stating,
"I did try to help her get a position in the Budget Office through [the Budget
Staff Director]." He said he told the Budget Director that his cousin needed
a job and "was very bright in budget." Markham stated, "I did advocate for
[my cousin]."

      Equally candid when describing his nephew's appointment, Markham
stated that he helped his nephew to be appointed to an NSD STEP position
as a Clerk. Markham told the OIG that he spoke with NSD officials
regarding his nephew's interest in the job and suitability for it. When we
asked Markham whether he recommended and spoke in favor of his
nephew, he replied, "I did." He stated that he also told the NSD officials how
his nephew's familiarity with a particular "architectural rendering program"
would benefit the NSD.

       We therefore concluded that, having impermissibly "advocated" for his
relatives when he spoke in favor of, recommended, endorsed, or otherwise


      73 Established by Executive Order 13562, December 27,2010 - but not yet
implemented - the "Pathways Programs" comprises three excepted service internship
programs for students and recent graduates . The Pathways Programs will serve , in part, to
replace the STEP, SCEP, and FCIP and are designed, inter alia, to "advance merit system
principles. " See OPM proposed regulations , Federal Register, Vol. 76 , No . 151 , page 47496 ,
Friday, August 5, 2011.


                                              80
supported their appointments to civilian positions in the DOJ, Markham
violated the nepotism statute .

       The above facts also support a conclusion that Markham committed a
Prohibited Personnel Practice when he advocated for his relatives'
appointments to DOJ positions . Section 2302(b)(7) of Title 5 of the United
States Code prohibits any employee with the authority to affect hiring
decisions from advocating for a relative 's appointment to a civilian position
in the employee's agency.

       When interviewed by the OIG, Markham repeatedly stated his view
that a DOJ official's recommending, speaking in favor of, endorsing, or
otherwise supporting his relative's STEP, SCEP, or FCIP appointment is
permissible as long as the candidate is qualified and not applying to work in
his relative/advocate 's chain of command. Markham knew or should have
known that this position contradicts applicable laws and regulations. 74

              2. 	    Use of Public Office for Private Gain - 5 C.F.R. §
                      2635.702

      We concluded that Markham violated "Section 702 of the Standards of
Ethical Conduct, 5 C.F.R. § 2635.702, which prohibits an employee from
using his public office for his friends' or relatives' private gain, when he
improperly assisted them to be appointed to DOJ positions.

        As described above , Markham candidly described to us his relatives '
appointments. He stated that he recommended his cousin to JMD's Budget
Director, told her that his cousin "was looking for a job and that she was
very bright in budget," and stated that his advocacy gave his cousin an
unfair advantage. Similarly, he acknowledged that he recommended his
nephew'S appointment to NSD officials, describing to them how his
nephew's familiarity with a particular "architectural rendering program"
would benefit the Division. Markham's relationship with the Budget
Director and the NSD officials was chiefly professional, and it was by virtue
of his prominent office in JMD that he was in a position to have ready
access to or influence over them. Therefore, Markham was "using his public
office" as the basis for his request.



        74 Notably, Section 213.3202(7) of Title 5 of the Code of Federal Regulations ,
"Employment of Relatives ," states, in part, that "a student may work in the same agency
with a relative when there is no direct reporting relationship and the relative is not in a
position to influence or control the student's appointment, employment, promotion or
advancement within the agency. " (Emphasis added.) In short , Markham showed poor
judgment not only when he advocated for his relatives ' appointment, but also when he
became involved in the Budget Staffs subsequent management and discipline of his cousin.


                                            81 

      Markham's involvement in his relatives' efforts to secure DOJ
positions provided a private benefit to them. This was an abuse of
Markham's position.

      In addition to violating Section 702's general prohibition, we also
concluded that Markham used his public office "in a manner intended to
coerce or induce" his colleagues to provide a benefit to his relatives. 5
C.F.R. § 2635.702(a). As described above, Markham intended to "induce"
his Budget Staff and NSD colleagues to provide a "benefit" to his relatives by
advocating on their behalf, complimenting them, and otherwise endorsing
and supporting their appointments. HR provided staffing and personnel
services to JMD Budget Staff and NSD and, as HR Director, Markham
wielded considerable influence in this area.

             3. 	   Participating in a Matter Affecting the Financial
                    Interest of a Person in a Covered Relationship - 5
                    C.F.R. § 2635.502

       By involving himself in his relatives' efforts to obtain positions within
the DOJ, Markham failed to follow the guidelines set forth in Section 502 of
the Standards of Ethical Conduct. Section 502 prohibits an employee's
participation in a "particular matter" where he knows that such matter is
likely to affect a relative's financial interest and "determines that the
circumstances would cause a reasonable person with knowledge of the
relevant facts to question his impartiality in the matter. "

       First, Markham readily acknowledged his "participation" in his
relatives' appointments - each a "particular matter" likely to have "direct
and predictable effect" on their respective financial interests. Second,
Markham had a "covered relationship" with his cousin and his nephew.
Clearly relatives, they also had "a close personal relationship" with
Markham. We base this conclusion not only on the above-described favors
Markham provided them, but also on e-mails exchanged between Markham
and his relatives showing the nature of their relationship, as well as on the
fact that Markham's nephew lived in Markham's home for a period of time.
Third, his involvement in their appointments would cause any reasonable
person "to question his impartiality in the matter[s] ." In fact, obliquely
referring to such appearance of questionable impartiality, JMD's Budget
Director teased Markham about his niece's appointment in a May 15 , 2009 ,
e-mail, stating, "Amazing how quickly these things can happen."

       We concluded, therefore , that Markham showed poor judgment when
he either failed to recognize - or recognized and ignored - the appearance of
partiality that his involvement in these matters created. He should have




                                      82 

"informed the agency designee of the appearance problem and received
authorization" to participate, and he did not do this.7 5 As a result, he failed
to follow the guidelines set forth in Section 502 of the Standards of Ethical
Conduct when he participated in hiring decisions that had a direct effect on
his relatives' financial interests.

               4. 	   Markham's Conduct with Respect to Intern
                      Appointments

        In addition to the misconduct relating to his own relatives , Markham's
involvement in the placement of other employees' relatives, particularly
summer and other paid intern appointments in HR, further demonstrated
his lack of attentiveness to Merit System Principles. The principles of merit
selection stand for the idea that that employee "selection and advancement
should be determined solely on the basis of relative ability, knowledge, and
skills, after fair and open competition which assures that all receive equal
opportunity." See 5 U.S.C. § 2301(b)(I). For example, our investigation
revealed that during the second quarter of 2010, relatives of JMD employees
occupied 6 of 11 paid HR internships. The high number of relatives hired
for HR internships should have been a warning sign to Markham that merit
principles were not being followed.

       Markham stated that the selection of such interns was largely based
on "word-of-mouth," and that "[i]t's usually a friend or a colleague or
someone [who] has a son or daughter in college that's looking to get some
experience." When asked whether it was permissible to have a DOJ official
"suggesting and recommending and advocating" that his relative be selected
for an internship, he stated, "It would be all right if they meet the position's
requirements."

     As Santangelo stated when we asked her about the intern programs,
such conduct is not all right. She told the OIG, "They are not to be hired
because they are a family member or because a family member has vouched

        75 As noted , Section 502(d) requires that such authorization: (1) be secured from
the agency designee (AAG Lee Lofthus); (2) be received prior to the employee 's participation
in the matter; and (3) be "based on a determination , made in light of all relevant
circumstances , that the interest of the Government in the employee 's participation
outweighs the concern that a reasonable person may question the integrity of the agency's
programs and operations. " Although Markham told the OIG, "When [my nephew] was
working in NSD , I told Mari [Santangelo] . When [my cousin] was working in Budget, I told
Mari," such measures fall well short of those described above. Clearly, notifying your
supervisor of your relatives ' recent appointments is in no way tantamount to having
informed the agency designee beforehand of all relevant circumstances surrounding the
appearance problem. Santangelo told the OIG that Markham never sought her approval for
his relatives ' appointments .




                                             83
for them.... If you're a relative, you should not be recommending . .. not
saying 'Here is a name,' and not distributing a resume." Santangelo also
made clear that the use of the fact of an applicant's familial connection to a
DOJ employee as a "tie-breaker" in that person's selection is also
impermissible.

      The intern appointments described above suggest a troubling pattern
in which relatives and neighbors of JMD employees appear to have been
granted improper preferences in the hiring process. Markham's
endorsement and oversight of such a selection policy, to say nothing of his
compliant response to colleagues seeking to place relatives in JMD
internships, contravened the principles of merit selection.

            5. 	   Conclusions Regarding Markham

      We concluded that HR Director Rodney Markham violated the
nepotism statute, committed a Prohibited Personnel Practice, and violated
the Standards of Ethical Conduct in connection with his efforts to obtain
employment for his relatives within the DOJ.

       As Director of HR within JMD, Markham should have been aware of
prohibitions relating to hiring abuses and scrupulous about abiding by such
prohibitions. Markham was aware of the history of nepotism-related abuses
in FASS. He received ethics training about nepotism and other hiring
abuses . He sought no advice from ethics officials regarding the propriety of
his efforts to obtain JMD employment for his relatives. He facilitated the
abuse of the summer intern program to hire relatives of JMD employees.

       Unlike several other JMD employees whose actions we reviewed in
this investigation, however, Markham provided candid statements to the
OIG. Nevertheless, we believe that misconduct of this gravity would
normally require disciplinary action. However, Markham left the DOJ prior
to the completion of this report and is no longer subject to Departmental
discipline. We recommend however that our findings be referenced in his
personnel file for consideration in the event that he applies for DOJ
employment in the future.


VII. 	 Facts and Analysis Pertaining to Management and Oversight by
       Mari Barr Santangelo

       In light of the number of appointments of relatives of JMD employees
to positions within JMD, we examined the adequacy of the supervision
provided by DAAG Mari Barr Santangelo. As detailed below, even after
learning of OIG's 2004 and 2008 Reports and taking steps to improve
training on personnel practices, Santangelo received warning signs that the
hiring of employees' relatives continued to be a common practice in JMD.

                                      84 

Between the issuance of the 2008 Report and the initiation of this
investigation, Santangelo learned of at least six separate instances in which
the children or other relatives of JMD employees had been hired into the
division, including the close relatives of three senior JMD employees who
reported directly to her - Hamilton's son, Horkan's son and niece, and
Markham's nephew. We found that she made only limited inquiries in
response to these incidents and relied on the summary assurances of JMD
employees that they had not been involved in the appointment of their own
relatives. We concluded that Santangelo's supervision of hiring practices in
JMD were insufficient to prevent the violations described in this report.

      A.    Factual Findings

      During the entire period covered by this report, FASS and HR reported
to Mari Barr Santangelo, who has served as Deputy Assistant Attorney
General for Human Resources and Administration (DAAG- HRA) and Chief
Human Capital Officer since 2005. As noted above, Santangelo oversees
seven offices in JMD comprising approximately 600 employees, including
contractors.

       After learning about the violations in JMD described above, we
interviewed Santangelo to determine, among other things, what steps she
took to address nepotism and other hiring abuses in the wake of the OIG's
2008 Report, and the extent of her knowledge of the subsequent hiring of
employees' relatives in JMD.

       During her OIG interview, Santangelo demonstrated a thorough and
correct understanding of applicable prohibitions on nepotism. She stated,
"If you're a relative, you should not be recommending somebody to someone
else who has the power to hire them. If they apply, I think you stay out of it
entirely."

       Santangelo initially said she was aware of three relatives of JMD
employees who had been hired in JMD since she became Deputy Assistant
Attorney General: (1) the son of FASS Director Edward Hamilton, hired as a
GS-S Payroll Specialist in HR; (2) the daughter of FASS Deputy Director
Michael Clay, hired as a GS-Sj 13 HR Specialist, also in HR; and (3) the son
of Santangelo's Senior Advisor, Nancy Horkan, hired onto the JMD Finance
Staff as a GS-5 Financial Management Specialist.

      Hamilton's son received his job offer from HR in late January 2010.
Santangelo told us that she first learned about the appointment of
Hamilton's son around his start date, which was in March 2010. She said
she learned this from HR Director Rodney Markham. She told us that it
displeased her to be notified by Markham, rather than Hamilton himself.
Santangelo stated that Markham assured her that "Pam [Cabell-Edelen] is

                                     85 

very careful to follow the rules," and that there was "no concern" about
improper hiring practices. Santangelo said that shortly before Hamilton's
son started work, Hamilton came to tell her that his son had been hired in
HR. She told us that she asked Hamilton whether he had anything to do
with his son's appointment, and that Hamilton said he had "nothing to do
with it."

      Clay's daughter began working in HR in November 2009. Santangelo
stated that she learned that Michael Clay's daughter had been hired
sometime after Clay's daughter started work in HR, but before Santangelo
learned about the OIG investigation in November 2010. Santangelo stated
that upon discovering the kinship, she did not question Clay about whether
he was involved in his daughter's appointment, and that she assumed
Hamilton did not ask Clay such questions. According to Santangelo, she
asked Hamilton to speak to Clay, and Hamilton later told her that Clay said
he was not involved.

      Santangelo told us that she learned about the appointment of Nancy
Horkan's son onto the JMD Finance Staff sometime after he was hired in
January 2009. Santangelo stated, however, that the appointment had
"nothing to do with me ." According to Santangelo, Horkan assured her that
Horkan "stayed out of it ... did nothing, did no recommendations."
Santangelo also told the OIG that it would "shock" her if Nancy Horkan
"would call somebody and say, 'Hey, hire my son' or 'Here's a resume from
my son' or anything else leading or advocacy-oriented."

       We identified to Santangelo four additional relatives of JMD employees
who had been hired during Santangelo's tenure as Deputy Assistant
Attorney General. Santangelo told us she was aware of these as well. The
four were: (1) the daughter of HR Assistant Director Pamela Cabell-Edelen,
hired as Hamilton's secretary, as described above in Part lILA. 1 of this
report; (2) the nephew of HR Director Rodney Markham, hired to a STEP
position as an NSD Clerk, as described above in Part VLA.2; (3) the niece of
Nancy Horkan, hired to a STEP position as an HR Program Specialist, as
described in Part V.A.2; and (4) the daughter of another FASS employee,
hired to an FCIP position as a FASS Program Analyst, as described below.
Together with the three appointments that Santangelo identified without our
reminder (Hamilton's son, Clay's daughter, and Horkan's son), there was a
total of seven appointments of relatives of JMD employees during
Santangelo's tenure that she told us she knew about.

       Cabell-Edelen's daughter was selected as Hamilton's secretary in
November 2009. Santangelo told us she learned that Hamilton's secretary
was Cabell-Edelen's daughter well after the appointment was made and in
fact after the OIG had begun its investigation. She stated that she spoke
with Hamilton about this appointment as well and that he again stated that

                                     86 

there had been no misconduct in connection with her appointment.
According to Santangelo, Hamilton stated that when he hired Cabell­
Edelen's daughter he had no idea that she and Cabell-Edelen were related.

       Markham's nephew was hired as an intern in NSD in May 2009. 76
Santangelo told us that Markham introduced her to his nephew at some
point after the nephew began working as an NSD intern. She stated that
Markham never sought approval for or provided notice of his involvement in
his relatives' appointments. She told us, "I think Rod may have talked to
[an NSD official] about a possible internship for [his nephew]. [The nephew]
wasn't in [Markham's] chain of command." However, Santangelo
acknowledged that an official's chain of command was not relevant to the
matter of advocating for one's relatives' appointments, stating, "I don't think
we should recommend or advocate or be involved at all.... If [someone
considering hiring my relative] called me, I would say, 'Yes, she is my niece,
and I want nothing to do with this. I don't want to talk to you.'"

       Nancy's Horkan's niece was hired as a Program Specialist in HR in
October 2009. Santangelo told us that she learned from Markham that
Horkan's niece had been hired into JMD by an HR Assistant Director.
Santangelo said that neither she nor Markham knew of the niece's
relationship to Horkan prior to her appointment. Santangelo stated that
she did not question Horkan about her niece's appointment. She said she
instead assumed Horkan had not been involved in it based on Horkan's
earlier assurances to her regarding the propriety of her son's appointment.

      Santangelo told us she also knew about the appointment of the
daughter of a FASS Woodcrafter in 2010. Santangelo told us the employee
was someone who hung pictures and performed similar tasks in JMD. E­
mails show that the employee spoke to Santangelo in early January 2010
about his daughter's interest in a job and sent her resume to Santangelo via
e-mail. Santangelo forwarded the resume to Markham that day and asked
him to call the employee's daughter. On January 15, Santangelo forwarded
the resume to Markham again, stating, "I know you're busy but I would
appreciate your personal attn to this one - you talked about her resume
needing some work, and a possible internship in H.R.?" Markham sent
Santangelo an e-mail informing her that he was not a "placement agency,"
and did not have any positions available in HR. Santangelo replied to
Markham, stating, in part, "I know ... but it's an employee. [Y]ou can
delegate this to someone who can show her how to navigate the system and
'how to look for' a[n] intern program. And I thought you said you might
have something this summer." (Ellipsis in original.)

        76 As noted above, NSD was one of the Divisions that JMD-HR provided personnel
services to.


                                          87 

      When shown these e-mails during the OIG interview, Santangelo
stated, "I thought I was looking at her resume to look at her resume. To see
what it looked like." She stated that she wanted Markham to call her "to
talk about the resume ." Santangelo told the OIG, "I had an interest in
helping her shape her resume, not [get] a job here. I never asked for an
internship in HR." She stated that it was Markham and not she who first
suggested possible positions for the employee's daughter.

      Markham told the OIG he had little recollection of this incident.
According to Markham, he told Santangelo that the employee's daughter
was not suitable for an HR position. The employee's daughter did not
receive an internship or any other position in HR.

       The employee's daughter continued her efforts to obtain employment
elsewhere in JMD. In June 2010 she e-mailed an Assistant Director in
FASS to inquire about job openings that her father had told her about. On
September 26, 2010, the FASS employee's daughter was hired as a GS-S
Program Analyst in FASS. Santangelo stated that she had nothing to do
with the daughter's appointment in FASS. "I never promised anyone an
internship here. I never said, 'Please hire this person or place this person. '"
Markham told us he did not recall how the daughter came to be hired into
FASS. The Assistant Director in FASS who was directly involved in the
appointment of the daughter told us that she never discussed it with
Santangelo.7 7 We found no evidence to suggest that Santangelo had a role
in the appointment of the employee's daughter to a position in FASS, or that
the appointment was made because of any perception that Santangelo
favored it.

       In addition to the seven appointments of JMD employees' relatives
that Santangelo told us she was aware of, there were five other
appointments of JMD relatives that we discussed with her. During our
interview, Santangelo said she was not previously aware of these five
additional appointments of JMD relatives.

      The first appointment that Santangelo said she was not previously
aware of was the appointment of Markham's cousin. As described above in
Part VI.A.1, Markham's cousin was hired by JMD's Budget Director in April

        77 The Assistant Director in FASS told us that the applicant was a good fit for a
position they were having trouble filling, and that the fact that the applicant was the
daughter of a FASS employee was not a factor in her selection. We did not review the
underlying merits of all of the hiring decisions involving relatives brought to our attention,
and did not thoroughly do so with this particular one. However, we recommend in Part
VIII.B of this report that JMD consider conducting this inquiry and, if deemed necessary by
JMD leadership , take appropriate action if it finds that a hiring official granted an improper
preference to a JMD relative in a hiring decision.


                                              88
2009 as a .Clerk. Santangelo told us that she was not aware of this fact
until we told her during her interview with us.

       The second instance involved the daughter of a FASS Visual
Information Specialist. In a May 2, 2008, e-mail, the Visual Information
Specialist sent his daughter's cover letter and resume to Santangelo. The e­
mail stated in part, "When I spoke to you the other day, you told me to e­
mail you for the contact person I should talk to about my daughter and the
summer program. We have already applied on line, but anything you can
help me with would be greatly appreciated." Santangelo forwarded the
employee 's e-mail to Senior Advisor Nancy Horkan, asking her to forward it
to the right person since Santangelo was out of the office . Horkan replied ,
"Not quite sure how to respond. He 's attached a personal letter from his
daughter to you and she has already applied online with the program.
Should I talk to Pam?" Santangelo replied, "Yes . Remind me to look it over
on Monday." Horkan told the OIG that she "probably" followed up with
Pamela Cabell-Edelen but could not recall any details . The employee's
daughter was hired to a STEP position as a Clerk in the Departmental
Executive Secretariat (another unit of JMD Santangelo oversees) by the
Departmental Executive Secretariat Director, and began working on May 27,
2008, less than a month after the father 's e-mail to Santangelo.78

       Santangelo told the OIG that she did not recall receiving the e-mail
from the Visual Information Specialist asking for help, but stated, "I would
not have called Pam [Cabell-Edelen] and told her to get this young lady a
job .... I would never invite somebody to send me something like that.
That doesn't mean that they won't . .. . But I don 't send it on to HR and say
'Here, hire this person. '"

      The other three appointments that Santangelo told us she did not
know about appeared on the list of 11 interns working in HR as of June
2010, discussed in Part VI.A.3 above. As previously noted, these 11 interns
included at least 6 relatives of JMD employees. These HR interns included
Hamilton's son, Clay's daughter, and Horkan's niece (all of whom
Santangelo told us she knew about, as discussed above) as well as three

         78 We interviewed multiple JMD employees about this appointment. The Director of
the Departmental Executive Secretariat told us that, to her knowledge , neither Santangelo
nor Horkan played any role in the appointment of the daughter of the FASS Visual
Information Specialist. She further stated that the appointment was not made because of
any perception that Santangelo or Horkan favored it. Similarly, the HR Specialist
responsible for handling the daughter'S application, as well as two officials in the
Consolidated Executive Office , told the OIG that, to their knowledge , Santangelo and
Horkan had no involvement in the appointment. We nonetheless recommend in Part VIlLE
of this report that JMD consider conducting this inquiry and, if deemed necessary by JMD
leadership , take appropriate action if it finds that a hiring official granted an improper
preference to the FASS Visual Information Specialist's daughter in this situation.


                                            89
additional relatives of JMD employees: Cabell-Edelen's granddaughter (one
of two granddaughters working in JMD internships at the time), LaTonya
Gamble's daughter, and the son of a JMD Deputy Director. Santangelo said
she was not aware of the latter three appointments. 79

       Santangelo acknowledged that the large percentage of HR interns on
the June 2010 list who were related to JMD employees (6 out of 11, or 55
percent) was troubling. Santangelo made clear that the same prohibitions
against nepotism discussed earlier in the interview, including
recommending relatives, apply equally to the Department's intern programs.
She stated that selections for summer internships are supposed to be based
only on merit. With respect to the fact that 6 relatives of JMD employees
were appointed to 11 of the filled HR intern positions, Santangelo stated
that it "makes me wonder," and that she needed to look into the process to
ensure it is merit-oriented.

       B.     Analysis of the Conduct of Mari Barr Santangelo

       As the head of JMDHRA and Chief Human Capital Officer (SES), Mari
Barr Santangelo is ultimately responsible for ensuring that JMD / OBD
hiring complies with federal anti-nepotism statutes and regulations. We
believe that a fair assessment of Santangelo's handling of this responsibility
must take into account JMD's recurring problems with hiring and the OIG's
prior recommendations for corrective action. In particular, the OIG's 2008
Report focused on allegations that Hamilton's predecessor had engaged in
nepotism and other violations of Merit System Principles with respect to
hiring and promoting relatives and friends. The 2008 Report - which was
issued during Santangelo's tenure as DAAG - described the OIG 's earlier
2004 Report about other improper hiring practices in FASS, so Santangelo
was aware of both reports. The 2008 Report criticized existing training
programs for failing to "instill within FASS a culture of compliance with the
rules and principles of merit selection and the Standards of Ethical
Conduct" and recommended remedial ethics training specifically addressing
these rules and standards in the hiring and promotion context. We
recommended that JMD "establish a zero-tolerance policy for future
violations of this type in FASS."

      We recognize that Santangelo took steps to implement these
recommendations. She helped plan and implement JMD's responses to
these 2008 recommendations, which included staff meetings and online

       79 In addition, e-mails and witnesses identified three other HR interns working
during this time who had personal rather than professional connections to JMD employees:
an acquaintance of an HR Specialist, a friend of Markham's neighbor, and a relative of
McEachron's neighbor. We did not expand the scope of our review to investigate the
circumstances of these appointments .


                                          90
training sessions addressing ethics, Merit System Principles, and Prohibited
Personnel Practices. In particular, Santangelo convened meetings of JMD
Senior Staff, including Assistant Directors and Deputies, in which she spoke
"strongly to absolute adherence to merit system principles and prohibited
personnel practices. " The following March, Santangelo met with Edward
Hamilton to discuss the 2008 Report and "the prohibited practices noted in
[the] report," so that Hamilton would "understand [JMD's] absolute
adherence to [Merit System Principles and Prohibited Personnel Practices]."
During her GIG interview, Santangelo demonstrated that she has a
thorough and accurate understanding of the relevant laws and regulations,
including the prohibition on advocating for relatives .

       However, our findings in this report demonstrate that problems
continue to exist in JMD with respect to the hiring of relatives, and that
Santangelo did not take adequate steps to prevent or respond to the
violations described in this report. Santangelo told us that before the GIG
initiated its review, she was aware of at least six instances in which relatives
of JMD employees had been hired, all of which occurred after the GIG 's
2008 Report was issued. 80 We recognize that Santangelo did not participate
in the decision to hire any of these individuals. However, we believe that
Santangelo should have viewed each of these appointments as warning
signs when she learned of them. In view of the GIG's 2008 Report,
Santangelo was on notice of a management problem, and she should have
more actively responded to indicators that the problem persisted.

      When Santangelo learned that Cabell-Edelen had hired Hamilton's
son, she relied on Markham's assurances that there was no concern about
improper hiring practices. She did not immediately question Hamilton, but
waited until Hamilton came to tell her about the appointment before asking
him if he had been involved. She did not question Cabell-Edelen (who hired
Hamilton 's son) about Hamilton's role in the appointment. In short, we
believe her response to learning that the FASS Director's son had been hired
into JMD was too limited, even though she was aware that Hamilton's
predecessor as Director of FASS had been removed just 17 months earlier in
connection with hiring a relative.



         80 As noted above , Santangelo told us she was aware of at least seven appointments
of JMD employees' relatives (Hamilton's son , Clay's daughter, Horkan's son , Cabell-Edelen's
daughter, Markham 's nephew, Horkan's niece , and a FASS Woodcrafter's daughter). She
also told us , however, that she did not learn that Hamilton had hired Cabell-Edelen's
daughter as his secretary until after this investigation had commenced. We are therefore
not criticizing Santangelo 's failure to inquire more searchingly about this particular
appointment, because our investigation had already begun by the time she learned about
it , and we had requested that she not undertake any separate investigation.


                                             91 

      When Santangelo learned that Clay's daughter had been hired in
JMD, she did not ask Clay any questions about whether he was involved in
getting his daughter a job. She said she asked Horkan about whether she
was involved in her son's appointment, but did not later ask the same
question about the appointment of Horkan's niece.

      We acknowledge the limited inquiries Santangelo made when she
learned about these appointments of relatives. She told us that in each
case she was assured that the JMD employees had no involvement in the
appointments . It is not unreasonable for a manager to expect she can rely
on the assurances of her staff. However, we find it insufficient that she
continued to rely on these assurances without conducting further inquiry,
particularly because there was not just a single, isolated occurrence of
employee involvement in the hiring of a relative. At some point, the
numerous instances of relatives being hired should have triggered more
probing inquiries by Santangelo, particularly in light of the past nepotism
and other hiring problems in JMD .81

       Moreover, she should not have relied on the assurances of the
employee whose relative was hired because that employee was the person
suspected of advocating on the relative 's behalf. Instead, she should have
made inquiries with the hiring officials . Santangelo told us that all of the
officials she questioned told her that they had no involvement in the
appointment of their relatives. In fact, as detailed above, in each case the
JMD employees actually had significant involvement in these appointments.

        Santangelo had better options than merely relying on a succession of
assurances that there had been nothing inappropriate about the relatives'
hiring. In addition to more thoroughly examining these appointments,
particularly after learning of several of them, and imposing discipline in the
instances of violations of law and policy, she could have issued a formal
reminder to staff regarding the prohibitions on nepotism, misuse of public
office, and conflict of interest. Moreover, she could have directed her staff to
abide by the bright line rule regarding relatives' applications for employment
with the Department t~at Santangelo described to us - "stay out of it
entirely." This bright line approach would be consistent with a goal of

       81 After reviewing a draft of this report, Santangelo told us that, on several separate
occasions, she asked then-HR Director Markham to examine the appointments and
application processes discussed in this report in order to confirm that appropriate laws and
regulations had not been violated. She stated that Markham told her that he personally
reviewed the files , and assured her that all processes were properly followed , stating "all
paperwork was in order. " We do not believe that these inquiries were adequate, for the
reasons stated. Among other things , nepotism is not a paperwork issue ; Santangelo should
not have expected that any relevant evidence of improper hiring practices would be
contained in personnel files.


                                             92
establishing a "zero tolerance policy," a 2008 OIG recommendation with
which JMD concurred.

       We also considered Santangelo's own involvement in circulating the
resumes of relatives of two other JMD employees: the daughter of a FASS
WG-4605 Woodcrafter and the daughter of a FASS Visual Information
Specialist. These were not Santangelo's own relatives, and her stated
motive in the Woodcrafter's daughter's case was to assist the employee 's
relative in learning how to improve her resume and search for jobs she
could apply for. We found no evidence that Santangelo had a role in the
ultimate decision to hire these individuals , and we did not find that she
violated any ethics rules or merit principles. However, we believe that
Santangelo risked giving an unfair advantage to these applicants, even if
she did not intend to do so. Santangelo's e-mails to Markham could have
created the impression that she wanted the applicant to be hired because
she is related to a JMD employee - even if that was not her intent. 82

     In sum, we believe that there were management deficiencies in
Santangelo's supervision of hiring practices in JMD , and we refer this report
to JMD for the action that it deems appropriate.


VIII. Additional Observations and Recommendations

       A.      The OIG's Assessment of JMD Nepotism Training

       The OIG concluded that the ethics training and guidance provided to
JMD personnel - both in the aftermath of the OIG's 2008 Report as well as
annually - was generally well-produced and served as a suitable primer on
the Standards of Ethical Conduct for Employees in the Executive Branch,
codified at 5 C.F.R. Part 2635. Some guidance we reviewed, however,
particularly the treatment of certain non-ethics-related subjects, raised
concerns. We were troubled, for example, that the federal nepotism
prohibition was not addressed clearly or forcefully enough.

      Specifically, some materials - but not all - failed sufficiently to address
the problem of the federal official who, rather than directly hiring his

         82 After reviewing a draft of this report, Santangelo submitted a comment that
stated , in part, that she did not "implicitly or explicitly suggest to an employee, or act in
any manner toward an employee to help him or her believe they would receive any
favoritism from me , or that I would act in any way to assist their family members to gain a
federal job." Accepting this statement of Santangelo's intent as true, we nevertheless
believe that her e-mails to Markham could have created a contrary impression . We also do
not think it was appropriate for Santangelo repeatedly to direct Markham, over his protest,
to provide this assistance in what was essentially a personal favor Santangelo wanted to
provide to an employee .


                                             93 

relatives, recommends them to his colleagues. JMD's message has, at
times, been particularly unclear on this point, rendering ambiguous an
otherwise unequivocal federal nepotism prohibition. The "anti-advocacy"
prohibitions articulated in the nepotism statute and reiterated in the list of
Prohibited Personnel Practices announce an unambiguous rule, stating, in
substance: a public official shall not advocate for the appointment of a
relative to any person working in his agency.

       Many of the internal guidelines, plans, and instructional materials the
OIG reviewed during this investigation addressed the problem of advocating
on behalf of one's relatives either not at all or in a misleading way. For
example, a September 28, 2007, Memorandum from JMD 's then-HR
Director, purporting to instruct Component Human Resources Officers on
the subject of Merit System Principles and Prohibited Personnel Practices,
defined the applicable Prohibited Personnel Practice barring nepotism with
the following 5-word statement: "Employ or promote a relative." We believe
this brief definition is inadequate because the federal nepotism regulations
on their face prohibit far more than employing or promoting a relative.

       Even those materials that specifically address the issue of advocacy,
the OIG concluded, do little to clarify the scope of the federal nepotism
prohibition. For example, the above-referenced Merit System Principles and
Prohibited Personnel Practices "fact sheets" prohibit "advocat[ing] the hiring
or promotion of relatives," but immediately undercut this salutary
instruction with the following, highly misleading example: "Second-level
supervisor Jane asks first-level supervisor Joe to hire her son." As
described above, the federal nepotism prohibition bars advocating for a
relative's appointment - whether inside or outside one 's chain of command ­
and reaches conduct short of an explicit request to hire a relative. Such
guidance misleadingly signals to employees that advocacy on behalf of a
relative's appointment occurs only when an official specifically asks or
instructs her subordinate to hire her relative.

       Other anti-nepotism guidance the OIG reviewed provided similarly
misleading advice by again stating that an official engages in prohibited
"advocacy" only when he refers his relative to a subordinate. For example,
the Merit Promotion Plan for the Offices, Boards and Divisions of the
Department of Justice (OBD Order 1335. 1) states outright that a public
official has "advocated" for a relative if he or she "recommends a relative, or
refers a relative for consideration by a public official standing lower in the
chain of command, for appointment, employment, promotion, or
advancement . .. " (Emphasis added.) To be sure, as the Merit Promotion
Plan points out, "recommend[ing] ... or refer[ring] a relative for
consideration" to a colleague qualifies as "advocacy." As explained above,
however, the nepotism statute, 5 U.S.C. § 3110, by its plain language
prohibits advocating for the hiring of a relative to any person in the same

                                      94 

agency, not just to persons in the same chain of command. The Merit
Promotion Plan's "chain of command" language arguably (and incorrectly)
implies that advocating for a relative is acceptable provided that the
advocacy is directed to someone outside of the advocate 's chain of
command. 83 We believe that the quoted provision of the Merit Promotion
Plan should be replaced with a broader formulation , in keeping with the
broad scope of the federal nepotism prohibition. 84

       B. 	    Recommendations

       This report marks the third occasion in eight years that the OIG has
found illegal hiring practices in JMD . . We note that, other than the handful
of exceptions identified in Part VIlLA of this report, the guidance and
training materials the OIG reviewed were adequate to the task of educating
JMD staff about relevant laws and regulations . However, based on the
incidents described in this report, JMD senior leadership must exercise
more vigilance to ensure that the requirements and prohibitions described
in the training materials are followed by JMD's managers .

       In addition to the disciplinary referrals discussed above, we believe
that JMD should take corrective action to prevent similar conduct from
occurring in the future. The significant number of instances of improper
advocacy and related conduct detailed in this report indicates that existing
training and guidance, including the training programs instituted in
response to the OIG's 2008 Report , have not been effective .

               1. 	    Revise Training Materials and Guidance to Conform to
                       the Nepotism Statute

       In light of the history of hiring abuses in JMD, we recommend that
training materials and all oral and written guidance - including the Merit
Promotion Plan provisions described above - be revised to reflect the plain
language of the nepotism statute, 5 U.S .C. § 3110, which prohibits
advocating for the hiring of a relative to any person in the same agency, not
just to persons in the same chain of command. We specifically recommend
that all such guidance include language making clear that the prohibition
on nepotism is not limited to communications to persons in the same chain
of command. We fear that some of the current guidance, as described

       83 The cited provision of the Merit Promotion Plan (which appears in Chapter 1,
Section 7) was lifted verbatim from a version of a federal regulation , 5 C.F.R. § 310.103(c),
that was superseded in 2005. In issuing a new version of the regulation , OPM deleted the
"chain of command" language , which did not find textual support in the nepotism statute.
        84 We note that none of the JMD employees alleged to have engaged in nepotism
cited the Merit Promotion Plan as the basis for their claimed belief that the nepotism
prohibition does not apply to advocacy outside of the employee's chain of command.


                                              95
above, might contribute to a misunderstanding of the prohibitions on
nepotism. We further recommend that all such guidance state that the
words "advocate for appointment" should be construed broadly in keeping
with the Merit System Principle of ensuring that recruitment and selection
is based "solely" on merit "after fair and open competition which assures
that all receive equal opportunity," and that employees wishing to have any
communications with other DOJ employees regarding the potential
employment of their relatives should first consult an ethics official.

               2. 	    Require Disclosure of Applications by Relatives and
                       Certifications

       We recommend that JMD require that applicants for positions
disclose whether any of their relatives, as defined in 5 U.S.C. § 3110(a)(3), or
any members of their household, work at DOJ.85 We further recommend
that JMD consider establishing a rule that any senior JMD employee,
including any GS-14 or above, having knowledge that his or her relative is
applying for a position in JMD must disclose to a designated senior official
the existence of the application and certify his or her non-involvement in
the relative's recruitment and selection process (including sharing resumes
or referring, recommending, or in any way endorsing the relative's
candidacy) .

       In addition, any JMD official who makes an appointment of a
candidate should disclose whether the JMD official is aware that the
applicant is known to be a relative of a JMD employee. If that is the case,
the JMD official should be required to: (1) certify that the. JMD employee
played no role in his or her relative 's recruitment and selection process
(including sharing resumes or referring, recommending, or in any way
endorsing the relative 's candidacy); (2) certify that the existence of the
familial relationship did not influence the hiring official's decision; and (3)
obtain the written approval of the designated senior official prior to making
the selection. We also recommend that JMD consider requiring all of its
supervisors to disclose annually whether any relative is employed by DOJ
and to certify annually that they played no role in the recruitment or
selection (including sharing resumes or referring, recommending, or in any
way endorsing the relative's candidacy) on behalf of any relative.



        85 The nepotism statute defines "relative" as a "father , mother, son , daughter,
brother, sister, uncle , aunt, first cousin , nephew, niece , husband , wife , father-in-law,
mother-in-law, son-in-law, daughter-in-law, brother-in-law, sister-in-law, stepfather,
stepmother, stepson , stepdaughter, stepbrother, stepsister, half brother, or half sister. " 5
U .S.C. § 3110(a)(3).




                                              96
             3. 	   Review Whether JMD Hiring Officials Granted an
                    Improper Preference to Job Applicants because of
                    their Family Connections

       We also recommend that JMD consider reviewing the appointments
discussed in this report, to the extent that JMD leadership considers it
necessary to do so, in order to determine whether officials granted
unauthorized preferences to the candidates who were appointed. The focus
of the OIG's investigation was on allegations that certain JMD officials had
played an improper role in the appointment of their and others' relatives.
Restrictions on such conduct are set forth in the nepotism statute and
Sections 502 and 702 of the Standards of Ethical Conduct. The question of
whether the ultimate appointment of the candidate was based on merit is
not relevant to these restrictions, which are triggered by advocacy in favor of
the candidate, "participation" in the hiring process, or misuse of the
advocating official's position.

        However, the fact that an official - particularly a senior official - has
advocated on behalf of his or her own relative at least raises the question
whether the person making the hire granted the applicant a "preference or
advantage not authorized by law, rule, or regulation" in violation of 5 u.s.c.
§ 2302(b)(6). The fact that a JMD official has improperly advocated on
behalf of his relative to another official who then hires the relative does not
necessarily mean that the other official failed to observe merit principles in
making the selection. The candidate may have been fully qualified for the
position and the selection may have been made consistently with merit
principles. However, it may be difficult for a hiring official to ignore the
advocacy of a senior official, even if the hiring official is not in the same
chain of command. Moreover, there exists the possibility that the hiring
official will grant an improper preference to the applicant because of a
friendship between the advocating official and the hiring official.

       Reviewing the underlying merits of each of the appointments
discussed in this report was beyond the scope of our investigation.
However, we recommend that, to the extent that JMD leadership deems it
necessary, JMD review each of the hiring decisions discussed in this report
to determine whether the hiring official granted an inappropriate preference
to another employee's relative. Should JMD determine that a candidate did
receive an inappropriate preference because of the candidate's status as a
relative of a DOJ employee, JMD should impose appropriate discipline
against the hiring official who granted that preference. We do not
recommend that any action be taken against the individuals who were hired
as a result of any of the conduct described in this report, because they are
not at fault for the conduct. JMD should consider reviewing the following
appointments:


                                       97 

      •	    Whether JMD's Budget Director granted an improper preference
            to the cousin of HR Director Rodney Markham when she hired
            her as a Clerk in April 2009.
      •	    Whether the NSD Supervisory Management & Program Analyst
            granted an improper preference to the nephew of HR Director
            Rodney Markham when he hired him as a Summer Intern in
            June 2009 .
      •	    Whether the HR Assistant Director granted an improper
            preference to the niece of Nancy Horkan, Senior Advisor to
            DAAG Santangelo, when he hired her as a Program Specialist in
            HR's Programs and External Relations Section in October 2009.
      •	    Whether FASS Director Edward Hamilton granted an improper
            preference to the daughter of HR Assistant Director Pamela
            Cabell-Edelen when he hired her to be his secretary in
            November 2009 .
      •	    Whether HR Assistant Director Jeanarta McEachron granted an
            improper preference to the daughter of FASS Deputy Director
            Michael Clay when she hired her as a part-time GS-S/ 13 HR
            Specialist.

       Lastly, to facilitate future reviews of apparent hiring irregularities ,
including efforts to determine whether a hiring official granted an improper
preference to a DOJ employee's relative, we recommend that JMD review its
policies regarding the retention of applicant files.

            4. 	   Review Whether Nepotism, or Improper Preferences
                   Occurred in Connection with the Appointment of
                   Additional Relatives of JMD Employees Not
                   Investigated as Part of the OIG's Review

       Late in the course of the GIG's review, we learned of several additional
appointments of relatives of JMD employees that we were unable to
investigate. We did not attempt to identify every incident of a relative of a
JMD employee being hired into JMD. To the extent that JMD leadership
deems it necessary, JMD should conduct its own review of these
appointments to determine whether they involved misconduct, including but
not limited to violations of the nepotism statute, the Standards of Ethical
Conduct, or the granting of a "preference or advantage not authorized by
law, rule, or regulation" in violation of 5 U.S .C . § 2302(b)(6) . JMD should
consider reviewing the following appointments:

      •	    The decision by the Director of the Departmental Executive
            Secretariat to hire the daughter of a JMD Information Specialist
            as a Clerk in May 2008.

                                      98
       •	      The decision by FASS Director Edward Hamilton to hire a
               granddaughter of HR Assistant Director Pamela Cabell-Edelen
               as an Intern in June 2009.
       •	      The decision by Nancy Horkan, Senior Advisor to DAAG
               Santangelo, to offer a Summer Clerkship to the daughter of
               SEPS Assistant Director in May 2009.
       •	      The decision by HR Assistant Director Jeanarta McEachron to
               hire the daughter of HR Operations Chief LaTonya Gamble as a
               Student Intern in June 2009.
       •	      The decision by HR Director Rodney Markham to hire the son of
               a JMD Deputy Director after the Deputy Director informed
               Markham that her son was looking for an internship in June
               2010.
       •	      The decision by an HR Assistant Director to hire a second
               granddaughter of HR Assistant Director Pamela Cabell-Edelen
               as an Intern in May 2010.
       •	      The decision by FASS Deputy Director Michael Clay to hire the
               daughter of a FASS employee as a GS-5 Program Analyst in
               September 2010.

      In the event that JMD declines formally to review the above-described
hiring decisions, we encourage JMD leadership to, at the very least, reiterate
to those hiring managers the importance of strict adherence to proper hiring
procedures, including legal, ethical, and Merit System principles.

      As stated above, this report marks the third occasion in recent years
in which the OIG has found illegal hiring practices in JMD. Although our
2008 report recommended remedial training and the establishment of a
zero-tolerance policy for future hiring violations, neither measure has
addressed the problem. Although some of the training materials and other
guidance we reviewed addressed important topics (such as nepotism) in a
superficial and incomplete manner, the pattern of fundamental misconduct
described in this report did not stem from ignorance of the rules. Rather,
most of the misconduct described in this report - the nepotism, the
Prohibited Personnel Practices, the ethical lapses , the false and misleading
statements - was the result of bad behavior by individuals insufficiently
impressed with the principles of fair and open competition. 86



      86 After reviewing a draft of this report, the Assistant Attorney General for
Administration Lee J. Lofthus , submitted to the OIG a response to this report's
recommendations , which is attached as Appendix A.


                                             99
       We urge JMD to demonstrate its zero tolerance for such behavior and
vigilantly to enforce proper hiring procedures and applicable ethical
standards in the future.




                                   100 

AppenrlixA 

                                                             D par m nt f




                                                      We/shim; I n. D. . _0530
JU     3 012


MEMORANDUM FOR lV£ICHAEL E . HOROWITZ
               INSPECTOR GENERAL

FROM:                     Lee J. Lofthus
                          Assistant Attorney
                           for Adtninistratio

SUBJECT:                 Response to Recommendations Contained in the Office of the Inspector
                         General's (OIG) Investigation of 11llptoper Hiring Practices in the
                         Just.ice Managenlent Division - July 2012

Tills responds to the Investigation of Iinproper hiring Practices in the Justice Management
Division (lMD) dated July 2012. The report clearly established that inappropriate hiring
occurred regarding relatives of JMD employees. While it was a SInal! number of JMD staffs and
ind:ividualsimpIicated in the investigation, the report was particularly troubling as it identified
hiring inlproprieties for the third time in eight years. It is disappointing to me that \>ve have had
another instance of a s111all nUll1ber of individuals whose failure to fol1ow proper hiring practices
lTIay color the work of over 1,000 other dedicated JMD employees who properly follow the
hiring process.

The report recorrunends and I will put in place, appropriate and immediate con-ective actions to
ensure the probJelTIs are not repeated, and wi]] pursue disciplinary and other actions as
appropriate based on the circumstances of each of the cases raised in the report.

Recommendati'on 1: Revise [JMD] Training Materials and Guidance to Conform to the
Nepotisnl Statute.

Response: Concur. We will strengthen and clarify the training provided to all JMD staff,
supervisors and non-supervisors alike, regarding Merit Systellls Hiring Principles and
particularly the plain reading and broad applicability of the nepotisnl rules. Since receiving your
draft report last month, we have already updated ow' training materials and will incorporate thenl
into our upcOlning training classes inllTIediately.

Recommendation 2: Require Disclosure of Applications by Relatives and Certifications.

Response: Concur. Based on receipt of the draft OIG report, we have developed three new
certi fication [onns designed to prevent a reOCCUlTence of the ilnproper practices outlined in the
report. We have developed an applicant disclosure fonn that requires applicants to disclose
vvhether they have relatives working at DOJ; we have developed an analogous fonn whereby
any JMD enlployee with knowledge of a relative seeking enlployment witJl DOJ must disclose
that fact; and we have developed a JMD supervisory selecting official disclosllIe foml that
requires selecting officials to certify whether or not they are selecting a relative of their own, or
of any other DOJ employee and if so, certifying that no relative exerted influence on the hiring
decision and that the selec60n adhered to merit hiring principles. JMD will implement these
controls by July 27 2012, and I will designate an impartiaJ senior official in my own office to
review the disclosures and assure that confidentiality is maintained.

Recommendations 3 and 4: (3) Review \Vhether JMD Hiring Officials Granted an Inlproper
Hiring Preference to Job Applicants Because of Fanlily Connections' and (4) Review Whether
Nepotistn, or Improper PrefeTences Occurred in Connection with the Appointnlent of Additional
Relatives ofJMD Elnployees Not In estigated As Part of the OIG's Review.

Response: Concur. The report recOllll1ends that JMD consider whether proper practices were
followed in other potentia] instances that came to tbe attention of the investigators during the
course of the original in estigation. The lnajority of the additional instances involved the same
JMD staff already identified in the body of the OIG investigation as violating various hiring
rules, and as such, we believe we have already been provided with the basis for any appropriate
action. In the other instances, we "vill take appropriate rneasures to ensure the cited offices and
individuals are properly aware of the merit hiring principles.

The OIG report concludes by saying most of the ulisconduct identified in the report did not stem
from ignorance of the rules, but rather was the result of bad behavior by individuals
insufficiently impressed with the principles of fair and open competition. That is particularly
unfortunate as JMD did take action after the 2008 report to both improve its training and
discipline the individuals found to have committed nusconduct. There was no lack of aggressive
action after the last repol1. There also should have been no lack of clarity on the subject of
inappropriate hiring. Nonetheless, it is evident training alone cannot cOlnpensate for what your
report describes as bad behavior by the individuals involved. Accordingly, the additional
disclosures we are now putting in place should provide a layer of preventative and detective
con1rols I would have hoped were utUlecessary.

As noted above, the results of this investigation were very disappointing to me. I want JMD to
genuinely fulfill its role in ensuring fain1ess in hjring and providing sOLlnd human resources
111aJlagement across the Departnlellt. We will work to that end.




                                                  2

